<html>
<title> - LOCALLY GROWN: CREATING RURAL JOBS WITH AMERICA'S PUBLIC LANDS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                            LOCALLY GROWN:
                       CREATING RURAL JOBS WITH
                        AMERICA'S PUBLIC LANDS
=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION
                               __________

                        Thursday, July 15, 2010
                               __________

                           Serial No. 111-62
                                __________
       Printed for the use of the Committee on Natural Resources



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov




                              __________

                        U.S. GOVERNMENT PRINTING OFFICE
57-455 PDF                      WASHINGTON: 2010
________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office, http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 
202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f493849bb4978187809c919884da979b99da">[email&#160;protected]</a> 








                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Frank Pallone, Jr., New Jersey       Jeff Flake, Arizona
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Madeleine Z. Bordallo, Guam          Louie Gohmert, Texas
Jim Costa, California                Rob Bishop, Utah
Dan Boren, Oklahoma                  Bill Shuster, Pennsylvania
Gregorio Sablan, Northern Marianas   Doug Lamborn, Colorado
Martin T. Heinrich, New Mexico       Adrian Smith, Nebraska
Ben Ray Lujan, New Mexico            Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Grace F. Napolitano, California      Elton Gallegly, California
Rush D. Holt, New Jersey             John J. Duncan, Jr., Tennessee
Madeleine Z. Bordallo, Guam          Jeff Flake, Arizona
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
Martin T. Heinrich, New Mexico           Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Bill Shuster, Pennsylvania
Donna M. Christensen, Virgin         Robert J. Wittman, Virginia
    Islands                          Paul C. Broun, Georgia
Diana DeGette, Colorado              Mike Coffman, Colorado
Ron Kind, Wisconsin                  Cynthia M. Lummis, Wyoming
Lois Capps, California               Tom McClintock, California
Jay Inslee, Washington               Doc Hastings, Washington, ex 
Stephanie Herseth Sandlin, South         officio
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Ben Ray Lujan, New Mexico
Nick J. Rahall, II, West Virginia, 
    ex officio

      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 15, 2010..........................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona, Prepared statement of....................    11
    Herseth Sandlin, Hon. Stephanie, a Representative in Congress 
      from the State of South Dakota.............................     2
    Lujan, Hon. Ben Ray, a Representative in Congress from the 
      State of New Mexico........................................     1
    Lummis, Hon. Cynthia M., a Representative in Congress from 
      the State of Wyoming.......................................     2

Statement of Witnesses:
    Curtis, Wes, Vice President for Government Relations and 
      Regional Services, Southern Utah University, Cedar City, 
      Utah.......................................................    48
        Prepared statement of....................................    49
    Dearstyne, Joyce, Executive Director, Framing Our Community, 
      Inc., Elk City, Idaho......................................    41
        Prepared statement of....................................    43
    Jensen, Jay, Deputy Under Secretary, Natural Resources and 
      Environment, U.S. Department of Agriculture................     3
        Joint prepared statement of..............................     5
    Laurance, Joseph A., Douglas County Commissioner, Roseburg, 
      Oregon.....................................................    18
        Prepared statement of....................................    19
    Lee, Don L. (Bebo), New Mexico Public Lands Council, and New 
      Mexico Cattle Growers' Association, Alamogordo, New Mexico.    54
        Prepared statement of....................................    56
    Mondragon, Rachael, Owner, Urban Interface Solutions, Taos, 
      New Mexico.................................................    63
        Prepared statement of....................................    64
    Moseley, Cassandra, Ph.D., Director, Ecosystem Workforce 
      Program, University of Oregon..............................    33
        Prepared statement of....................................    35
    Parker, Melanie, Executive Director, Northwest Connections, 
      Swan Valley, Montana.......................................    73
        Prepared statement of....................................    75
    Sobeck, Eileen, Deputy Assistant Secretary for Fish and 
      Wildlife and Parks, U.S. Department of the Interior........    12
        Prepared statement of....................................    13
    Troy, Kristin, Executive Director, Lemhi Regional Land Trust, 
      Salmon, Idaho..............................................    68
        Prepared statement of....................................    70
    Vasquez, Victor, Deputy Under Secretary, Rural Development, 
      U.S. Department of Agriculture.............................     9
        Joint prepared statement of..............................     5

Additional materials supplied:
    List of documents retained in the Committee's official files.    81
    von der Esch, Leigh, Managing Director, Utah Office of 
      Tourism, Statement submitted for the record................    59




    OVERSIGHT HEARING ON ``LOCALLY GROWN: CREATING RURAL JOBS WITH 
                        AMERICA'S PUBLIC LANDS''

                              ----------                              


                        Thursday, July 15, 2010

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:51 a.m. in 
Room 1324, Longworth House Office Building, Hon. Raul Grijalva 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, DeFazio, Herseth 
Sandlin, Lujan, Bishop, Young, and Lummis.
    Also present: Representative Minnick.

 STATEMENT OF THE HONORABLE BEN RAY LUJAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Lujan [presiding]. I would like to call this hearing to 
order. There are some old misconceptions about Federal lands in 
the West and the agencies which manage them. Some assert that 
our public lands are job killers and that the Federal land 
managers want to seize private land, halt industries, and harm 
economies. These accusations are wrong, and they undermine 
western communities by framing their struggles as a choice 
between economic development and conservation. That is a false 
choice, which ignores that many communities are successfully 
both.
    Given that the folks actually live in the West that we are 
going to be hearing from today, we will be well served to 
listen to them. Their approach is not to tear things down, but 
rather to build consensus, and even collaborate with old 
adversaries. And their goal is to apply the principle that the 
long-term health of the community and the land, and the well-
being of our rural communities are all linked.
    We will hear today from public land managers, county 
commissioners, ranchers, and environmentalists, small business 
owners, and educators, and they will tell us about the ways 
that they are working together to chart a new path to 
prosperity using our public lands.
    I know that this has not been an easy road at times, 
especially in the wake of the worst financial crisis since the 
Great Depression. But for those communities that were dependent 
on just one commodity for their development, this evolution is 
extremely critical. We look forward to hearing your stories 
today, but we also need to learn from them. So I also invite 
the witnesses to share with us the challenges and obstacles 
that you have faced in implementing your projects. I want to 
hear your frustrations, but more importantly, I want your input 
on how we can better support your efforts.
    Whether doing a round-up, battling a wildfire, or 
confronting a flood, rural communities are well suited to 
teamwork, and they always have persevered. Today, as they forge 
novel partnerships to create sustainable jobs, revive 
communities, and restore the unique western landscape, they are 
riding a new and promising chapter in the rich history of the 
American West.
    I want to thank all of the witnesses for traveling so far 
today in what I know is a busy time of year to join us, 
especially in this humidity. I understand that Ms. Troy, who is 
on our third panel, even left a Salmon River rafting trip to 
come testify today. Now, that is sacrifice.
    I look forward to hearing from you today, and I now turn to 
the Ranking Member for any opening comments that she may have.

STATEMENT OF THE HONORABLE CYNTHIA LUMMIS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF WYOMING

    Ms. Lummis. Well, thank you, Mr. Chairman. I too want to 
welcome the panelists. We are delighted that you would join us 
today. I find some irony, I must admit, in the fact that we 
just passed a bill moments ago by the full Natural Resources 
Committee that will actually kill jobs on Federal lands, and 
now we are having a hearing on how to create jobs on Federal 
lands. That does seem to be the tone that we are fighting on 
the minority side of the aisle this year.
    So I am looking forward to hearing what opportunities you 
see, in spite of the tide of job killing bills that are coming 
out of this Congress, on how we might repair some of the damage 
being done these two years, and how we might go forward in a 
direction that really does solidify a commitment to multiple 
use on public lands. And again, I am really delighted that you 
are here. Thank you very much for joining us.
    Mr. Lujan. Ms. Herseth Sandlin.

    STATEMENT OF THE HONORABLE STEPHANIE HERSETH SANDLIN, A 
   REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH DAKOTA

    Ms. Herseth Sandlin. Thank you, Mr. Chairman. And I too 
want to thank all of our witnesses on the first panel and the 
second panel for the insights you are offering to our 
Subcommittee. As I often hear when I visit forest communities 
in the Black Hills of South Dakota, one of the things that 
would do the most to create rural jobs while improving both 
forest health and increasing our energy independence would be 
to increase the production of renewable energy off of our 
Federal lands.
    We have enormous resources here as it relates to biomass, 
either for co-generation or advanced biofuels. In the Black 
Hills National Forest, for example, only 15 percent of the 
100,000 tons of dry slash that is removed from the forest every 
year, only 15 percent of it is used. The rest of it is piled up 
and burned. So I think we all can agree that that defies common 
sense. I mean, I hope we could agree that that defies common 
sense, in light of energy independence goals, healthy forest 
management, the amount of time that we can put into a forest 
plan that can address some of the concerns that some might want 
to raise without completely eliminating the option and allowing 
the Department of the Interior to put together the maps, as 
they have been doing, for where the wind energy may be on 
Federal lands, where the solar energy may be on Federal lands, 
where other resources are that we could extract on Federal 
lands. They should be able to do it for biomass as well.
    So when we have valuable forest resources going to waste 
rather than being put to work to create domestic energy and 
rural jobs, you can imagine the frustration of us since a very 
inappropriate definition was adapted in December of 2007, 
instead of an expanded definition for biomass like we 
successfully passed in the 2008 Farm Bill as it relates to 
renewable biomass. And it would go a long way in addressing 
this issue.
    So I look forward to--I know, Mr. Laurance, you include 
discussion of this in your testimony. I will be interested to 
hear from our Administration officials if we are any closer to 
supporting a definition from all of you in support of renewable 
biomass that works for our Federal forests. And I yield back 
and thank the Chairman for the recognition.
    Mr. Lujan. Thank you very much. And I will tell you, as 
this Congress moves forward to see what needs to be done to 
make sure we have good partnerships, where we are creating 
jobs, working on legislation to address the impacts and needs 
of what has happened in the Gulf, but as we look at energy 
around the country, there are good partnerships out there, and 
we are going to hear about some of those today.
    So with that, I am looking forward to the testimony, and we 
would like to begin with Mr. Jay Jensen, Deputy Under Secretary 
of Natural Resources and Environment for the U.S. Department of 
Agriculture.

   STATEMENT OF JAY JENSEN, DEPUTY UNDER SECRETARY, NATURAL 
   RESOURCES AND ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Jensen. Thank you. Mr. Chairman and members of the 
Subcommittee, thank you for inviting us today to discuss how 
USDA is using partnerships and collaboration to create jobs and 
prosperity in rural communities and near public lands.
    The USDA Forest Service, as the nation's second largest 
public land manager, manages 193 million acres of forest and 
grassland, directly providing not only clean air and water, but 
jobs and livelihoods for hundreds of thousands of Americans. 
Rural Development, whose $31 billion in loans, grants, and 
guarantees in 2009 equates to being one of the largest banks in 
America, plays an instrumental role in financing essential 
development for communities in and around our public lands.
    It is a privilege to be part of this historic partnership 
that we are charting here, as these two agencies have never 
worked as closely with common purpose on our forested lands. By 
building business relationships, we are accelerating innovation 
and investment, creating jobs and growth, while fostering a 
stewardship ethic that spans differences among citizens and 
interests.
    After recreation on the national forest system lands, which 
provide 224,000 jobs and accounts for over $14 billion in gross 
domestic product, timber management and related production is 
the second highest economic value derived from Forest Service 
activities, accounting for approximately 4.5 billion in GDP in 
2005. Further, we need to update these numbers, but the last 
comprehensive analysis in 2002 of all Forest Service activities 
found that the agency sustained or maintained more than 473,000 
jobs and contributed 23.7 billion in GDP.
    Building on this, it is our strong belief that we are on a 
course to accomplish even more work on national forest system 
lands today and produce more jobs from those lands over time as 
the agency carries out the All Lands Landscape-Scale Forest 
Restoration vision championed by Secretary Vilsack and Forest 
Service Chief Tidwell.
    I understand you will hear other testimony today in support 
of this, and outlining that we can create and maintain on 
average 20 jobs for $1 million invested in forest restoration. 
It is clear we need to build an economy around forest 
restoration, a forest restoration economy, if you will. We need 
to maintain what little forest management infrastructure we 
have left in our communities, both the human infrastructure and 
the brick and mortar infrastructure, and build new 
infrastructure around emerging opportunities and markets like 
woody bioenergy to economically sustained communities, while 
simultaneously restoring our forests.
    The path to get there is through collaboration and 
partnerships. Community-led efforts are playing a central role 
in delivering these benefits, while stewardship contracting, 
and the President's Fiscal Year 2011 proposed integrated 
resources restoration budget line item are key administrative 
tools to get there. The authority to enter into 10-year 
stewardship contracts is particularly important, as it gives 
the private sector the certainty it needs to finance necessary 
infrastructure investments. Clear, consistent, and predictable 
tools are key.
    Additionally, the $690 million integrated resource 
restoration line item is an essential new tool needed to get 
more work done, as it allows greater agency flexibility to 
tailor projects. A prime example of this is our current work in 
southeast Alaska. The USDA Forest Service and Rural Development 
are working in partnership to deliver jobs through a transition 
framework on the Tongass National Forest.
    Through this framework, a team of agency officials is 
coordinating with communities and interests to diversify the 
region's economy and to foster job growth based on a broader 
suite of forest restoration goods and services than has been 
attempted in the past. To bridge this transition, the agency is 
combining existing timber contracts with several long-term 
stewardship contracts to supply the existing forest products 
industry.
    Another example is the 4 Forest Restoration Initiative in 
Arizona. The initiative is a landscaped-scale restoration 
effort being collaboratively developed to protect communities 
from wildfire. Emanating from the successful collaborations 
that brought us the first major long-term stewardship contract, 
the 150,000-acre White Mountain Apache-Sitgraves stewardship 
contract, this second generation collaborative seeks to restore 
approximately 2.4 million acres of ponderosa pine forest. This 
is exactly the type of effort envisioned by Secretary Vilsack, 
and provides the kind of predictability needed for business 
investment.
    One more example can be found in the Ouachita National 
Forest in Arkansas. Restoration of short-leaf pine, bluestem 
grass ecosystem habitat for the endangered red-cockaded 
woodpecker has been a focus for several years. But through 
collaboration and a focus on science-based projects, regular 
timber sales are occurring, providing a predictable, good 
supply to the mills in the region. Forest restoration goes hand 
in hand with economic development.
    And my testimony today would not be complete without 
mention of the work supported by the American Recovery and 
Reinvestment Act. Americans are heading back to work this 
summer, with the $1.15 billion provided to the Forest Service 
as it hits the ground. Hundreds of projects are underway, such 
as the Woody Biomass Utilization Partnership, a public-private 
partnership in southwestern Idaho investing 9.75 million in 
sawmills, a pellet mill, and dry kiln infrastructure.
    And President Obama is serious about jobs on public lands. 
The recently launched America' Great Outdoors Initiative in 
predicated on collaboration and partnerships. The agenda is 
grounded in finding the most successful local initiatives 
across the country to spur conservation on public lands while 
simultaneously promoting economic opportunity.
    These are just a few examples that I was glad to share with 
you today, and I look forward to answering your questions. 
Thank you.
    [The joint prepared statement of Mr. Jensen and Mr. Vasquez 
follows:]

   Joint Statement of Victor Vasquez, Deputy Under Secretary, Rural 
Development, and Jay Jensen, Deputy Under Secretary, Natural Resources 
        and Environment, United States Department of Agriculture

    Mr. Chairman and members of the Subcommittee, thank you for 
inviting us today to discuss rural job creation and the importance of 
collaboration among individuals, interest groups, and communities and 
the United States Department of Agriculture (USDA), Rural Development 
and Forest Service agencies.
    Today we will discuss the value of partnerships and community 
collaboration in job creation, and provide examples of successful 
collaborative economic diversification efforts of the Forest Service 
and USDA Rural Development throughout the United States. We believe 
that collaboration can leverage the unique capabilities of each agency; 
can accelerate our efforts to assist rural communities in creating 
prosperity and jobs; can develop shared land stewardship through 
citizen engagement; and can be an effective tool to bridge differences 
among interest groups and to consider the needs of the public.
    Our USDA strategy includes working collaboratively across interests 
and jurisdictions to support locally driven regional economic 
development strategies, to increase economic opportunity, and improve 
the quality of life in rural communities. We have held listening 
sessions around the country to develop ideas to stimulate the economy. 
These collaborative efforts help create jobs and economic prosperity in 
renewable energy production, recreation and tourism, regional economic 
planning, infrastructure development, and natural resource management.
RECENT EFFORTS
    Our agencies accomplish much of our work through collaboration with 
a diversity of partners, leveraging millions of appropriated dollars 
annually that creates and maintains rural jobs.
    Our most recent data for fiscal year 2009, the Forest Service 
entered into 8,931 grants and agreements with partners, under which it 
contributed $1.02 billion, and leveraged $461.8 million, for a total 
value of partnered efforts of $1.48 billion. The Forest Service 
distributed American Reinvestment and Recovery Act of 2009 (ARRA) 
contracts and grants in FY2009 totaling $1.12 billion. In that same 
year, including substantial additional investment made possible by the 
ARRA and leveraged funds, Rural Development provided over $31 billion 
in loans, grants, and loan guarantees for rural housing, community 
facilities, infrastructure, and business development.
SOME EXAMPLES
    The Southeast Alaska Transition Framework--Last summer, we visited 
southeast Alaska, visiting native communities and attending listening 
sessions with local officials and residents. While there, we co-hosted 
two economic diversity workshops to better understand how USDA can 
support a diversified economy and range of opportunities for Southeast 
Alaskan. At the close of these workshops, USDA regional staff committed 
to hold similar workshops in every community in Southeast Alaska; those 
sessions have brought about new ideas and possibilities for leveraging 
the agencies of the USDA and have become a blueprint for Rural 
Development and the Forest Service to work in local communities all 
across the nation. The following initiative was the result of this 
trip.
    The Forest Service and Rural Development in Southeast Alaska have 
formed a team to help local communities transition to a broader 
economic base, based on a suite of goods and services that can provide 
diversified jobs and community stability, where timber historically 
provided the backbone.
    The transition is based on shifting management emphasis towards 
multi-year stewardship contracts and young growth management. This 
strategy is supported by both the timber industry and environmental 
groups as a way to maintain the health and diversity of the forest, and 
meet market demand. The USDA team will coordinate with State and local 
governments, tribal entities, local stakeholders, non-profit and for-
profit organizations to diversify economic opportunity and create and 
maintain jobs on a broader suite of goods and services. The first of 
several long-term stewardship contracts will be implemented by the 
Forest Service in 2011 which will give the existing forest products 
industry the needed supply to maintain current jobs while Rural 
Development works to retool and transition to the new framework. Next 
steps include development of a Strategic Plan, infusion of Rural 
Development program funding, and targeting business and infrastructure 
needs to help stimulate growth of new businesses and job creation.
    The Appalachian Regional Development Initiative--Rural Development 
is collaborating with the Forest Service, the Appalachian Regional 
Commission, and a host of additional federal agencies on the 
Appalachian Regional Development Initiative, which seeks to provide 
federal support for regional economic development efforts across 
Appalachia, including those focused on sustainable natural resource 
development, recreation and tourism, and green job creation. Over the 
past six months, an Interagency Working Group hosted five listening 
sessions across the Appalachian region to gather feedback from local 
stakeholders on the challenges and opportunities to diversifying and 
strengthening their regional economies. The Working Group gathered 
additional public comments through an online outreach page, and a team 
of government economists crafted a holistic assessment of the region's 
economic assets and challenges to development in the region. In the 
coming months, we will announce a new federal strategy for supporting 
development efforts in Appalachia, focusing on supporting 
comprehensive, community-driven planning with sustainable natural 
resource development.
    Stewardship Contracting--The Forest Service through stewardship 
contracting has the ability to enter into 10-year contracts, enhancing 
industry's ability to create and maintain jobs. The private sector now 
has the kind of certainty needed to work closely with financial 
institutions to secure the types of loans and financing to build the 
infrastructure needed, both human and brick and mortar, to economically 
sustain communities while simultaneously restoring our forests.
    Stewardship contracts help meet local and rural community needs 
through collaborative planning and implementation and contribute to the 
sustainability of rural communities by improving forest health and 
natural resource resiliency, providing opportunities for local income 
and employment, and fostering greater public involvement in project 
stages. In FY 2009, the Forest Service entered into 141 stewardship 
agreements and contracts on 88,304 acres, including vegetation 
treatments for product, health, and fuels reduction, wildlife habitat 
and watershed improvement, road improvement, and utilization of forest 
biomass for energy production. The President's FY11 budget supports the 
use of this tool to facilitate greater accomplishment in the forest and 
greater economic development in communities.
    Secure Rural Schools--The Forest Service will have 118 Secure Rural 
Schools and Community Self-Determination Act Resource Advisory 
Committees (RACS) fully functional by the end of the year in 33 states. 
These groups collectively select projects that will benefit national 
forests and nearby communities. Oftentimes, these projects are 
contracted, and thus, help local communities economically. In selecting 
the projects, RAC committees collaboratively learn each other's views, 
interests and desires for national forest management and come to 
agreement on projects to recommend. The result has been an unequivocal 
success. Investment in such a collaborative process is a key ingredient 
to finding project success. As testament, not one project selected by 
RACS for funding has ever been appealed or litigated.
    National Forest Scenic Byways Program--Two of the goals of the 
National Forest Scenic Byways Program are to support and enhance rural 
community economic development, and to increase public awareness and 
understanding of national forest activities and the importance of 
sustaining healthy, productive ecosystems. The National Forest Scenic 
Byways Program, with 137 national forest scenic byways, is a success 
because it unites rural communities, empowers collaboration among 
diverse partners, and offers travelers a way to ``make the journey as 
important as the destination.'' We have found that tourism can be 
greatly increased as well. On the Kangamanus Scenic Byway in the White 
Mountain National Forest, approximately 6 to 7 million visitors enjoy 
scenic overlooks, hiking trails, and numerous historic sites. After 
Scenic Byway designation, local communities, citizens, and forest 
officials forge agreements on signage, tourism facilities, and roadside 
attractions and stops. Oftentimes, the new relationships prove to be a 
catalyst for new marketing and funding opportunities available through 
the National Scenic Byways Program and State transportation agencies. 
The emphasis on promoting community tourism has been one of the most 
popular aspects of byway designation with rural communities.
    America's Great Outdoors Initiative--President Obama announced in 
April of this year his America's Great Outdoor Initiative to help craft 
a conservation agenda for the 21st Century. Administration officials 
are traveling across the country this summer to hear ideas, issues, 
problems, and solutions directly from local communities. This agenda is 
grounded in finding the most successful initiatives from across the 
country to spur conservation of our public and private land resources 
while simultaneously promoting economic opportunities. In fulfilling 
America's Great Outdoor Initiative, Secretary Vilsack and the USDA are 
finding that outdoor recreation provides opportunities for Americans to 
participate in stewardship activities.
    Recently, Secretary Vilsack highlighted how outdoor recreation on 
National Forests and Grasslands alone directly provides 225,000 jobs 
and contributes over 14.5 billion to the economy. The outdoor economy 
is particularly important to rural America.
    Integrated Resource Restoration (IRR)--The President's fiscal year 
2011 budget emphasizes a new line item called Integrated Resource 
Restoration. The new line item has tremendous potential to create and 
maintain jobs through projects that are developed in collaboration with 
partners and communities. Recent studies show that for every one 
million invested in forest restoration and timber work on public lands, 
nearly 20 jobs are created. \1\ This is one of the highest returns on 
the dollar of any federal investment.
---------------------------------------------------------------------------
    \1\ Max Nielsen-Pincus & Cassandra Mosely, Economic and Employment 
Impacts of Forest and Watershed Restoration in Oregon, in Institute for 
a Sustainable Environment, Ecosystem Workforce Program, Working Paper 
Number 24. (Spring, 2010: University of Oregon Press).
---------------------------------------------------------------------------
    Four-Forest Restoration Initiative, Arizona--National forest 
managers in northern Arizona have been working for years to reduce the 
threat of high-intensity, potentially-destructive wildfires to 
neighboring communities through a variety of means. The 4-Forest 
Restoration Initiative (4FRI), involving the Apache-Sitgraves, 
Coconino, Kaibab, and Tonto National Forests, will provide economic 
opportunities to local communities through the utilization of small-
diameter forest products, and is aimed at collaboratively designing a 
multi-decade restoration program. The project will use a variety of 
tools, including mechanical thinning and prescribed fire, to achieve 
landscape-scale forest restoration. Because of the landscape-scale of 
this restoration (approximately 2.4 million acres of ponderosa pine 
forest), the 4FRI is expected to lead to as many as 50,000 acres per 
year being treated over a 20-year period. This will reduce treatment 
costs and provide restoration-based work opportunities that will create 
long-term, quality jobs. This initiative will restore watershed health, 
improve wildlife habitat, conserve biodiversity, protect old-growth, 
restore forest structure and function, reduce the risk of 
uncharacteristic wildland fire, and reintroduce natural fire into the 
ecosystem.
    Northeast Washington Forestry Coalition--The Northeast Washington 
Forestry Coalition (NEWFC) is a collaborative group formed in 2002. The 
``coalition'' is composed of representatives from environmental groups, 
the timber industry, forestry consultants, academics, and a wide range 
of other interests. The coalition has worked collaboratively with 
Colville National Forest staff on project level planning that has 
resulted in 22 projects being implemented without appeal or litigation 
on the Colville National Forest. This is an important accomplishment 
that helps maintain jobs.
    The NEWFC objectives include: demonstrating the full potential of 
restoration forestry to enhance forest health, public safety and 
community economic vitality; designing and implementing forest 
restoration and fuels reduction which demonstrate innovative approaches 
to forestry; and demonstrating how a diverse coalition of stakeholders 
can work together to successfully promote restoration forestry and 
community protection from wildfire.
    The NEWFC has engaged the local community and the larger ``natural 
resource'' community by bringing groups together based on common 
interests of forest health. The keys to the success of this process 
have been in the early engagement of groups and in extensive site-
specific field visits.
American Recovery and Reinvestment Act (ARRA)
    ARRA's greatest impact is still ahead of us. The summer 2010 will 
be the most active season yet. The Forest Service was appropriated 
$1.15 billion for wildland fire management and capital improvement and 
maintenance projects in FY2009. With nearly all the money obligated, 
Americans are being put back to work. For Wildland Fire Management, an 
estimated 5,900 direct jobs were created, and for Capital Improvement 
and Maintenance, estimated direct jobs equals 6,500. For Wildland Fire 
Management, 298 projects have been completed for $500 million, and 
capital improvement and maintenance projects totaled $650 million for 
407 projects. Examples of the program benefits include the creation of 
jobs in economically distressed areas, fuels reduction work, and the 
completion of numerous facility improvement, maintenance and renovation 
projects.
    Woody Biomass Utilization Partnership (ARRA)--The Forest Service 
has been instrumental in promoting wood utilization in southwest Idaho. 
Much of this work is being accomplished through the Woody Biomass 
Utilization Partnership (WBUP), a successful public-private partnership 
funded by the Idaho Department of Commerce; Adams, Boise, Gem and 
Valley Counties; the Forest Service and other federal grants, and 
private industry. The mission of the WBUP is to work with the private 
sector to promote woody biomass supply, to identify and develop 
markets, to develop mechanisms and acquire equipment to get supply to 
those markets and to promote product and organizational development 
that will aid in the development of woody biomass businesses and 
markets.
    The Partnership successfully competed for ARRA grants totaling 
$9.75 million to private businesses, including $4 million to Emerald 
Forest Products to complete construction of a sawmill and shavings 
plant that will create approximately 50 full time jobs. Of the grants, 
$2.75 million went to the Garden Valley school system in Boise County 
for conversion of the school's heating system to a woody biomass fueled 
plant. $2.5 million went to Evergreen Forest Products in Adams County 
for installation of a dry kiln at a local saw mill, resulting in the 
retention of at least 40 jobs in the County. Finally, $500,000 went to 
Treasure Valley Forest Products in Elmore County to expand its pellet 
mill, adding 15 new jobs at the mill.
LESSONS LEARNED AND FUTURE NEEDS
    The diversity of collaborative efforts is growing. Clearly, one-
size-fits-all approach is not always effective; communities and 
opportunities differ, and many of the strongest projects are conceived, 
principally financed, and led by partners in the private sector, the 
non-profit community, and local government. We have had great successes 
and believe that Regional efforts compound efficiency and energies. For 
example, in situations where interested individuals are engaged in the 
shared stewardship of their public lands, the Forest Service has a 
marked decline in both the incidence and costs associated with formal 
dispute, appeals, and lawsuits (as noted in the FY 2009 Environmental 
Conflict Resolution Report to OMB-CEQ, February 2010). Collaboration 
and partnerships take time, but often deliver long-term benefits and 
healthier communities.
    USDA is working to improve both internal and external 
communications, enhance transparency and accountability, strengthen 
collaboration, and increase the ability of programs to reach flexibly 
across traditional Mission Area boundaries.
CONCLUSION
    Our future success depends on working together--as communities 
sharing mutual interests, and as partners. The reality of federal 
budget constraints will create efficiencies, and collaboration will 
become more important than ever to find, create and leverage 
partnerships and private sector investments. Our successful 
collaborative efforts demonstrate that job creation, employment 
maintenance, and direct and indirect economic benefits are gained 
through these partnership efforts. In addition, community stability and 
cohesiveness, and important resource and infrastructure enhancement can 
be accomplished through partnership. We should make every effort to 
continue to support and expand these collaborative partnership efforts.
    Thank you for the opportunity to discuss these programs with the 
Subcommittee. We would be happy to answer any questions you may have.
                                 ______
                                 
    Mr. Lujan. Thank you very much, Mr. Jensen. And Mr. Victor 
Vasquez, Deputy Under Secretary, Rural Development, U.S. 
Department of Agriculture.

  STATEMENT OF VICTOR VASQUEZ, DEPUTY UNDER SECRETARY, RURAL 
          DEVELOPMENT, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Vasquez. Mr. Chairman, members of the Subcommittee, I 
want to thank you for allowing me the opportunity to discuss 
USDA Rural Development's commitment to creating jobs and 
assisting in creating vibrant growing communities in rural 
America. I am very pleased to be here with Deputy Under 
Secretary Jay Jensen representing the Forest Service, our 
sister agency.
    A healthy American economy depends on a prosperous rural 
America. Rural America supplies much of our nation's food, 
water, and safeguards our environmental heritage. Its role in 
establishing our nation's energy independence is growing every 
day, and our values are rooted in rural America. USDA Rural 
Development is committed to the future of rural communities; 
so, too, is the Forest Service. At Rural Development, we 
understand clearly that we cannot succeed if we work alone.
    We administer over programs that provide electric, 
telecommunications, broadband service, water and waste water, 
affordable housing, essential community services, and business 
development assistance to rural communities, residents, and 
businesses. Everything we do, without exception, is in support 
of our local partners. Last year, and Mr. Jensen alluded to 
this, we provided over $31 billion in loans, grants, and loan 
guarantees, every penny of which represents an investment by us 
in the success of others. Our success is not measured by 
anything we achieve ourselves. It is measured by the success of 
our partners. From that perspective, let me say simply that 
collaboration is a core value at Rural Development.
    Sustainable development also rests on a hard look at 
economic assets and opportunities. Federal grants and loans can 
jump start projects, but that alone cannot sustain communities 
over the long haul. One of our planning objectives is to 
encourage coherent regions with a commonality of interests to 
develop a first-rate, analytical perspective on the region's 
comparative economic advantages, and a realistic picture of 
economic drivers that can work for the region as a whole.
    From this perspective, we recognize that rural communities 
working in isolation are far less effective than multi-
community, multi-county collaborations that can pull resources, 
rationalize infrastructure investment, and efficiently deliver 
services. One of our goals is therefore to encourage and 
incentivize communities to participate in such cooperative 
efforts. And to support that effort, we are currently engaged 
in building a significantly upgraded community and economic 
development capacity within rural development itself. We have 
traditionally been very effective in supporting individual 
projects. Going forward, we want to ensure that each of the 
projects we fund is clearly placed within the context of a 
coherent community, a regional strategic plan, in order to 
maximize the return.
    There are a number of compelling examples of such regional 
collaborations. One was mentioned earlier, and provided in our 
written testimony, the Southeast Alaska Transition Framework, 
where we are collaborating with the Forest Service to assist 
communities in developing a more diversified economic base.
    In the dry forest zone in eastern Oregon and California, we 
have entered into a cooperative agreement with a nonprofit 
organization called Sustainable Northwest. This partnership is 
developing a regional model to increase the viability of 
sustainable forestry in rural communities. Sustainable 
Northwest will be conducting workshops and facilitating 
coordination among partners and stakeholders. They will be 
helping to generate increased private sector investment and 
sustainable, renewable energy generated from biomass.
    Two thousand miles to the east, we are collaborating again 
with the Forest Service through the Appalachia Regional 
Commission and a host of additional Federal agencies on the 
Appalachia Regional Development Initiative, which seeks to 
provide Federal support for regional economic development 
efforts across Appalachia, including those focused on 
sustainable natural resource development, recreation and 
tourism, and green job creation.
    On a national scale, we are working with four regional 
rural development centers to develop a new initiative called 
Stronger Economies Together, or SET. This program will provide 
training and technical assistance to local communities and 
counties that are working together in a multi-county planning 
effort.
    The opportunities are there. The rural residents I have 
spoken with often say that at this point in time, there is more 
potential for economic growth in rural America than at any time 
in the past. Rural broadband, rural energy, renewable energy, 
the quality of life advances in transportation infrastructure, 
tourism and recreation, the agricultural and natural resources 
base, local and regional food system networks, emerging 
ecosystem markets--all of these are viable foundations for 
economic growth and creating jobs.
    Our job is to make it happen. USDA is working at President 
Obama's direction to build a new rural economy, a more 
sustainable economy, with green jobs that can't be exported, an 
economy that better values conservation and the environment, an 
economy that offers a future for rural residents and their 
family. We are committed to the future of rural communities, 
and I know that we all in this room are as well. And I want to 
thank you for the honor of being here today. Thank you.
    [The joint prepared statement of Mr. Vasquez can be found 
on page 5.]
    Mr. Lujan. Thank you very much. And we are going to need to 
take a quick recess to go vote. We have one vote, and we will 
be right back. So I thank you very much for your patience. With 
that, one vote, and we will be right back. Thank you.
    [Recess.]
    Mr. Grijalva [presiding]. Thank you very much. Let us 
reconvene the Subcommittee meeting, and let me thank my good 
friend from New Mexico, Mr. Lujan, for assuming the 
responsibilities of starting the hearing. Thank you very much. 
We were interrupted by myself and the Ranking Member, Mr. 
Bishop, were busy with marking up oil spills and children's 
nutrition, and my apologies for not being here on time when the 
hearing began.
    [The prepared statement of Chairman Grijalva follows:]

          Statement of The Honorable Raul Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    The Subcommittee will now come to order. Thank you.
    There are some old misconceptions about federal lands in the west 
and the agencies which manage them. Some assert that our public lands 
are job killers, and that federal land managers want to seize private 
land, halt industries and harm rural economies. These accusations are 
wrong, and they undermine western communities by framing their 
struggles as a choice between economic development and conservation. 
That is a false choice which ignores the many communities that are 
successfully doing both.
    The witnesses we have before us today have a different perspective 
- one that isn't so black and white, and one that stands in sharp 
contrast to this rhetoric. And given that these folks actually live in 
the west, we would be well served to listen.
    Their response to the challenges in their western towns is not to 
pick a fight and lay blame, but rather to promote solutions. Their 
approach is not to tear things down, but rather to build consensus--and 
even collaborate with old adversaries. And their goal is to apply the 
principle that the long-term health of the public land and the well 
being of our rural communities are linked.
    We will hear today from public land managers and county 
commissioners, ranchers and environmentalists, small business owners 
and educators. And they will tell us about the ways that they are 
working together to chart a new path to prosperity. . .using our public 
lands.
    I know this has not been an easy road at times--especially in the 
wake of the worst financial crisis since the Great Depression. But for 
those communities that were dependent on just one commodity for their 
development, this evolution is critical.
    We look forward to hearing your stories today - but we also need to 
learn from them. So, I also invite the witnesses to share with us the 
challenges and obstacles you have faced in implementing your projects. 
I want to hear your frustrations, but, more importantly, I want your 
input on how we can better support your efforts.
    Whether during a round up, battling a wildfire, or confronting a 
flood, rural communities are well-suited to team-work - and they have 
always persevered. Today as they forge novel partnerships--to create 
sustainable jobs, revive communities, and restore our unique western 
landscape--they are writing a new, and promising, chapter in the rich 
history of the American west.
    I want to thank all the witnesses for traveling so far today, in 
what I know is a busy time of year, to join us here in this humidity! I 
understand that Mrs. Troy, who is on our third panel, left a Salmon 
River rafting trip early to come testify. Now, that IS sacrifice! So, 
thank you.
    I look forward to hearing from you all today. And I now turn to the 
Ranking Member, Mr. Bishop, for any opening comments he may have.
                                 ______
                                 
    Mr. Grijalva Deputy Assistant Secretary Sobeck, Fish and 
Wildlife and Parks, U.S. Department of the Interior, thank you. 
The time is yours.

STATEMENT OF EILEEN SOBECK, DEPUTY ASSISTANT SECRETARY FOR FISH 
   AND WILDLIFE AND PARKS, U.S. DEPARTMENT OF THE INTERIOR, 
  ACCOMPANIED BY MICHAEL J. POOLE, DEPUTY DIRECTOR, BUREAU OF 
              LAND MANAGEMENT, AND JOSEPH LAURANCE

    Ms. Sobeck. Thank you very much, Mr. Chairman and members 
of the Subcommittee. I am pleased to have received the 
opportunity to testify today on the important role that lands 
managed by the Department of the Interior play in economic 
growth and the creation and support of private sector jobs. I 
am joined here today by Mike Poole, Deputy Director of the 
Bureau of Land Management, and Dan Wenk, Deputy Director of the 
National Park Service. I would like to submit our written 
testimony for the record, and summarize our testimony in our 
statement here today.
    The Department of the Interior is the steward of vast 
amounts of our nation's natural resources and cultural 
heritage. Resources managed by the Department, including by the 
Bureau of Land Management, the National Park Service, the Fish 
and Wildlife Service, and the Bureau of Reclamation, are 
economic engines for the communities that surround them 
throughout the country.
    In our role as steward, the Department has played and 
continues to play a vital role in renewing our economy and 
creating and supporting jobs that cannot be exported. We are 
creating jobs for thousands of young people, protecting our 
most treasured places, and inspiring the next generation to be 
good stewards of our lands and waters. Our national parks, 
national wildlife refuges, and public lands are supporting 
recreation and tourism jobs in gateway communities across the 
country. And the Department is moving to harness wind, solar, 
and geothermal power from public lands, putting Americans to 
work while supplying clean, affordable energy for our future. 
We are leading by example and demonstrating how the wise 
stewardship of our landscapes is critical to our economic well-
being.
    This is particularly true in rural areas. In a first of its 
kind economic report issued by the Secretary in February, it 
was estimated that in those states that are more than 50 
percent rural, visitors to Interior sites support 200,000 jobs 
and $15.3 billion in economic activity. Communities surrounding 
the largest units of the national park system had on average 
almost four times faster population growth, almost three times 
faster job growth, and two times growth in real income than the 
Nation overall.
    The report also noted that conservation activities can 
generate large numbers of jobs relative to other investments of 
government funding. For example, every $1 million invested in 
ecosystem restoration projects was estimated to support up to 
30 mostly private sector jobs. Every $1 million invested in 
recreation projects was estimated to support up to 22 mostly 
private sector jobs.
    The Department could not accomplish its mission without the 
collaboration and cooperation of a wide range of stakeholders. 
My written testimony highlights several ongoing Administration 
initiatives that are supporting the creation of rural jobs, 
including the Administration's Great Outdoors Initiative, the 
Youth and the Great Outdoors Initiative, our commitment to 
build a clean energy economy, and the creation of the Landscape 
Conservation Cooperative. And my written testimony shares 
several specific examples of successful collaborative 
conservation projects.
    The America Great Outdoors Initiative, I would like to say 
just a few words about that. It has started a much needed 
dialogue about conservation in our nation. As part of this 
initiative, our Department, along with several others, is 
hosting listening sessions around the country to hear from 
ranchers, farmers, forest landowners, sportsmen and -women, 
state and local government leaders, tribal leaders, public 
lands experts, conservationists, recreationists, youth leaders, 
business representatives, heritage preservationists, and others 
to learn about some of the smart, creative ways that 
communities are conserving outdoor spaces and helping Americans 
go out and enjoy them.
    Today, as we speak, Administration officials are assembled 
in Asheville, North Carolina to gather such public input. I 
myself attended a session in Grand Island, Nebraska on Monday, 
and I can assure you that we were listening there. Listening 
sessions will continue throughout the summer as part of our 
commitment to reach out to communities for good ideas about 
conservation. We are going into this process with open minds, 
and we are eager to learn about the efforts that ordinary 
Americans are making to conserve our land, water and wildlife. 
Our goal is to develop a conservation agenda for the 21st 
century that will incorporate and promote every positive aspect 
of conservation, including the creation of conservation-related 
job.
    Mr. Chairman, that concludes my statement, and I look 
forward to hearing the rest of the testimony and answering your 
questions.
    [The prepared statement of Ms. Sobeck follows:]

  Statement of Eileen Sobeck, Deputy Assistant Secretary for Fish and 
          Wildlife and Parks, U.S. Department of the Interior

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify on the important role that the lands managed by 
the Department of the Interior play in economic growth and the creation 
of private sector jobs tied to the landscape.
    The Department of the Interior is the steward of our nation's 
natural resources and cultural heritage. Resources managed by the 
Department, including by the Bureau of Land Management (BLM), the 
National Park Service (NPS), the Fish and Wildlife Service (FWS), and 
the Bureau of Reclamation (BOR), are economic engines for communities 
around the country.
    In our role as steward, the Department has played, and continues to 
play, a vital role in renewing our economy and creating jobs that 
cannot be exported. We are creating jobs for thousands of young people, 
protecting our most treasured places and inspiring the next generation 
to be good stewards of our lands and waters. Our national parks, 
refuges and public lands are supporting recreation and tourism jobs in 
gateway communities across the country. And, the Department is moving 
to harness wind, solar and geothermal power from public lands, putting 
Americans to work while supplying clean, affordable energy for our 
future. We are leading by example, demonstrating how the wise 
stewardship of our landscapes is critical to our economic well-being.
    Of course, the Department could not accomplish its mission without 
the collaboration and cooperation of a wide range of stakeholders. We 
take pride in the relationships we have built with gateway communities 
throughout the country. We have embraced partnerships and active 
engagement to find common ground, and to conserve and make use of our 
natural resources. Community-based partnerships are essential to 
accomplishing land management goals and can help create new economic 
opportunities for local businesses. Each year, the Department supports 
hundreds of partner organizations who participate in a wide variety of 
projects and efforts at the community, landscape, and national levels.
Economic Impact
    In February of this year, Secretary Salazar released to the public 
and shared with Members of Congress a first-of-its-kind departmental 
report estimating that Interior programs and activities support more 
than 1.4 million private sector American jobs and more than $370 
billion in economic activity across the country. The report, entitled 
``Economic Impact of the Department of the Interior's Programs and 
Activities,'' indicates that the Department creates and supports 
private sector jobs and economic growth in all 50 states. Furthermore, 
the report underscores the importance of investing in conservation and 
energy development, and the role these fields can play in getting our 
economy moving again.
    The Economic Impact Report found that rural states especially 
benefit from Interior's programs and activities. In states that are 
more than 50 percent rural, it was estimated that visitors to Interior 
sites support 200,000 jobs and $15.3 billion in economic activity. For 
example, many of our national parks are located in remote, rural areas. 
Economic effects of parks on remote, gateway communities can be 
significant. One study found that communities surrounding the largest 
units of the National Park System had, on average, almost four times 
faster population growth, almost three times faster job growth, and two 
times faster growth in real income than the nation overall. (Power, 
T.M. ``The Economic Foundations of Public Parks.'' The George Wright 
Forum, 2002)
    The Economic Impact Report also noted that conservation activities 
can generate large numbers of jobs relative to other investments of 
government funding. For example, every $1 million taxpayers invest in 
ecosystem restoration projects was estimated to create up to 30 mostly 
private-sector jobs. Every $1 million invested in recreation projects 
was estimated to support up to 22 mostly private-sector jobs. While 
federally funded ecosystem restoration and recreation activities can 
support substantial numbers of jobs, the actual number of jobs 
supported by an individual project will vary based on that project's 
particular circumstances.
    In testifying before you today, I would like to highlight several 
ongoing Administration initiatives that are supporting the creation of 
rural jobs. I would particularly like to discuss the Administration's 
Great Outdoors Initiative, the Youth in the Great Outdoors Initiative, 
our commitment to building a clean energy economy, and the creation of 
the Landscape Conservation Cooperatives. I will also share with you 
several examples of successful collaborative conservation projects.
The America's Great Outdoors Initiative
    On April 14, 2010, President Barack Obama signed a Presidential 
Memorandum establishing the America's Great Outdoors Initiative to 
promote and support innovative community-level efforts to conserve 
outdoor spaces and to reconnect Americans to the outdoors. President 
Obama inaugurated the America's Great Outdoors Initiative at a White 
House Conference held at the Department in April. The conference 
brought together leaders from communities across the country that are 
working to protect their outdoor spaces and focused on developing and 
supporting innovative ideas for improving conservation and recreation 
at the local level.
    The America's Great Outdoors Initiative has started a much-needed 
dialogue about conservation in our Nation. As part of this initiative, 
the Department is hosting listening sessions around the country to hear 
from ranchers, farmers and forest landowners, sportsmen and women, 
state and local government leaders, tribal leaders, public-lands 
experts, conservationists, recreationists, youth leaders, business 
representatives, heritage preservationists, and others to learn about 
some of the smart, creative ways communities are conserving outdoor 
spaces and helping Americans to go out and enjoy them.
    Sessions have already been hosted in Montana, Maryland, South 
Carolina, Washington, California, and Nebraska. Today, as we speak, 
Administration officials are assembled in Asheville, North Carolina, to 
gather public input. Listening sessions will continue throughout the 
summer, as part of the Administration's commitment to reaching out to 
communities for good ideas about conservation. We are going into this 
process with open minds, eager to learn about the efforts that ordinary 
Americans are making to conserve our land, water and wildlife. Our goal 
is to develop a conservation agenda for the 21st Century - an agenda 
that will incorporate and promote every positive aspect of 
conservation, including the creation of conservation-related jobs.
Youth in the Great Outdoors Initiative
    The Secretary's Youth in the Great Outdoors Initiative is forging 
connections between a new generation of Americans and the outdoors, 
introducing youth to the career opportunities associated with our 
tremendous landscapes, and very often carrying out maintenance projects 
in our parks, forests, refuges, and other public land units. As part of 
this initiative, young adults gain valuable experience, while meeting 
important Departmental needs. By joining conservation corps or filling 
temporary positions, young people help maintain and enhance trails, 
restore native plants while removing invasive species, and provide the 
public with educational information about the public lands.
    At the FWS Great Lakes/Big Rivers Region, for example, youth work 
directly with fisheries resource professionals performing the daily 
duties and special projects necessary for FWS to accomplish its mission 
of protecting and enhancing aquatic species and their habitats, 
including caring for fish, building trails, maintaining grounds and 
facilities, and learning about daily activities at a fish hatchery.
    This year, the Department will employ at least 12,000 youth--a 50 
percent increase over the 8,000 employed in 2009. The Department also 
indirectly employs youth through other organizations, leveraging 
funding and human resources to impact more youth by providing them with 
meaningful employment opportunities. Similarly, the Department partners 
with numerous organizations throughout the country, including YMCA and 
Boys and Girls Clubs, to engage youth through education and recreation 
programs related to our public lands..
    The importance of the Youth in the Great Outdoors Initiative is 
reflected in the FY 2011 budget proposal, which includes large 
increases not only in employment of teens and young adults ages 16-25 
but also in education and recreation programs that engage youth of all 
ages.
 Renewables
    As part of securing America's energy future, we must move our 
nation towards a clean energy economy. At the Department, this means 
changing the way we do business by opening our doors to responsible 
renewable energy development on our public lands. We are facilitating 
environmentally-appropriate renewable energy projects involving solar, 
wind and waves, geothermal, biofuels and hydropower. These resources, 
developed in the right ways and the right places, will help curb our 
dependence on foreign oil, reduce our use of fossil fuels and promote 
new industries here in America. The development of these renewable 
energy sources will also create jobs in local communities.
    The Milford Wind Corridor, in Milford, Utah is an example of one of 
these renewable energy projects. Secretary Salazar recently announced 
that construction will begin soon on Phase 2 of the Milford Wind 
Corridor, which the BLM approved earlier this year. When completed, 
Phase 2 will consist of 68 turbines with the capacity to produce 102 
megawatts of electricity. Construction is scheduled to begin this month 
and be completed by the end of the year. The first phase of the Milford 
Wind Corridor consists of 97 wind turbines that have been generating 
commercial power since November 2009, producing 204 megawatts of 
electricity sold to the Southern California Public Power Authority. 
That's enough energy to power 44,000 homes. To date First Wind has 
invested more than $500 million in the Phase 1 project, which has 
created more than 250 development and construction jobs and resulted in 
more than $85 million in economic benefit to Utah.
    The Arizona Restoration Design Energy Project is another innovative 
example of the Department's work to facilitate appropriately-sited 
renewable energy development. The BLM's Arizona State Office has 
engaged local communities in this unique, forward-looking partnership 
to identify Arizona sites that have already been disturbed (such as 
abandoned mines, landfills, and brownfields) and that could support 
renewable energy development. Nominations have come from the BLM, other 
Federal agencies, tribal, state, county and local governments. 
Privately owned lands were nominated as well. The BLM, along with the 
many Federal and state agencies that have joined as cooperating 
agencies, has taken the information and begun work on a programmatic 
environmental impact statement that will analyze the direct, indirect, 
and cumulative effects of developing such lands. This innovative 
project is intended to identify potential development sites for which 
there are fewer competing uses and values, while providing conservation 
benefits by taking development pressure off lands with higher resource 
values. The many construction, maintenance, and operation jobs that 
result from renewable energy development on such sites would provide 
additional tangible benefits to local communities as well as the 
regional economy.
    And just last week, the Department entered into an agreement with 
the Department of Energy (DOE) to develop a 25-square mile Solar 
Demonstration Zone on federal lands in Nevada to demonstrate cutting-
edge solar energy technologies. This Solar Demonstration Zone will be 
located in the southwest corner of the Nevada Test Site, a former 
nuclear site, on lands owned by the BLM and administered by DOE. Before 
selecting the site for the Solar Demonstration Zone, the federal 
government consulted with relevant stakeholders, including state, 
tribal, and local governments, as well as local utilities. DOE and the 
Department will continue collaborating to effectively implement the 
project, which will serve as proving grounds for new solar 
technologies, providing a critical link between DOE's advanced 
technology development and full-scale commercialization efforts.
Landscape Conservation Cooperatives Initiative
    The Landscape Conservation Cooperatives initiative is based on 
ecosystem-based multi-stakeholder, multi-jurisdictional partnerships 
across the country. It is focused on addressing existing and emerging 
natural resources management challenges including climate change, and 
promotes geographically-based, landscape scale conservation planning. 
The Department has begun, with its partners, to put in place Landscape 
Conservation Cooperatives (LCCs). These cooperatives will facilitate 
regional conservation planning along with the Department's regional 
Climate Science Centers (CSCs). The CSCs and the LCCs will conduct and 
communicate research and monitoring to improve the understanding and 
forecasting of which elements of Department-managed land, water, 
marine, fish, wildlife, and cultural heritage resources are most 
vulnerable to climate change impacts and other environmental stressors, 
and how to make them more resilient. The CSCs will provide basic 
climate change science associated with broad regions of the country, 
and LCCs will focus more on applied science at the landscape level. 
Both CSCs and LCCs will be involved in integrating and disseminating 
data and helping resource managers develop adaptation strategies.
    LCCs will enable resource management agencies and organizations to 
collaborate in an integrated fashion within and across land ownerships. 
LCCs will provide scientific and technical support to inform 
conservation using adaptive management principles and will engage in 
biological planning, conservation design, inventory and monitoring 
program design, and other types of conservation-based scientific 
research planning and coordination. LCCs will play an important role in 
helping partners establish common goals and priorities, so they can be 
more efficient and effective in targeting the right science in the 
right places.
    In creating the LCCs, the Department has undertaken an 
unprecedented level of outreach to partners at federal, state, tribal, 
local, and private levels, through workshops, web seminars, and other 
venues.
    Progress achieved to date illustrates not only the commitment, 
enthusiasm and dedication with which the Department has pursued this 
task, but also the success the Department has achieved in attracting 
partners to participate in LCCs.
    The USGS, FWS, NPS, BOR, BLM and BIA are fully participating in 
this effort and have committed funding and staff support beginning in 
2011 to the CSCs in order to encourage collaborative sharing of 
research results and data and to provide a direct link with the on-the 
ground work taking place in the LCCs. These partners and others will 
leverage resources available for climate change science.
Collaborative Projects
    Finally, I would like to share with you some examples of the other 
types of collaborative projects that are being carried out by 
Department bureaus. These examples include projects that were 
recognized this year by the Secretary for excellence in conservation 
partnerships. This year, 24 projects representing the work of more than 
600 groups and individuals nationwide were recognized with the 
Department's Partners in Conservation Awards.
The Wyoming Front Aspen Stewardship Project
    The Wyoming Front Aspen Stewardship Project seeks to restore and 
maintain aspen stands that provide important large game habitat. This 
project began in September 2006 through an Assistance Agreement between 
the BLM's Pinedale Field Office and the Rocky Mountain Elk Foundation, 
and encompasses 9,000 acres of BLM lands. The project involves 
harvesting marketable products (sawlogs, Christmas trees, fuelwood, and 
biomass) during the summer months, while leaving a fuel bed on over 80 
percent of the unit. During the following spring, prescribed fire is 
used to reduce the fuel loads and enhance aspen regeneration. Since 
2007, three timber sales have taken place to reduce conifer 
encroachment into aspen stands. Totaling over 500 acres and $15,970 in 
receipts, these forest health projects have generated over one million 
board feet of timber products, 1,200 tons of biomass material, and 
2,000 Christmas trees. Work within the project area has been conducted 
on a total of 2,146 acres, totaling $511,182. Combined, these projects 
have employed 80 people. For FY 2007 and 2008 the BLM contributed 
$317,000 for project implementation, with the Rocky Mountain Elk 
Foundation contributing $40,000, Wyoming Game & Fish contributing 
$105,500, and the Wyoming Wildlife Natural Resource Trust providing 
$100,000.
New Mexico Candidate Conservation Agreements
    The BLM's Pecos District and New Mexico State Office, working with 
their counterparts in the FWS, have engaged stakeholders in the New 
Mexico ranching and oil and gas industries to launch a conservation 
agreement program created specifically for lease holders on public 
lands. In this innovative program, landowners, energy companies and 
ranchers join the agencies in protecting and restoring habitat for two 
candidates for Federal listing in southeast New Mexico, the lesser 
prairie chicken and sand dune lizard. The agencies work with the Center 
of Excellence for Hazardous Materials Management to administer 
voluntary Candidate Conservation Agreements for oil and gas lease 
holders on Federal lands and Candidate Conservation Agreements with 
Assurances for state and private landowners to benefit the species. In 
return, in the event that one or both species are listed under the 
Endangered Species Act, companies and individuals operating on private 
lands receive assurances that their operations can continue, and 
operators on Federal lands receive a much greater degree of certainty 
that their operations would likewise continue. Over a dozen ranchers 
and two energy companies are taking actions under the program to reduce 
or eliminate threats to the species on all land ownership types. These 
efforts have produced conservation benefits, provided operational and 
job security in the ranching and oil and gas industries, and created 
new jobs in habitat restoration. The BLM estimates that 20-30 jobs will 
be created in the reclamation of abandoned oil field sites (dirt 
moving, site remediation, etc.) and restoration of habitat for the 
species by a variety of vegetative treatments (e.g., aerial spraying 
and mechanical treatments).
Anchorage Youth Employment in Parks Program
    The Anchorage Youth Employment in Parks Program engages youth in 
career opportunities and outdoor experiences to protect and restore 
fish and wildlife and their habitats. This robust collaboration among 
the FWS, the Anchorage Park Foundation, the Municipality of Anchorage, 
Alaska Youth for Environmental Action, and over 100 public and private 
organizations is reaching out to youth in populations underrepresented 
in natural resource management jobs to foster the next generation of 
public land stewards through natural resources training, habitat 
restoration, and protection projects and outdoor activities. Every year 
over three dozen youth from Anchorage area schools are employed as 
crewmembers to build new trails, repair fishing platforms, improve 
public access to fishing and recreational areas, rehabilitate stream 
banks, replant riparian landscapes, clean up creeks, maintain rain 
gardens, and implement riparian forest health protection projects to 
help reduce habitat loss from destructive and invasive spruce bark 
beetles. These projects further the mission of the Department, support 
the goal to connect youth to nature, and help the FWS meet its trust 
responsibilities for migratory birds, pacific salmon, and other inter-
jurisdictional fish. In recognition of its achievements in 
collaborative conservation, this program received a Partners in 
Conservation Award from the Department this year.
Circle of Flight Program
    In 2009, the Bureau of Indian Affairs Circle of Flight Program, 
provided support to 21 tribes and two tribal organizations that 
collaborated with other government and private entities in Minnesota, 
Michigan, and Wisconsin to protect, restore, and/or enhance 20,000 
acres of wetlands; restore and/or re-seed 1,500 acres of wild rice; 
establish, plant, and maintain 700 acres of upland waterfowl nesting 
cover and prairie grasslands; construct and install 200 waterfowl 
nesting structures; and conduct valuable waterfowl habitat research. 
The Program's many projects encouraged Native American youth to get 
involved in a number of activities, including wild rice planting, 
harvesting seeds, monitoring, and data collecting. In this way, these 
young people experience traditional ties to the land and natural 
resources while gaining appreciation for their treasured natural 
environment. These projects not only help Native Americans exercise 
traditional and cultural uses of the natural environment, but also give 
all citizens greater opportunity to enjoy our natural resources and 
natural heritage. In recognition of its achievements in collaborative 
conservation, this program received a Partners in Conservation Award 
from the Department this year..
Modoc County, California Partnership
    Through its partnership with the BLM and the U.S. Forest Service, 
Modoc County, CA, is developing and implementing the Sage Steppe 
Ecosystem Restoration Strategy to restore the health of public land in 
a 6.5 million acre planning area for the benefit of the residents of 
Modoc County and the people of the United States. The partnership is 
working to improve the condition of the public land while providing for 
rural economic development and domestic energy production on thousands 
of acres within the 6.5 million-acre, multi-jurisdictional planning 
area. In recognition of its achievements in collaborative conservation, 
this partnership received a Partners in Conservation Award from the 
Department this year..
Conclusion
    Our national parks, refuges and public lands continue to be 
economically important to rural communities throughout the West. In 
these areas, land use activities, such as grazing, mining and forestry, 
remain key sources of rural jobs and income. At the same time, uses 
such as outdoor recreation and conservation have gained, and continue 
to gain, in economic importance to rural communities.
    The collaborative spirit is at the heart of the initiatives 
supported by the Administration. Our ability to successfully achieve 
our mission depends upon our ability to work collaboratively with 
gateway communities and other stakeholders, and partnerships are a key 
component in this success. Through our partnerships, the Department is 
working to resolve conflicts over land management, put good 
conservation practices in place on the ground, contribute to economic 
opportunities in our Nation and our communities, and create jobs for 
the American people.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, Madame Secretary. Let me 
now ask Mr. Joseph Laurance, Douglas County Commissioner, 
Roseburg, Oregon. Welcome, and, Mr. Commissioner, the time is 
yours.

 STATEMENT OF JOSEPH A. LAURANCE, DOUGLAS COUNTY COMMISSIONER, 
                        ROSEBURG, OREGON

    Mr. Laurance. And good morning, and thank you, Chairman 
Grijalva, Ranking Member Bishop, and members of the 
Subcommittee. I am Joe Laurance, County Commissioner for 
Douglas County, Oregon. My county is a little larger than the 
State of Connecticut, has the largest and oldest stands of 
Douglas fir timber in the world. When I left home Monday, five 
forest fires were burning on the million-acre Umpqua National 
Forest. I need your help to save my forest, and your forest as 
well. The NACo Resolution you find in today's written testimony 
can do that if you care as deeply as I do for this nation's 
forests.
    Twenty years and 20 days ago, the Northern Spotted Owl was 
listed as threatened under the Federal Endangered Species Act. 
It was then thought that loss of old growth habitat through 
logging was the culprit causing a declining population. In 
response, Federal timber harvests were vastly curtailed. The 
Umpqua National Forest in my county saw an annual harvest of 
397 million board feet in 1988 reduced to 4 million board feet 
in 2002. In the years since, a policy of benevolent neglect of 
Federal lands has seen Spotted Owl numbers continue to decline 
through habitat destruction caused by increasingly numerous and 
intense forest fires, and through predation by the Barred Owl, 
which favors this new unmanaged forest habitat. Federal policy, 
which has been multiple use of the forest with an emphasis on 
industrial harvest, sought a new strategy, which has yet to be 
formulated in all of these intervening years. The resolution 
presented to you provides that needed new strategy, not only 
for Oregon, but for all of our nation's Federal forests, from 
Appalachia to Alaska. Federal forest managers would now have a 
clearly defined desired forest condition that must be obtained 
within a specified time. If this becomes the intent of 
Congress, the Forest Service with BLM would join with private 
industry to restore forest health and rural economies without 
drawing on the national treasury.
    The plan I describe would restore your forest and mine to 
the natural historic condition created by American Indians 
through 7,000 years of applied ingenuity. That forest was one 
of the most productive and diverse ecosystems ever known. It 
was created by fire, yet protected from fire. A 250,000-acre 
study nearing completion on the Umpqua Forest will show 
precisely what the natural historic condition was immediately 
prior to European-American habitation. The study area would 
seem to be an excellent candidate as a pilot project to provide 
specific information related to healthy forest restoration, as 
envisioned by the resolution I have described.
    The resolution anticipates that significant volumes of 
biomass will be generated through forest restoration efforts. 
Three weeks ago, I witnessed a demonstration of biomass 
utilization in the midst of 10,000 acres of insect-infested 
pine on the Umpqua National Forest. BioChar Products of 
Halfway, Oregon, converted a bone dry ton of biomass into 120 
gallons of bio-oil--while producing 400 pounds of Bio-char, 
which is a rich growth medium.
    By means of this technology, my county could produce 120 
million gallons of bio-oil and 400 million pounds of Bio-char 
every year for at least 20 years, and probably in perpetuity 
from the slash and fuels reduction material we now burn.
    I wish to thank in particular Committee Member Stephanie 
Herseth Sandlin and Peter DeFazio for their efforts to permit 
biomass and fuels reduction efforts on Federal forest lands. I 
would ask you to support definitions for renewable biomass, 
such as found in the Baucus-Tester discussion draft and the 
2008 Farm Bill.
    Forest restoration is a complex and controversial topic 
that should be further discussed. I would be delighted to 
participate in other hearings regarding that subject. Much of 
the efforts described here have had their genesis in Title II 
and III projects funded through the Secure Rural Schools Act, 
which also provides vitally needed support for 4,000 school 
districts and 700 counties nationwide. I ask for your continued 
support of Secure Rural Schools legislation.
    Thank you, Mr. Chairman and the Committee, for permitting 
me the honor of appearing before the House Subcommittee for 
National Parks, Forests, and Public Lands.
    [The prepared statement of Mr. Laurance follows:]

      Statement of Joseph Laurance, Douglas County Commissioner, 
                         Douglas County, Oregon

    Federal fiscal savings realized from this effort could contribute 
to offsets required for ``Secure Rural Schools'' funding, so vital to 
the educational and service needs of over 700 counties and 4000 school 
districts nationwide.
    At a meeting of Oregon county commissioners last summer, I 
complained to my colleagues that while endless debate continued in 
congress about how federal forests should be managed, fires were 
ravaging federal timberlands in my county and throughout the western 
United States. The worldwide financial crisis that was draining the 
national treasury made re-authorization of ``Secure Rural Schools'' 
funding seem doubtful, threatening many of Oregon's 36 counties with 
social and economic ruin. Bad news just kept coming with the word that 
unemployment in Douglas County had reached 16.4% and if unreported 
joblessness was considered, was probably greater than the 19% 
experienced here during the height of the ``Great Depression''. Talks 
were ongoing in Copenhagen about greenhouse gas emissions while the 
three fires in my county burned toward an eventual total of 20,000 
acres, equal to the greenhouse gasses emitted by one million cars in a 
year's time. My fellow commissioners suggested that I craft a solution 
to the problems you of this body are all too familiar with. The 
resultant resolution has been carefully considered by commissioners 
from across the western United States who helped in its preparation. It 
has been unanimously adopted by the Association of Oregon Counties, 
Western Interstate Region of Counties, and the National Association of 
Counties (NACo) Public Lands Committee and is expected to be adopted by 
NACo at its annual national conference next week.
    Twenty years and twenty days ago the Northern Spotted Owl was 
listed as threatened under the federal ``Endangered Species Act''. It 
was then thought that loss of old growth habitat through logging was 
the culprit causing a declining population. In response, federal timber 
harvests were vastly curtailed. The Umpqua National Forest in my county 
saw an annual harvest of 397 million board feet in 1988 reduced to 4 
million board feet in 2002. In the years since a policy of ``benevolent 
neglect'' of federal lands has seen Spotted Owl numbers continue to 
decline through habitat destruction caused by increasingly numerous and 
intense forest fires and through predation by the Barred Owl which 
favors this new ``unmanaged'' forest habitat. Federal policy, which had 
been multiple use of the forest with an emphasis on industrial harvest, 
sought a new strategy which has yet to be formulated in all these 
intervening years.
    The resolution presented you provides that needed new strategy, not 
only for Oregon but for all of our nation's federal forests from 
Appalachia to Alaska. Federal forest managers would now have a clearly 
defined desired forest condition that must be obtained within a 
specified time. If this becomes the ``Intent of Congress'', the Forest 
Service and BLM would join with private industry to restore forest 
health and rural economies without drawing on the national treasury.
    The various Fire Regime Condition Classes described within the 
resolution indicate the extent of departure from the natural, historic 
conditions prior to fire exclusion or suppression. Typically, this 
departure occurred as native peoples were progressively displaced by 
European Americans during the westward expansion. Fire Regime Condition 
Class (FRCC) 1 is similar to the forest which European explorers first 
found here. That forest had been modified by fire for more than 6 
thousand years to provide the native inhabitants with what were then 
life's necessities. These included abundant wild game from the most 
productive and diverse wildlife habitat ever known on this continent. 
Similarly, the regular burning of competing vegetation permitted 
propagation of nut bearing trees and other food producing plants. 
Additionally, the historic ``Healthy Forest'' promoted pristine rivers, 
streams, and lakes that provided an abundant harvest of fish and 
waterfowl. Within FRCC 1 the risk of losing key ecosystem components to 
fire is low, while vegetation species composition, structure, and 
pattern are intact and functioning within the natural historic range.
    FRCC 2 is a moderate departure from natural, historic conditions 
described above, with a moderate risk of losing key ecosystem 
components. Fire frequency, intensity, and size are increased with 
moderate increases in density, encroachment of shade tolerant tree 
species, or moderate loss of shade intolerant tree species.
    FRCC 3 is the highest possible risk of catastrophic fire with 
dramatic changes to fire size, intensity, severity, and landscape 
patterns. High increases in density are typically associated with high 
mortality as a result of disease or insect infestation. These areas 
typically need high levels of restoration through hand or mechanical 
treatments. For purposes of this discussion, the full range of 
treatments available for active landscape scale management would be 
employed including fuels reduction, thinning of selected stands, and 
harvest where needed. These treatments must be successfully implemented 
before prescriptive fire can be used to maintain optimum forest 
conditions.
    Of a total national forest system of 191 million acres, information 
provided by the Forest Service and derived from the `LANDFIRE Project'' 
list an FRCC 3 total of 40,677,000 acres nationwide. FRCC 2 is said to 
be 72,553,000 acres; FRCC 1 is listed at 83,230,000 acres. Other 
information regarding Fire Classes is drawn from a 2007 report of the 
Inspector General of the USDA which lists FRCC 3 at 73,000,000 acres 
while other sources suggest FRCC 2 at 55,000,000 acres and FRCC 1 at 
63,000,000 acres.
    The total acreage of fuels reduction on the national forest by 
means of mechanical treatment to for 2008 (the last available figures) 
totaled 1.2 million acres. Treatment required based on the figures 
above for the defined time period would amount to between 2 million and 
3.65 million acres for reduction of FRCC 3 to FRCC 1 during the first 
20 year period and between 2.75 and 3.63 million acres for a reduction 
from FRCC 2 to FRCC1 during the second 20 years.
    More specific information regarding the work required and the costs 
associated will be forthcoming this August from a Title III study of 
250,000 acres of Forest Service lands in my county which will identify, 
with scientific precision, the characteristics of that 
``anthropogenic'' forest in the year 1800, immediately prior to the 
European American presence. These characteristics will closely 
approximate the natural, historic conditions described in FRCC 1 in a 
forest where all three classes now exist.
    The study referred to is titled Upper Pre-Contact Reference 
Condition Study and is revealing a mosaic forest, heavily populated by 
people, who actively managed and maintained their travel ways, their 
camp sites, and their hunting and gathering grounds. These areas tended 
to be more open with fewer and larger trees together with a wide 
diversity of species. The forest we are finding on those sites today 
are more dense with the majority of the trees less than 150 years old 
and far fewer of the oaks and pines, although we find a profusion of 
relics of their existence.
    The study area would seem to be an excellent candidate as a pilot 
project to provide specific information related to healthy forest 
restoration as envisioned by the resolution described earlier.
    One example of a locally grown effort at forest restoration while 
creating rural jobs is Communities for Healthy Forests, Inc. CHF is a 
non profit organized in 2004 after devastating fires in Oregon 
galvanized Douglas County, Oregon community leaders into action. While 
attorneys, judges and elected officials deliberated upon what course of 
action to take on the millions of acres burned forest, the health of 
our rural communities and the health of the forests surrounding them 
were ignored. The decision to debate environmental policy in the face 
of an emergency becomes a decision to limit any restorative action. 
Economic opportunities of removing dead material to fund replanting and 
other restoration activities are lost as are the multitude of jobs 
these activities could support. The fire-killed material left on site 
becomes fuel for the next fire, and carbon to be emitted into the 
atmosphere, adding to the greenhouse gas emissions.
    In contrast, actively restoring these insect and fire damaged 
forests can put local people to work. Putting people to work to restore 
overgrown forests can reduce the fire hazard; sustain healthy growing 
forest conditions resistant to catastrophic fire and insect attack. As 
scientists like Dr. Thomas Bonnicksen and many others tell us, these 
were the conditions our forests contained for thousands of years due to 
the influence of Native Americans, conditions and people which were 
sustained for thousands of years.
    This active management is widely supported as shown by polls 
conducted by Communities for Healthy Forests as well as The Oregon 
Forest Resources Institute. The vast majority of Oregonians agree that 
we must act if we are to sustain our beautiful forests, our rural 
economy and the communities which are capable of sustaining them.
    Similar projects have been undertaken by The Douglas Forest 
Protective Association who has provided job skills training for 2000 
youth since 1971. Among their number is our current County Sheriff. 
Tasks being completed by area youth include fire training and fuels 
reduction projects. These youth will also be in the fire line in a few 
days time.
    The Oregon Youth Conservation Corp has provided similar 
opportunities for an average of 400 youth per year for the past decade. 
Our local Phoenix School has done the same for 200 area youth this most 
recent school year with 250 expected to participate next year.
    The resolution anticipates that significant volumes of biomass will 
be generated through forest restoration efforts. Three weeks ago I 
witnessed a demonstration of Biomass utilization in the midst of 10,000 
acres of an insect infested pine forest. BioChar Products of Halfway, 
Oregon converted a bone dry ton of biomass into 120 gallons of Bio-oil 
while producing 400 lbs. of Bio-char, a rich growth medium. By means of 
this technology, my county could produce 120 million gallons of Bio-oil 
and 400 million pounds of Bio-char every year for at least 20 years and 
probably in perpetuity.
    I wish to thank in particular Committee members Stephanie Herseth 
Sandlin and Peter DeFazio for their efforts to permit biomass and fuels 
reduction efforts on federal forest lands.
    Forest Restoration is a complex and controversial topic that should 
be further discussed. I would be delighted to participate in other 
oversight hearings regarding that subject.
    Much of the efforts described here have had their genesis in Title 
II and III projects funded through the Secure Rural Schools Act, which 
also provides vitally needed support for 4000 school districts and 700 
counties nationwide.
    Thank you for permitting me the honor of appearing before the House 
Subcommittee for National Parks, Forests and Public Lands.
                                 ______
                                 

 A NACo Resolution to Promote Healthy Forest Ecosystems and Reduce the 
Release of Green House Gases through Active Management of the Nation's 
                                Forests.

Issue:
    Each year catastrophic wildfires throughout the nation contribute 
to global warming, jeopardize the national treasury, threaten fish and 
wildlife habitat, degrade both water and air quality, and cause 
devastation to forest dependent communities through loss of life, 
property, jobs, and the nation's timber resource. Federal Forests 
should be actively managed to reduce the threat of wildfire and the 
release of greenhouse gases. Restoration and conservation of our 
National Forest will insure a sustainable economic and environmental 
legacy for future generations.
Proposed Policy:
    NACo urges Congress to enact legislation to direct and enable 
federal forest management agencies to reduce Fire Regime Condition 
Class 3 (FRCC 3) to the standard of FRCC 1 in all federal forests by 
the year 2030, and to reduce FRCC 2 to the standard of FRCC 1 in all 
federal forests by the year 2050, through the means of active landscape 
scale management, fuels reduction, and immediate post-fire restoration.
Background:
    Some 73 million acres or 38% of the nation's federal forests are at 
``a high risk of ecologically destructive wild land fire'' according to 
a 2007 report of the Inspector General of the USDA. An average of 7 
million acres of forest has burned each year for the past 10 years in 
the US, primarily on federal lands. An estimated 47.5 Million Metric 
Tons of greenhouse gasses were released last year in the US through 
forest fire. An Executive Order of Oct.5, 2009 directs federal agencies 
to ``consider and account for. . .emissions of greenhouse gases 
resulting from Federal land management practices''. With this 
resolution, NACo joins the White House in an effort to reduce 
greenhouse gasses caused by forest fires on federal lands.
Fiscal Urban/Rural Impact:
    The cost to taxpayers to fight these fires exceeds $1 Billion each 
year. The value of the timber thus consumed costs taxpayers $10.5 
Billion every year. If Congress enacts this legislation, then directs 
federal land management agencies to implement the resultant policy, 
thousands of communities throughout the nation would experience 
significant social and economic recovery with the creation and return 
of forest based employment as well as the many other benefits of multi-
use forest management. Urban areas would benefit from reduced taxation 
which now serves to support neighboring distressed rural communities. 
The nation would benefit from reduced greenhouse gas emissions, 
increased carbon sequestration and storage, improved fish and wildlife 
habitat, enhanced air and water quality, greater quantities of biomass 
based energy and forest products derived from federal lands serving to 
increase the national treasury, and an ultimate reduction in the cost 
of federal land management, half of which is devoted to fire 
suppression each year.
                                 ______
                                 
    Mr. Grijalva. Thank you, Commissioner. Let me begin with 
Deputy Secretary Vasquez first of all. Mr. Vasquez, let me 
welcome you to the Subcommittee. I think this is the first time 
Rural Development has been before the Subcommittee, so welcome. 
And if you could just give the Committee a little background on 
how Rural Development and the Forest Service came to start this 
new partnership under this Administration.
    Mr. Vasquez. The beginning of this really came out of some 
internal policy discussions. The Secretary had given us a major 
charge to begin to look at regional innovation across rural 
America, and charged all the mission areas to begin to have 
discussions about how we collaborate to implement that. So we 
had some initial discussions with the Forest Service about some 
of the issues that they were facing in Alaska, and we took a 
trip to southeast Alaska and had two major regional meetings, 
and met with various nonprofit organizations and advocate 
organizations and operators, and had pretty much a half day or 
longer session getting the information and input.
    The realization of that meeting was that there was truly 
some positive and I think constructive information that was 
gleaned from that, and in a sense that innovation could come 
from the region, from the population and the organizations from 
the bottom up. We went back to Washington, had a sense of the 
things that came up in that group, and decided to go out and do 
focus groups in the 32 communities surrounding the Tongass 
Forest. From that, we gained even more information and 
realization that there are communities thinking about woody 
biomass. They are thinking about alternative energy. They are 
thinking about aquaculture. All kinds of things came out of 
these focus groups; specific projects that came out, a lot of 
what I would consider low-hanging fruit and projects that we 
felt that we could respond to.
    But what came out of this that resonated was that there was 
a need to begin to look at a more comprehensive regional and 
economic approach to the response of not just the Tongass, but 
economic activity within the region because we found that there 
was a diversified economy that we needed to pay more attention 
to and look at how we could strategically invest, and look at 
how we use the natural resource base as a means to advance the 
region in a more diverse way. So from that, we have kept 
meeting, and currently now we are meeting with not just the 
Forest Service, but I meet biweekly with all of the Deputy 
Under Secretaries from across the entire missionaries of the 
entire Department to begin to look at how we work with each 
other across all mission areas.
    Mr. Grijalva. Thank you very much. Mr. Jensen, I am also 
interested in the expanded use of the stewardship contracting. 
We have been told repeatedly, though, however, that there are 
major barriers, such as the cancellation ceiling. What options 
are you considering to deal with this problem, either 
administratively or legislatively.
    Mr. Jensen. Thank you for bringing this up. Obviously, you 
heard it is a key part of our testimony here today. Stewardship 
contracting is core to getting the jobs and getting the work 
done that we need to do in the Forest Service. I think the 
county commissioner at the end of the table here very clearly 
painted a picture about what is at stake--that our lands are 
not in the best of condition in a lot of places. Stewardship 
contracting, as you are highlighting here, is the key to 
solving that.
    We are running into some problems, and we are finding ways 
to address some of these administratively, looking at new ways 
to restructure some contracts. But there is also a challenge 
with this cancellation ceiling you just noted, which basically 
requires money to be put on the front end of contracts to 
ensure and guarantee that those that are investing in any of 
the resources that are part of this long-term contract, if we 
need to break that, there is money to pay them for those 
investments.
    That tends to be a little bit of a hurdle for us in terms 
of trying to come up with the type of money needed to guarantee 
that contract. So we are looking at various options. We haven't 
been able to firm up on an exact solution, but there are 
different ways to perhaps look at different ways to commit that 
money on the front side, or perhaps when the actual change in 
the contract occurs, and we would be happy to work closer with 
you to figure out what that might look like.
    Mr. Grijalva. Thank you. My time is up. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman, and I appreciate the 
panel, both panels who will be here. The fact that you all were 
sitting for so long, I apologize. It is part of the horrible 
time-management plan we have in Congress, and one of the 
systemic changes that need to take place.
    In like manner to the second panel, because I was expecting 
you to be done by now. I won't be here either. So I apologize 
for leaving you. It is not that I am offended by any of you, 
yet. It is just that I am--I apologize. It is the way we manage 
things around here. And I also apologize for missing the first 
two presentations. I did want to hear those because I have not 
had the opportunity of reading the supplied written testimony. 
I will get to that.
    I do have a couple of questions for you, although based on 
what we have heard in the past--Mr. Jensen, let me start with 
you, and I will try and go through this as quickly as we can. 
From the very few internal documents that have been turned over 
by the Department of the Interior related to the so-called 
brainstorming sessions you had on coming up with land 
management plans that included new national monuments, your 
name has appeared on several of those e-mails and agenda items. 
Can you tell us what specific proposals regarding the Forest 
Service were in the treasured landscape documents?
    Mr. Jensen. The Forest Service is not involved in any 
conversations around designating land monuments on Federal 
lands. There had been early discussions around America's Great 
Outdoors, and I don't know if the different terminologies are 
getting mixed up in between, but the Department of Agriculture 
is not involved in any of that.
    Mr. Bishop. But you were part of those brainstorming 
sessions, or not?
    Mr. Jensen. No, I was not.
    Mr. Bishop. OK. If indeed some of the Forest Land was 
carved out to those monuments, is there any way that you could 
ensure that existing multiple use would not be implemented or 
impacted by it? Because obviously the documents we have seen so 
far, the term multiple use has never been used.
    Mr. Jensen. It is hard to guess what might be in something 
that is not something that is real right now. So I can tell you 
that the Forest Service very much believes in the multiple use 
mandate and mission, and we would be looking toward that in any 
sort of decisions that move forward.
    Mr. Bishop. Thank you. You need to go back and make sure 
where your name shows up. It would be helpful to you.
    Mr. Jensen. OK.
    Mr. Bishop. If I could ask Ms. Sobeck--I hope I didn't 
mispronounce that--from Fish and Wildlife Services. Your agency 
is directly involved in reintroducing wolves in many areas of 
the West, including New Mexico. Ranchers are complaining about 
the impact of the wolf pack on their herds. Kids in Catron 
County are being stalked as they are now going to school, and 
there is a growing sense that Fish and Wildlife Service is 
disregarding public safety and welfare by that management 
practice.
    Has the Fish and Wildlife Service studied the economic 
impact of your wolf management program in New Mexico or 
anywhere else?
    Ms. Sobeck. I do not know the answer to that, but I would 
be happy to get to you, especially with respect to the New 
Mexico plan. I do know that we are very concerned about wolves 
and public safety, and the Endangered Species Act does have 
provisions to make sure that human life is protected.
    Mr. Bishop. If you would get back to me on the specifics of 
that, I would be very grateful.
    Ms. Sobeck. Yes. We would be happy to do that.
    Mr. Bishop. We will put it on the list of documents we are 
waiting to see. Just philosophically, should the management 
activities be changed if you find a detrimental impact on the 
local economy?
    Ms. Sobeck. The determination about whether or not to list 
a species is--the criteria are set out in the statute, and the 
economics of the impact on local communities is not one of the 
criteria for listing, but it is one of the criteria for--
economic impact is one of the criteria for designation of 
critical habitat, if any.
    Mr. Bishop. So is that it ought to be and is not, or it 
should be, or it is?
    Ms. Sobeck. I think economics should be a factor at 
appropriate points within the framework of the Endangered 
Species Act and its regulations.
    Mr. Bishop. Mr. Laurence, I have only got 40 seconds to ask 
the commissioner. I apologize for that. You gave a good 
recommendation as to what has happened to the Spotted Owl in 
reality. Economically, what has happened to Douglas County 
since that was listed as an endangered species?
    Mr. Laurance. We went from one of the more comfortable 
governments in the State of Oregon--the timber economy, which 
has been the economy of my county, is a 10-percent remnant, and 
that largely because private lands have stepped into the gap. 
In the documentation that I brought with me, you will see that 
we are cutting 1 percent. In the year 1988, we cut 397 million 
board feet off of the Umpqua National Forest. By 2002, that had 
dropped to 4 million, again 1 percent. It has come up a little 
bit, but again, we are a 10 percent remnant, and we have all of 
the associated social pain that you can imagine.
    Mr. Bishop. I appreciate that. Thank you. Maybe you can 
share that document with Fish and Wildlife. It would help you 
in implementing the local economy into your deliberations at 
some time.
    Mr. Laurance. Thank you.
    Mr. Bishop. Mr. Chairman, again I apologize, and to the 
second panel. I am not trying to be rude by leaving, but Mr. 
Grijalva is happy I am. But to the second panel, I am not 
trying to be rude by leaving, but I am, and I do apologize to 
you.
    Mr. Grijalva. See you later. Mr. Lujan.
    Mr. Lujan. Mr. Chairman, thank you very much. A couple of 
questions, Mr. Chairman. First I will start with Deputy Under 
Secretary of Rural Development, Mr. Vasquez. As you know, 
communities in New Mexico take a great deal of pride in the 
uniqueness of our culture and our traditions. Many of our 
farmers and ranchers depend on our distinctive irrigation 
systems known as acequias to the land grants that were granted 
over 500 years ago. And I want to emphasize that, over 500 
years ago.
    Can you go into additional details regarding your 
Department's efforts to reach out to unique regional systems to 
better support them? And they should be included in 
consultation when they are in areas that may be impacted.
    Mr. Vasquez. I can tell you from the rural development 
perspective and what I mentioned in our testimony, is that 
first and foremost, we take the perspective of local residents 
and local, I guess, strategies and innovation, of the utmost 
importance. So, yes, we would welcome the opportunity to 
consult with groups on how to respond to the uniqueness of what 
is used in agriculture in those areas.
    It may be that we would end up partnering with other 
mission areas, but we can start with rural development to look 
at what it is that needs to be responded to and how we could go 
about framing it.
    Mr. Lujan. I appreciate that very much, Mr. Under 
Secretary, as we look to grants that may be able to be 
accessed, but also accessed when there is designation, 
especially with some of our forest lands. That is something I 
am very interested in. Deputy Under Secretary, Mr. Jensen, 
thank you for appearing before the Subcommittee again as well. 
As you know, many rural communities have limited access to the 
Internet. I am particularly interested in what you are doing to 
help increase that collaboration and what we can do to see 
continued access, especially in rural communities, from 
economic purposes.
    Mr. Jensen. And you said to the Internet? I might defer to 
my counterpart here, Secretary Vasquez, as Rural Development 
has some pretty fascinating things going on around broadband.
    Mr. Vasquez. We are looking. We are going through round two 
of reviewing proposals for broadband expansion, and to date, it 
has been pretty much covered in most of the states. But if 
there are areas that we need to pay particular attention to 
through our Rural Utility Service, we would be more than happy 
to meet with those communities to look at how we can provide 
technical assistance to move in that direction.
    Mr. Lujan. I appreciate that very much. And then also 
looking at Rural Utility Service to see how we can strengthen 
it, as opposed to programs that may be proposed for reductions. 
These are important programs to rural America, who wouldn't 
have power--we wouldn't have telecommunications if it weren't 
for it, and so we need to strengthen those programs.
    Deputy Assistant Secretary Sobeck, what are you doing to 
protect hunting and fishing activities across the country, 
especially in New Mexico? How can we work closer with our state 
officials to plan, maintain, and protect access to hunting and 
fishing?
    Ms. Sobeck. Congressman Lujan, we consider the hunting and 
fishing community to be essential partners to the Fish and 
Wildlife Service on our refuge lands, and with respect to the 
migratory bird resources that we manage. So we have multiple 
partnerships with the hunting and fishing community. We 
consider them essential partners and work with them on a 
regular basis, inventing many, many of our programs. And we 
look to them for ideas and inspiration about how to increase 
access to hunting and fishing opportunities, both on Federal 
lands and private lands. We know that protection of vital 
habitat has been attributable in large part to the support of 
the hunting and fishing community, and we need to make sure--I 
heard this this week in Nebraska--that there is a new 
generation of hunters that value their access to the land and 
their relationship to resources. And I think that those 
opportunities and the conservation and recreational goals of 
our agency are very closely aligned.
    So I don't have any specific examples with respect to New 
Mexico, but I know that we have had some America Great Outdoors 
listening sessions. They are planned to be held in your state, 
and we will be looking for any suggestions. We are truly 
listening to the local groups and want to hear their ideas 
about how to accomplish the goals that you described.
    And so I think that we have very closely aligned interests 
in that area.
    Mr. Lujan. Thank you very much, Mr. Chairman. And as we 
look to continue this discussion, again the city of Santa Fe 
will be celebrating its 400th anniversary this year, land 
grants that date back 500 years, traditional access and uses, 
whether it was gathering wood or woods with Pinon or some of 
our small producers that have used the land for grazing as 
well, hunting and fishing, proud traditions back home that I 
know that, Mr. Chairman, we will be able to make sure we are 
addressing and looking to improve the economic activity around 
the country. Thank you.
    Mr. Grijalva. If I may, Mr. Lujan, the 500-year anniversary 
of Santa Fe----
    Mr. Lujan. Four hundred.
    Mr. Grijalva. Four hundred? In comparison to Plymouth Rock, 
more or less.
    Mr. Lujan. Mr. Chairman, they are celebrating the 400th 
anniversary in the city, and I am not sure where we are with 
Plymouth Rock, but I can guarantee you it is not 400.
    Mr. Grijalva. Mr. DeFazio.
    Mr. DeFazio. I honor the City of Santa Fe, but I think it 
actually is 400 past Plymouth Rock. I think that was 1492, but 
maybe I am wrong. So anyway, to the subject at hand. First, to 
the Department of Agriculture; either one of you can answer 
this. You know, I was involved with a coalition, and we had 
some quite lengthy discussion and struggle with Chairman Waxman 
to include in the so-called cap and trade bill, which I did not 
support, language for biomass utilization on Federal lands, and 
making it eligible for the same tax credits that you can get 
off private lands. And as I understand, the Administration 
supported that initiative.
    But now, we have the Environmental Protection Agency 
proposing to reclassify the utilization of biomass in defiance 
of all their past positions in terms of the carbon cycle, and 
to in fact essentially potentially classify it the same as 
fossil fuels, coal. And I am just wondering, since you both 
talk about woody biomass utilization and some examples and how 
productive this could be--and certainly Commissioner Laurance 
makes a great case and brought a pilot project to the Umpqua 
National Forest there--are you concerned, have you engaged 
with, are you tracking the EPA? Does the left hand of the 
Administration know what the right hand is doing here?
    Mr. Jensen. The left hand the right hand are firmly shaking 
and trying to figure out how to get that handshake to get on 
the same page. The Department of Agriculture--this issue you 
raise is absolutely essential that we figure out how to create 
the kinds of good, positive, sustainable incentives to use, in 
this case, woody biomass, if we are dealing with the Forest 
Service. So this question, I think, in particular around how 
you define renewable biomass is a really key one. There is a 
public lands component to it. There is a private lands 
component to it. It revolves a lot around the sustainability of 
that resource.
    The Secretary has testified that the 2008 Farm Bill 
definition is an appropriate and comprehensive place to look at 
how to approach that issue.
    Mr. DeFazio. As I understand from some discussion with some 
of the environmental groups, they have two concerns. One is 
scale, and the other is--there are some delusional 
environmentalists who believe that after we do all of the fuel 
reduction, which most people would agree is necessary so we 
don't torch up our green forests with fuel conditions that 
never should have existed, that have been poorly managed--some 
think that, well, after you finish that, you will then install 
capacity, and you will go back, and you will cut down the big 
old trees. I said, so we are going to cut down a $20,000 
Douglas fir or $30,000 old growth ponderosa, and turn it into 
$200 worth of wood chips. I am not certain how to deal with 
that. But I think in terms of the scaling and the 
sustainability, you could deal with it through stewardship 
contracts and prescriptions over the land base. And the other 
thing I would observe is that you don't have the budget to do 
the fuel reduction.
    I mean, GAO says we are losing ground. Actually, we are 
becoming more and more fire prone every year because of 
accumulating dried fuels and woody biomass that shouldn't be 
there, and it is going to burn catastrophically in most places. 
So this, I think--and I don't know if you have any studies on 
this, but I believe that if you entered into larger scale 
contracts, say to feed a project of appropriate scale, to 
reduce woody biomass, you probably would get a cheaper bid 
price on that work. I would assume you could stretch your 
dollars further. Don't you think that is so, if there were some 
product to come out of there, as opposed to piling it up into 
slash piles and burning it next winter?
    Mr. Jensen. There are economies of scale, and that is very 
much one of the key beliefs and thoughts that we have got in 
trying to get more work done, create those economies of scale 
so we can get more done with fewer dollars.
    Mr. DeFazio. OK. Well, I am glad to see we are on the same 
page there, and I would do anything I can to help you with 
that. I organized a letter of about 60 Members of Congress 
expressing concern with this potential reclassification or new 
classification to the EPA administrator, and we expect to be 
meeting with her to discuss that.
    The other issue you raised, which is also critical, is you 
talk about the Secure Rural Schools and the fact that it has 
provided beneficial projects across the West. And I guess what 
I would like to know is I am sending a letter just now to the 
President signed by--I am trying to remember how many, how many 
people in our letter; 58, another 60 Members of Congress--
regarding the long-term prospects for Secure Rural Schools and 
the projects you discussed here, the resource advisory 
committees and those projects. And I am wondering--I discussed 
this with the President earlier this year. He referred letters 
both to the Secretary of Agriculture, since that is Forest 
Service, and the Secretary of the Interior, and said that they 
should follow up with me on my concerns about some longer-term 
plan. And I haven't heard anything yet.
    Mr. Jensen. I am glad you are beginning the discussion 
because reauthorization of that bill is up in 2012, and it has 
been a very important tool and lifeblood for these rural 
communities and counties that are surrounded a lot of times by 
public lands. So we have seen tremendous success. The types of 
projects that come out of that bill have led toward some of the 
best work that is out there that is not appealed, that is not 
litigated. And so we are looking forward to engaging that 
conversation. We are very glad that you are bringing it up, and 
look forward to continuing that.
    Mr. DeFazio. I would change the tense, not bringing. I have 
been persistently--I brought up with the President as a 
candidate, then brought it up--but, most recently, personally 
brought it up with him a few months ago. And I would hope to 
get some response to the referred letter by the President. As 
he said, he would ask both secretaries to engage on that issue.
    I want to, Mr. Chairman, if I could, just apologize to the 
next panel because I have a lunch with the Majority Leader at 
noon to discuss manufacturing jobs. Rural jobs are very 
important. Manufacturing jobs are important, too. I am a bit 
conflicted, and there is a member of the next panel who I think 
has much to tell us about that, and I will try and get back. 
But I just want to apologize in advance.
    Mr. Grijalva. Let me follow up with a couple of questions. 
And if I can invite Dan Wenk up for a question, and also Mr. 
Poole from BLM up for a question, I would appreciate that. 
Thank you very much. Mr. Wenk, we have heard assertions 
constantly that national parks negatively impact rural 
communities, yet we also hear how important parks are to 
businesses and economic activity, particularly in gateway 
communities. Can you give us some hard numbers on what effect a 
Grand Canyon, a Zion, a Yellowstone have to the surrounding 
areas? And if you would, please, if you don't mind, identify 
yourself for the record.
    Mr. Wenk. Yes, Mr. Chairman, I can. I am Dan Wenk, the 
Deputy Director of the National Park Service. The Deputy 
Assistant Secretary Sobeck talked about the national impact in 
terms of dollars and jobs of the national parks across the 
country. But if I could add to that, if I just took one area of 
the country, which would be the inter-mountain region, visitors 
spent more than $2.5 billion in the gateway communities 
surrounding the parks. There are 91 parks across eight states 
in the inter-mountain region. More than $2.5 billion, which 
supported more than 51,000 local jobs and contributed 
approximately $1.6 billion in added value. That is the net 
value added to the region's economy in the preferred measure of 
how an industry or an activity contributes to the economy.
    Specific examples to your question. Visitor spending in 
National Park Service payroll in the Grand Canyon supported 
more than 11,500 jobs and contributed approximately $307 
million in value added. Rocky Mountain National Park supported 
almost 5,000 local jobs and contributed over $140 million. 
Yellowstone supported almost 7,200 jobs, and contributed 
approximately $305 million in value added. Glacier supported 
more than 2,200 jobs and contributed approximately $75 million 
in added value.
    Just a couple more facts of note. In the State of Arizona, 
visitor spending accounted in payroll accounted for $680 
million and about 18,000 jobs. In Utah, $500 million and 12,500 
jobs.
    Mr. Grijalva. Thank you. And now, Mr. Poole, we have also 
heard--and thank you, and if you could identify yourself for 
the record as well. But we have heard a lot recently about the 
loss of energy jobs in Utah specifically. But according to your 
testimony, the Milford wind corridor project has created 250 
jobs in the area and brought more than $85 million in economic 
benefit. So it looks like you are working with the private 
sector to create jobs. And can you talk about this and other 
opportunities that you can tell the Committee about?
    Mr. Poole. Yes, I can, Mr. Chairman. That is the Milford 
Project in Utah. It is divided in two phases. BLM authorized 
phase one in 2009. At that time, we authorized approximately 
100 wind turbines, producing about 200 megawatts. We are in the 
process of authorizing phase two for an additional 70 wind 
turbines and an additional 100 megawatts. Those figures are 
correct. Our estimates is it has resulted in about 250 jobs, 
about $85 million in revenue to the State of Utah. And the 
overall investment being made by the company is about $500 
million.
    Currently, we have what we call fast track projects, 34 
projects bureau-wide. This includes many aspects of our 
renewable portfolio. That is solar, that is wind, that is 
geothermal. That is also either upgrade or to new transmission, 
all of which will be producing jobs and additional revenue, for 
the most part in proximity to rural communities throughout the 
West.
    Mr. Grijalva. One quick question for the commissioner. I 
was particularly interested, and these partnerships are, I 
think, important, and particularly in our part of the country. 
But I was interested in how your project has worked out the 
partnerships with the local tribes. I think that is not only 
interesting, but very important.
    Mr. Laurance. Well, thank you, Mr. Chairman. Shortly after 
I took office in 2007, I was talking to Senator Wyden, and we 
talked about these issues--about how there is dissension--and 
he said if I could bring together a local collaborative group 
to discuss these issues and seek solutions, it made his job as 
legislator an easier job. In recognizing that, I looked at 
about 100 influential members of my community on all sides, 
environmental advocates, timber industry, government, Federal 
land managers, and vetted through that 100-name list, and came 
up with about 35 names who spoke with authority for those 
organizations they represented, but were careful listeners as 
well. And the result of those conversations over the course of 
three years has developed the resolution that you see before 
you.
    It is interesting that among the people who first talked to 
me, for instance, about pre-European conditions that we talk 
about, the first with me is Javier Goirigolzarri, a forestry 
consultant. Speaking with me about this very thing was Paul 
Beck, a timber manager for a local timber company; as well as 
Ken Carlon, a professor at our local college, and also the 
president of probably the most influential environmental 
organization in my county; as well as Steven Rondo, resource 
manager of the Umpqua--the Cow Creek Band of the Umpqua Indian 
Tribe.
    And it is interesting that in conversations, it was always 
directed toward the tribe. And we wanted their buy-in. And they 
helped shape a vision that harkens back 150-200 years in their 
oral tradition. And it is interesting that this has become 
vitally important to them. We are identifying heritage sites, 
many of which remain sacred and only known, as we discover 
them, to that tribe in this study.
    And interesting aside is that my son, who is working for 
the Forest Service, who has had a lifelong interest in native 
plants, has a variety of every plant used by the local Indian 
tribe in prehistory growing somewhere on my place--some of them 
look like weeds, but he promises me they are not. So that 
collaboration is very rich, and I think beneficial to my entire 
community.
    Mr. Grijalva. Thank you. Mr. Jensen, Ms. Sobeck, I have 
other questions that I will submit in writing to you. And I 
appreciate your response to the Committee. Mr. Jensen, I won't 
ask you about meetings or anything like that. If you do have an 
independent thought on your own, please keep it to yourself. 
Anyway, thank you very much, and I invite the next panel up.
    Mr. Jensen. Thank you.
    [Pause]
    Mr. Grijalva. Thank you very much. Let me welcome the panel 
and turn to my colleagues that have joined us today for 
introductions of individuals on the panel. Let me begin with 
Mr. Lujan, sir.
    Mr. Lujan. Thank you very much, Mr. Chairman. Today, Mr. 
Chairman, I am proud to introduce two panelists, one on the 
second panel, which we have before us today, and one that will 
be speaking on the third panel. Mr. Lee, thank you for 
appearing before the Subcommittee today. This is an important 
topic to many folks back home in New Mexico, and especially to 
the Committee. I worked closely with the Cattle Growers' 
Association in the past, and I am familiar with the important 
concerns, and many opinions shared by our stockmen.
    I believe like you that in the creation of Federal land, 
local communities' concerns should be kept in mind. I was proud 
that while developing language for my Rio Grande del Norte 
National Conservation Area Establishment Act, I met and spoke 
with members of the Cattle Growers' Association and the New 
Mexico stockmen to ensure their concerns were listened to so 
that access for traditional uses was protected.
    Preservation of land must take into consideration our way 
of life. Everyone can work together, but that means ideas have 
to be shared, and respectful discussion must play a big part. 
To that end, I believe that we agree in protecting the land, 
while approaches may differ on the best methods of preserving 
our culture, traditional uses, and access, I believe that it is 
important for the Subcommittee to hear the unique concerns of 
our community in New Mexico, and how we can work together as we 
protect traditional uses for our farmers, ranchers, acequias, 
and land grants, and manage our public lands.
    Once again, thank you for joining me today, Mr. Lee. And, 
Mr. Chairman, if I may, with the introduction of our second 
guests that we will have on the next panel, I have the pleasure 
of introducing a constituent from Taos, New Mexico, Ms. Rachael 
Mondragon, the founder of Urban Interface Solutions. Ms. 
Mondragon has worked closely with state and Federal lands for 
much of the past decade, in both the Carson National Forest and 
the Cimarron State Forestry Office. Ms. Mondragon has dedicated 
herself to protecting our rural communities through wildfire 
suppression field work, and front office respectively.
    Her skill in the Carson National Forest suppression crew 
enabled her to continue wildfire prevention and continue with 
her fire department as a crew boss. Building upon her knowledge 
of forest and work experiences, Ms. Mondragon developed Urban 
Interface Solutions, a diverse company that tackles such 
projects as landscape scaling and hazardous fuels reduction 
planning and implementation efforts. These experiences have 
equipped Ms. Mondragon with a unique perspective or protecting 
our wildlife while creating business and industry locally.
    Through her hard work, dedication, independent business 
spirit, and endurance, Urban Interface Solutions is a 
successful company that was granted $450,000 to work 
cooperatively with the Taos Pines Ranch through the 
collaborative forest restoration program. Her work with Federal 
agencies and grants through these are additional evidence of 
the benefits of joint work between private industry and 
Federally protected land, and how they can work together for 
the betterment of our communities.
    Thank you for joining us today, Ms. Mondragon and Mr. Lee. 
I look forward to the testimony. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you, sir. Now also let me ask unanimous 
consent for Mr. Minnick to join us at the dais, if he so 
chooses after his introduction. If there is no objection, so 
ordered; and also extend to him the opportunity to introduce 
one of your constituents, sir.
    Mr. Minnick. I thank you very much, Mr. Chairman. I am here 
to acknowledge an Idahoan who is going to testify in your next 
panel, Kristin Troy of Salmon, Idaho. She is the Executive 
Director of the Lemhi Regional Land Trust, and you will be 
hearing from her shortly, and also to introduce Joyce 
Dearstyne. Joyce is on this panel, second from my left. She is 
the Executive Director of Framing Our Community. This is a 
small business incubator and value-added job skills and 
training organization that is unique because of its location. 
Joyce started this organization and runs it in Elk City, Idaho, 
which has to be one of the most remote cities--it is a town of 
a little over 1,000 people--in the lower 48. The city is 
perched very near rim of the main Salmon River overlooking the 
second deepest canyon in North America.
    There is some dispute, Mr. Chairman, over whether the 
deepest is in your state or my state, but this is second in any 
event. And it is surrounded by the largest wilderness area on 
three sides, the largest wilderness area in the lower 48. It is 
a center of productive forest land that is managed by the 
Forest Service on a multiple uses basis. Elk City was a typical 
mill town, had a single employer, and the mill closed in 2005. 
The city was very fortunate to have Joyce there and Framing Our 
Community, her organization, which stepped in, and has kept 
that town on the map.
    It has done it by her ingenuity using a very limited amount 
of Federal dollars, by becoming a small business incubator that 
has drawn in a number of forest-based conversion options. They 
produce specialty lumber. They produce wood fiber for a 
cogeneration operation that Joyce is in the process of 
starting, and a whole bevy of training organizations that 
promote healthy forestry.
    She has started training programs which deal with watershed 
restoration, which is a key to stewardship sales in this very 
rugged back country area; natural disaster response; and even a 
program called Artists in the Woods. And it is truly 
remarkable. She has turned this community, instead of drying up 
and blowing away, into one of the most vibrant back country 
communities in my state. She has also reached outside her 
community and is an active participator in the Clearwater 
Collaborative, which is a group that Senator Crapo of my state 
has put together to come up with a--bring interest groups 
together and come up with a cooperative land management plan 
that hopes to present you a forest management plan, including 
some new wilderness in Idaho, likely next session, and she is a 
member of a group that is involving Idaho and Washington, the 
North Idaho and Eastern Washington Jobs Workforce Development 
Group that is a partnership that brings in and promotes 
economic development throughout this rural region. She 
epitomizes what we need to do as a Federal Government in 
stimulating the kinds of economic development that will keep 
our rural and forested areas alive in this country.
    It is a pleasure for me to welcome Joyce Dearstyne.
    Mr. Grijalva. Thank you, Congressman. And let me again 
welcome the panel. Let me begin with Cassandra Moseley, 
Director, Institute for a Sustainable Environment, University 
of Oregon. Doctor. welcome. I look forward to your testimony.

STATEMENT OF CASSANDRA MOSELEY, PH.D., DIRECTOR, INSTITUTE FOR 
        A SUSTAINABLE ENVIRONMENT, UNIVERSITY OF OREGON

    Dr. Moseley. Thank you, Mr. Chairman and members of the 
Committee. Thank you for letting me be here today. I want to 
talk about the ways we can create jobs through the restoration 
and maintenance of our public lands.
    As the Chairman said, I direct the Institute for 
Sustainable Environment at the University of Oregon. And today, 
I want to offer some job creation principles, some promising 
strategies, and a few key recommendations. I am going to leave 
the specifics to the panelists with muddy boots.
    National forests and other public lands are critical to 
securing clean air, water, biodiversity, and carbon, and yet 
our public lands face a significant need to recover ecosystem 
function, reduce fire hazard, prepare for and adapt to climate 
change. These needs create an economic opportunity for public 
lands communities. Investments in forest and watershed 
restoration create jobs, jobs at a rate similar to 
infrastructure projects such as buildings and roads. In a 
recent study, we found that in Oregon, forest and watershed 
restoration creates between 15 and 24 jobs per $1 million 
invested. Forest restoration can also generate woody biomass 
that can be used for wood products and energy, and this can add 
additional business and employment opportunities.
    The central challenge is to translate this economic 
opportunity into economic reality for public land communities 
over the long term. During the recession, Federal policy has 
been appropriately focused on stimulating the economy by 
creating immediate jobs. However, in many public lands 
communities, they have longer term underlying economic 
weaknesses that will not be resolved when the national economy 
recovers. Moving forward, a focus on job quantity rather than 
job quality can create economies that fail to support families 
and their communities, and leave out western rural communities 
altogether because their population densities make it difficult 
for them to find enough local workers to take advantage of 
these sorts of strategies.
    So what does it take to transform the need for forest and 
watershed restoration into rural wealth, businesses, and jobs? 
We need agreement about how these lands are managed, agency 
capacity to act on these agreements, and businesses and a 
trained workforce to do the work. Over the past 15 years, 
communities and their agency partners have developed a number 
of key strategies to create these conditions. One of the key 
strategies is collaboration.
    Since the mid-1990s, diverse collaboratives of agency and 
community partners have worked to resolve conflict over Federal 
land management. By starting small and using demonstrations and 
field tours monitoring, collaborative groups have built trust 
to move toward landscape-scale restoration.
    Second, alongside collaboratives, many western communities 
have created community-based organizations that have emerged to 
facilitate these groups, work with agencies to plan and 
implement projects, and undertake business and workforce 
development.
    Third, turning to the land management agencies, stewardship 
contracting has become a key tool for undertaking public lands 
restoration and creating a diversity of local benefits. For 
example, on the Fremont National Forest, a 10-year stewardship 
contract is being used to implement broad agreement about 
forest restoration and keep the local sawmill opening, saving 
milling and logging jobs.
    A fourth strategy has been integrated value-added 
manufacturing and biomass utilization. In these efforts, 
community groups co-develop and co-locate small diameter wood 
processing facilities, electrical, and heat generation, and 
these projects are energy efficient, scaled appropriately to 
local conditions, and structured to allow communities to 
capture as much benefit as possible.
    And finally, we are seeing the emergence of regional 
economic development strategies and networks. Although 
community-based approaches to development promised to maximize 
local benefit in places dominated by public lands, larger scale 
politics and markets greatly affect the ability of community-
based efforts to succeed. And increasingly, local organizations 
are working across communities to develop markets, capital, and 
facilities.
    So how can Congress and the Federal Government accelerate 
conservation-oriented economic development? Let me offer a few 
suggestions. First, I would recommend the reauthorization of 
stewardship contracting. Second, I think we need a grant 
program to allow the national forests and community partners to 
foster community business and agency capacity to integrate 
public lands restoration and rural community development. And 
finally, the Forest Service needs budget structures that allow 
them to effectively and efficiently conduct integrated 
restoration on national forest lands.
    So thank you again for holding this important hearing. The 
ecological health of public lands and the economic prosperity 
of nearby communities are inextricably linked. While there is 
still a lot of work to be done, Federal agencies and their 
community partners have been developing strategies to improve 
the health of both the communities and the lands. I look 
forward to any questions you have. Thank you very much.
    [The prepared statement of Dr. Moseley follows:]

  Statement of Cassandra Moseley, Ph.D., Ecosystem Workforce Program, 
     Institute for a Sustainable Environment, University of Oregon

    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to speak before you today about the 
ways we can create and retain jobs through the restoration and 
maintenance of public lands. I want to discuss how well-crafted federal 
land management, contracting, and economic development policies can 
support high quality jobs, foster robust small enterprises, and create 
wealth in rural public lands communities.
    I direct the Ecosystem Workforce Program in the Institute for a 
Sustainable Environment at the University of Oregon. Founded in 1994, 
the Ecosystem Workforce Program seeks to build ecological health, 
economic vitality, and democratic governance in rural forest 
communities in the American West. We address these interconnected 
issues with applied research and policy education related to rural 
communities and federal forest management. I am a founding participant 
of the Rural Voices for Conservation Coalition, a group that is focused 
on finding policy solutions that link the long-term health of the land 
and well-being of rural communities. Over the past nine years, I have 
undertaken a number of studies about the rural community benefits of 
Forest Service and Bureau of Land Management (BLM) contracting, the 
working conditions of federal contract forest workers, and the use of 
stewardship contracting.
    Today, I am going to discuss:
        1.  Historical precedents for the Forest Service role in 
        creating local economic benefit
        2.  Opportunities to create jobs in public land communities 
        today
        3.  Strategies for creating conservation-oriented economic 
        development
        4.  Place-based and regional strategies and examples of what is 
        working
        5.  Challenges limiting public land communities' participation 
        in and benefit from the conservation of public lands
        6.  Recommended policy changes
1.  Caring for the Land, Serving the People: Historical precedents for 
        the Forest Service role in creating local economic benefit for 
        public land communities
    When beginning a conversation about how public lands can play a 
role in creating prosperity in rural communities, one can easily ask 
whether this should be a focus or obligation of these agencies. It is 
worth briefly considering the founding of the Forest Service. At the 
turn of the 20th century, Teddy Roosevelt, Gifford Pinchot, and other 
Progressives advocated for forest reserves and later the Forest Service 
as agencies that would conserve timber, water, and rangelands 
immediately and into the future. As part of this vision, they saw local 
economic well-being as a fundamental part of national forest 
management. The first regulations of the National Forest Reserves (the 
1905 Use Book) laid out ``protecting local residents from unfair 
competition in the use of forest and range'' as a central purpose of 
the reserves. Since then, Congress has repeatedly created programs to 
focus the Forest Service's attention on the creation of local economic 
benefit from sustainable management of the national forests. In the 
past 60 years, we have seen the Sustained Yield Forest Management Act 
of 1944, which authorized the Forest Service to create units where 
sustained yield timber harvest was to benefit the local community; 
special salvage timber sale and small business timber sale programs; 
and obligations under the National Forest Management Act to analyze the 
economic impact of management. More recently, appropriations associated 
with the National Fire Plan, Secure Rural Schools, and stewardship 
contracting all focus the attention of national forests on creating 
local community economic benefit while managing lands for the long term 
good of the Nation. For a century of its history, the Forest Service 
has had to simultaneously address national interests and local 
benefits; and balance current needs and long-term well being.
2.  Forest and watershed restoration and biomass utilization: 
        Opportunities to create jobs in public land communities today
    Now more than ever, we understand the key roles that national 
forests and other public lands play in securing clean air, water, 
biodiversity, and carbon now and into the future. Federal lands also 
provide places for recreation, retreat, renewal--critical roles in a 
nation that struggles to unplug and unwind; and even more significant 
for today's youth, who are facing an epidemic of obesity.
    Despite their importance, our national forests and other public 
lands face a significant and growing need for management to recover 
ecosystem function, reduce fire hazard, and prepare for and adapt to 
climate change. These lands and forests need hazardous fuels reduction, 
improved wildlife and fish habitat, road decommissioning and 
maintenance, and updated recreation facilities. Although funds from the 
American Recovery and Reinvestment Act (ARRA) have helped to reduce the 
backlog, much still needs to be done. The need to actively restore our 
national forests and grasslands is great, as is the need to create 
economic opportunity for the businesses and workers in communities who 
live adjacent to public lands.
    Investments in forest and watershed restoration create jobs and 
economic impacts similar to investments in infrastructure projects such 
as building roads and bridges. In a recent economic impacts study, we 
found that forest and watershed restoration activities create between 
15.7 and 23.8 jobs per $1 million invested in Oregon. The economic 
multipliers are in the range of 1.4 and 2.4. \1\ Employment numbers 
tend to be higher for labor intensive activities such as hand thinning, 
tree planting, and site preparation and lower for equipment-intensive 
jobs such as construction of instream habitat and mechanical thinning, 
selective logging and the like. However, the equipment-intensive jobs 
usually created more total economic impact. The majority of the 
companies we interviewed were quite small--nearly two-thirds had annual 
revenues less than $1 million. \2\
    Forest restoration activities such as hazardous fuels reduction and 
thinning have the potential to generate small diameter trees and other 
woody biomass that can be used to create wood products and energy. 
These products are wide ranging and include posts, poles, furniture, 
animal bedding, landscaping projects, paper, and engineered wood 
products and energy including heat and electricity. Developing 
utilization businesses located near the national forests can reduce 
treatment costs for the federal government and other landowners, as 
well as create local business and employment opportunities. \3\
3.  Restoration and biomass utilization: Strategies for creating 
        conservation-oriented economic development
    As ARRA winds down over the coming year, the central challenge will 
be to translate the economic opportunity of forest and watershed 
restoration and the utilization of byproducts into economic reality for 
rural communities over the long term. During the recession, federal 
policy has been focused on stimulating the economy by creating 
immediate jobs. In many ways, this is an appropriate strategy for 
encouraging recovery and avoiding deflation. However, many public lands 
communities have longer-term, underlying economic weaknesses that will 
not be resolved when the national economy recovers. Beyond short-term 
stimulus, many rural public lands communities need to develop 
economically. There are several key dimensions of successful 
conservation-oriented economic development:
        <bullet>  Wealth creation and retention: The development of 
        local businesses that provide restoration and stewardship 
        services or energy products need to be scaled to meet local 
        market demand and be part of an integrated economy that 
        includes value-added manufacturing and local ownership to 
        ensure that the money generated circulates through the local 
        economy.
        <bullet>  Diversity and adaptability: In small rural economies, 
        the businesses that can provide a diversity of services and 
        evolve as needs change will be best able to withstand changes 
        in economic or environmental conditions. In natural resource-
        based economies, seasons, natural disturbance, and commodity 
        markets are constant sources of change. In the face of climate 
        change and the need for renewable energy development, creating 
        integrated, diverse strategies will allow rural communities to 
        withstand change and perhaps even prosper because of it.
        <bullet>  Robust small businesses: Local ownership and hybrid 
        ownership models that create not only jobs but also local 
        business opportunities can help create local wealth along with 
        jobs.
        <bullet>  High quality jobs: Focusing on high quality jobs is 
        critical to overall community well being. Job creation efforts 
        that focus on securing a large number of jobs do not always 
        consider whether those jobs will enable workers to support 
        their families. Equally problematic, rural communities often do 
        not have the population available to take advantage of large-
        number-low-quality-job strategies, so the jobs and the economic 
        benefits will go to outsiders. Strategies that focus on 
        creating high quality, longer duration jobs will better help 
        rural businesses strengthen their efforts to create more 
        sustained positive economic impacts.
4.  Place-based and regional strategies and examples of what is working
    What does it take to transform the need for forest and watershed 
restoration into rural wealth, diverse and flexible enterprises, and 
jobs? Across the West, communities and their agency partners have been 
working together to foster economic development around forest and 
watershed restoration and biomass utilization. Over time, a set of 
strategies are emerging that foster success. These include:
        <bullet>  Collaboration
        <bullet>  Community-based organizations
        <bullet>  Best value and stewardship contracting and contractor 
        development
        <bullet>  Promotion of quality jobs
        <bullet>  Integrated value-added manufacturing and biomass 
        utilization
        <bullet>  Regional strategies and networks
Collaboration
    Since the mid-1990s, collaboratives that include front line staff 
from federal agencies, local government officials, local citizens, 
environmentalists, and industry representatives have emerged in the 
West to resolve conflict over federal land management, find common 
ground, and develop and implement projects. By starting small, using 
demonstrations and field tours, and monitoring project implementation, 
many collaborative groups have built sufficient trust to move toward 
landscape-scale restoration. Now, established collaborations are taking 
on increasingly large and complex projects. Initially, collaboration 
can be slow to develop. Strengthening and expanding collaboration is an 
iterative process, where each project builds on the last. But the 
benefits of collaboration include innovative solutions to complex 
problems, reduced tensions, and more financial and technical resources 
to implement a project. These collaborative approaches are critical to 
the effective and efficient management of our public lands and to 
restoring social harmony in the communities that have born the brunt of 
conflict over national forest management. Collaboration has proved 
itself to be an essential strategy to developing and implementing 
durable solutions.
Community-based organizations
    Alongside collaborative processes, in many western communities, 
community-based organizations have emerged to help facilitate 
collaborative groups, assist the agencies with project planning and 
implementation, and support business and workforce development for both 
restoration and value added manufacturing and biomass utilization. 
Organizations such as such as Wallowa Resources (Enterprise, OR), Lake 
County Resources Initiative (Lakeview, OR) and the Watershed Research 
and Training Center (Hayfork, CA) develop partnerships with local 
entrepreneurs, agencies, and community leaders to strengthen small 
local business development and to increase the flow of benefits from 
forest management to local communities and workers. In addition, 
regional organizations such as Sustainable Northwest are playing a 
pivotal role in networking these organizations, providing technical and 
facilitation assistance, and helping entrepreneurs access urban 
markets. Place-based, regional, and even some national organizations 
have become essential in achieving conservation and rural development 
objectives. These are the entities that create neutral forums of 
diverse stakeholders for the agencies, provide technical assistance to 
support local community and business efforts, and foster innovation and 
hope that federal agencies cannot create on their own.
Best value and stewardship contracting and contractor development
    Direct Federal employment, procurement contracts, timber sales, 
stewardship contracts, and cooperative agreements are the central ways 
that the Forest Service generates economic activity through land 
management. Examining ARRA awards in the West based on recipient 
location (rather than project location) suggests that the U.S. 
Departments of Agriculture and the Interior have been the lead funders 
in many of the hardest hit-rural counties in the West. This is despite 
the relatively small amount of ARRA funding obligated to land 
management agencies, suggesting that funds from these agencies can and 
do reach businesses in the rural West. \4\
    The ways contracts and agreements are structured impacts whether 
local contractors can readily compete for them. Best value contracting, 
in particular, can reward contractors who perform high quality work, 
have well-trained workers, or use low impact equipment. In addition, 
for much of the last decade the Forest Service has had the authority to 
consider local benefit when awarding stewardship and many service 
contracts. These authorities can help increase awards to local 
contractors. \5\
    In addition, cooperative agreements between land management 
agencies and community-based organizations, especially in communities 
with limited contracting capacity, can help increase local benefit. For 
example, in Hayfork, California, where there are virtually no 
contractors left, the Watershed Research and Training Center and the 
Shasta Trinity National Forest have entered into cooperative agreements 
for restoration projects that employ and train local workers. This 
approach serves to create local jobs now while building local workforce 
capacity for the longer term.
    In addition to best value contracting and cooperative agreements, 
stewardship contracting has become a very effective tool for 
undertaking public lands restoration and creating a diversity of local 
benefits. For example, in Northern California, the BLM and Forest 
Service have entered into ten-year stewardship agreements with the 
Trinity Resource Conservation District to collaboratively mange the 
Weaverville Community Forest. These agreements have turned a conflict 
into a broadly-supported strategy to reduce fire hazards, while 
improving recreational opportunities, protecting cultural resources, 
and sending logs to the local sawmill. On the Fremont National Forest, 
a 10-year stewardship contract is being used to implement broad 
agreement about forest restoration and keep the local sawmill open, 
saving dozens of milling and logging jobs. In Central Oregon, 
stewardship contracting has enabled contractors to acquire new 
equipment and identify new markets for biomass utilization. In 
Southwest Oregon, the Rogue Siskiyou National Forest has used 
stewardship agreements to quickly implement ARRA projects and create 
more than 35 jobs conducting hazardous fuels reduction. Over the last 
several years, Forest Service Region 6 has invested in training their 
staff, members of collaborative groups, and contractors in 
understanding how to use tools like stewardship contracts. These 
initial steps and leadership from the Regional Office have positioned 
national forests in Region 6 to take advantage of stewardship 
contracting authorities.
Promotion of quality jobs
    Poor job quality has been a long-standing problem for labor-
intensive workers such as those that work on thinning and tree planting 
projects. Often Hispanic migrants, these workers are subject to 
frequent verbal abuse and safety and labor violations. Changing these 
conditions requires shifting the dynamics in the labor and contracting 
markets. In recent years, the Forest Service and Department of Labor 
have come together to collaborate to increase enforcement of labor, 
safety, and contracting regulations. More recently, Region 6 of the 
Forest Service has begun to collaborate with state and Federal agencies 
and worker organizations to pursue more consistent enforcement and 
create a cultural change within the agency that supports staff in 
recognizing and acting on labor and safety violations as they would 
timber theft or abandoned camp fires. Although there is still a long 
way to go before labor-intensive forest workers will experience 
consistent changes in their working conditions, these recent steps are 
promising.
Integrated value-added manufacturing and biomass utilization
    A number of biomass development strategies are emerging, which 
integrate value-added manufacturing, and electrical and heat 
generation. These approaches create projects that are energy efficient, 
scaled appropriately to local forest conditions, and structured to 
allow public land communities to capture as much benefit as possible. 
In Wallowa County, for example, a number of business, nonprofit, and 
county partners are developing an Integrated Biomass Energy Campus. 
Already, it has created 14 new jobs utilizing woody biomass that 
otherwise would have been left in the woods after thinning to be piled 
and burned. With planned additions to the campus, including a new 
combined heat and power plant that will provide electrical and thermal 
energy to the co-located companies, total employment will rise to 26-30 
jobs (nearly 1% of non-farm workforce in the county) and annual biomass 
purchase will increase to 50,000 tons - value of about $1.2 to $1.5 
million annually. This project will support additional jobs in the 
woods and help sustain the economics of private working forestlands. 
This new local market will help support about 7,000 acres of forest 
restoration/fuel reduction annually. This model reduces transportation 
costs, creates partnerships, and has the potential to provide sustained 
community economic development.
Regional strategies and networks
    Although community-based approaches to economic development promise 
to maximize local benefit, in communities dominated by public lands, 
the reality is that politics and markets operating regionally and 
nationally greatly affect the ability of community-based efforts to 
succeed. Increasingly, community-based organizations are realizing that 
they need to work across communities and regionally to affect economic 
development locally.
    For example, the Ecosystem Workforce Program, Sustainable 
Northwest, Wallowa Resources, and the Watershed Research and Training 
Center are collaborating on a regional economic development project 
focused on sustainable forest stewardship in a dry forest zone covering 
15 counties of eastern and southern Oregon and northern California. By 
strengthening community-based organizations and regional networks, the 
project will develop a model to increase the viability of sustainable 
forest stewardship in which rural communities participate and prosper. 
Our strategy involves: (1) creating multiple value streams supporting 
sustainable forest stewardship; (2) developing integrated biomass 
utilization and renewable energy; (3) building community and business 
capacity to achieve forest and economic resilience; (4) creating the 
policy conditions to support sustainable forest stewardship on public 
and private lands; and (5) documenting and communicating lessons in the 
zone, regionally, and nationally. \6\ Grants from the U.S. Endowment 
for Forestry and Communities, the USDA Rural Development, and several 
other sources are funding this project.
5.  Challenges limiting public land communities' participation in and 
        benefit from the conservation of public lands
    This model of integrated land management and economic development--
collaborative land management planning and implementation, robust 
community-based organizations and networks, healthy adaptable 
contracting and wood/biomass processing businesses--is showing promise 
across the West. But, this model faces considerable policy challenges. 
For example:
        <bullet>  Collaborative agreement about how and where to 
        conduct forest and watershed restoration exceeds the financial 
        and organizational capacity to plan and implement projects 
        within the land management agencies, private sector, and 
        nonprofit organizations involved in this work.
        <bullet>  Local entrepreneurs seeking to develop businesses 
        that use biomass for wood products and energy production face a 
        number of barriers including lack of access to capital, 
        concerns about biomass supply, viable local ownership models, 
        and need for risk sharing. \7\
        <bullet>  High-speed Internet connections have become a de 
        facto requirement of contracting with the federal government. 
        However, many rural businesses in the West that wish to work 
        with the government are hampered by lack of broadband.
        <bullet>  Although the Forest Service's Washington Office and 
        Region 6 Office have provided direction and training for front 
        line personnel to collaborate, and we are seeing increased 
        front line commitment to collaboration, there remain 
        institutional structures--particularly systems of budget 
        formulation and allocation and performance measures--that can 
        create strong disincentives to collaborate. \8\
        <bullet>  Federal land management agencies and economic 
        development agencies do not work together consistently. Through 
        the Northwest Economic Adjustment Initiative, the Pacific 
        Northwest developed successful models of sophisticated 
        collaboration among state and federal economic development and 
        natural resource agencies. Unfortunately, these networks have 
        weakened over time due to sustained downsizing and 
        reorganization and a lack of focus.
        <bullet>  Quality jobs continue to be allusive for many workers 
        performing labor-intensive forest work, and the markets for 
        manual thinning are highly competitive.
6.  Recommendations
        A.  Reauthorize stewardship contracting to allow for continued 
        use of one of the most effective tools available to the Forest 
        Service and BLM for undertaking forest restoration, encouraging 
        business innovation, and creating local benefit.
        B.  Support community-based organizations and collaboration in 
        public lands communities by creating a grant program 
        administered by the national forest system to allow national 
        forests and community partners to foster community, business, 
        and land management agency capacity to collaboratively work to 
        integrate climate change adaptation, public lands restoration, 
        and rural community development.
        C.  Develop Forest Service budget structures that meet today's 
        challenges by allowing for integrated management of national 
        forest system lands. The President's proposed Integrated 
        Restoration and Resource line item moves in the right 
        direction.
        D.  Develop strategies for performance evaluation that reflect 
        the complexity of federal land management and the 
        interconnected goals of ecological health and community well 
        being. Over the past several years, the Forest Service has 
        revamped their performance evaluation system, particularly 
        associated with fire and fuels management. Their performance 
        measures are more sophisticated and their data collection 
        systems are more fully developed. Yet, this target-driven 
        system of performance measurement fails to capture the 
        complexity of the problems facing the agency and fails to 
        credit the agency when they develop and implement innovative 
        solutions to those problems. Moreover, the system, while better 
        at measuring biophysical outputs and outcomes, still lacks 
        measure of socioeconomic outcomes. The recent tracking system 
        created to monitor ARRA jobs and economic impact outcomes could 
        be part of a strategy to incorporate socioeconomic measures 
        into the current accountability system.
        E.  Focus on job quality as a central component of green 
        economic development. We need to focus attention on equal 
        access to worker protection across all types and classes of 
        workers in order to create quality jobs for workers and a level 
        playing field for businesses contractors. This will require 
        sustained attention on the part of Congress, the Federal 
        government, and worker organizations.
Endnotes:
\1\ Max Nielsen-Pincus and Cassandra Moseley, Economic and Employment 
        Impacts of Forest and Watershed Restoration in Oregon, EWP 
        working paper # 24, Ecosystem Workforce Program, University of 
        Oregon. Available at, http://ewp.uoregon.edu/downloads/
        WP24.pdf<P>
\2\ Autumn Ellison, Fraser Macdonald, Max Nielsen-Pincus, and Cassandra 
        Moseley, The Business of Restoration: A Profile of Restoration 
        Contractors in Oregon, EWP working paper # 23, Ecosystem 
        Workforce Program, University of Oregon. Available at, http://
        ewp.uoregon.edu/downloads/WP23.pdf<P>
\3\ Becker, Dennis, and Joel Viers. ``Matching the Utilization of 
        Forest Fuel Reduction by-Product to Community Development 
        Opportunities.'' In People, Fire, Forests, edited by Terry 
        Daniels, Matthew Carroll, Cassandra Moseley and Carol Reich. 
        Corvallis, OR: OSU Press, 2007.<P>
\4\ Max Nielsen-Pincus, Josef Gordon, and Cassandra Moseley, Monitoring 
        the American Reinvestment and Recovery Act in the 11 Western 
        States, EWP briefing paper #24, Ecosystem Workforce Program, 
        University of Oregon, 2010. Available at, http://
        ewp.uoregon.edu/downloads/BP_24.pdf<P>
\5\ Cassandra Moseley and Nancy Toth. ``Fire Hazard Reduction and 
        Economic Opportunity: How Are the Benefits of the National Fire 
        Plan Distributed?'' Society and Natural Resources 17, no. 8 
        (2004): 701-16.<P>
\6\ Emily Jane Davis, Cassandra Moseley, and Max Nielsen-Pincus, eds. 
        State of the Dry Forest Zone and Its Communities. Ecosystem 
        Workforce Program, University of Oregon, 2010. Available at, 
        http://ewp.uoregon.edu/downloads/DryForestZoneAssmt.pdf <P>
\7\ Dennis Becker, Sarah McCaffrey, Dalia Abbas, Kathleen E. Halvorsen, 
        Pamela Jakes, Cassandra Moseley, ``Conventional Wisdoms of 
        Woody Biomass Utilization on Federal Public Lands,'' Journal of 
        Forestry, forthcoming.<P>
\8\ For additional ideas how about to foster front line collaboration, 
        see Cassandra Moseley, Strategies for Supporting Front Line 
        Collaboration: Lessons from Stewardship Contracting. IBM Center 
        for the Business of Government, forthcoming.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, Doctor. Ms. Joyce 
Dearstyne, Executive Director, Framing Our Community, Elk City, 
Idaho. Welcome. I look forward to your testimony.

 STATEMENT OF JOYCE DEARSTYNE, EXECUTIVE DIRECTOR, FRAMING OUR 
                COMMUNITY, INC., ELK CITY, IDAHO

    Ms. Dearstyne. Good morning, Chairman Grijalva and 
Committee members. Good morning. Thank you for the opportunity 
to share our efforts in building community sustainability 
through restoration-based programs that grow value-added 
businesses. My name is Joyce Dearstyne, and I am the Executive 
Director of Framing Our Community, a nonprofit organization 
located in the Clearwater Mountains of north central Idaho.
    My county is larger than the State of Connecticut. It is 83 
percent Federally managed lands, and it depends on the natural 
resources that surround us for its economic base. Our strength 
lies in job creation in the woods and in the community. This is 
accomplished through an integrated program of work and 
delivered through our Jobs in the Woods and Small Business 
Incubator programs.
    The Jobs in the Woods program creates educational 
opportunities and full-time jobs in the field of forest and 
watershed restoration and hazardous fuels reduction. Agency 
professionals teach unemployed workers and college and high 
school students employable skills, enabling workers to provide 
cost-effective services like boundary marking, timber cruising, 
fitting, pruning, piling of woody biomass, and collection of 
water samples for land management agencies. In the process, we 
restore health to our national forest, create wildlife habitat, 
and reduce wildfire danger.
    As an example, our Sweeney Hill fuels reduction project 
reduces the risk of wildland fire danger to life, property, and 
the natural resources adjacent to our community. By removing 
insect- and disease-affected trees, we jumpstart the economy 
and employ and train local contractors and Youth Corps as they 
assist the agencies in meeting their land management goals. 
Stewardship contracts allow for these treatments, while 
partnership and assistance agreements allow for the agency 
staff to train willing workers.
    The logs and slash that result from this project were sent 
to our small business incubator for the production of wholesale 
and retail products, and provide logs to the remaining lumber 
mill in our county, while low-grade materials are used to heat 
the incubator facility in our new dry kiln. Our business 
incubator provides necessary infrastructure for the startup and 
growth of businesses that utilize small diameter standing dead 
and other timber in the manufacture of quality products, 
creating local jobs and diversifying our economic base.
    Providing this infrastructure is also critical to reducing 
high fuel loads and removing woody biomass from our national 
forest at affordable rates. To increase the success, the 
program builds capacity through business development and 
management courses, access to micro loan programs, and 
marketing of products.
    My region has been embroiled in conflict and gridlock, to 
the point of a zero cut and loss of industry capacity. That 
just doesn't work. We believe that solution-oriented 
collaboration is the way to reduce the conflict and the 
litigation that has adversely impacted the health and vitality 
of our forest and our communities. As a member of the 
Clearwater Basin Collaborative, I have seen lines of 
communication open among diverse stakeholders, from local 
community, environmental, and recreational organizations to 
county, agency, and tribal governments. Identification of 
common ground, mutual respect, and concern for the forest we 
all love has joined us in an effort to improve forest health 
and our rural economy.
    I would like to highlight two promising initiatives. The 
first is the Great American Outdoors Initiative, which will 
help us prepare the next generation of Forest Service, BLM, and 
National Park employees by engaging and training rural youth 
during summer employment. Our Youth Corps works in the forest 
on fuels reduction, as well as assist disabled and senior 
citizens to create defensible space around their homes, 
maintains recreational trails, and improves aquatic and 
wildlife habitat.
    The Forest Landscape Restoration Act is broadly supported 
by a wide array of interests that in the past rarely agreed on 
forest issues. It allows for landscape-scale treatments, 
provides consistent supply of raw materials necessary for 
private investment, and facilitates collaborative restoration. 
We are excited about the CFLR projects, and think that they 
will be a great tool to use in collaboratively restoring health 
to our forests and communities.
    I would like to leave you with a few thoughts. The way we 
manage our Federal lands directly affects the well-being of our 
rural communities, and when our forests are healthy, our 
communities are stronger. For us, there is a direct correlation 
between these degraded forests and poverty in our rural 
communities.
    We know this will take time, and its success depends on 
communities, land management agencies, environmentalists, 
industry, and others working together to find solutions and 
build these integrated programs. It will take Congress to 
provide the direction and authorities to conduct business in 
this new way, and to appropriate funds for agency budgets and 
allow those agencies to utilize existing programs like those in 
Titles II and III of the Healthy Forest Restoration Act.
    Framing Our Community and the organizations that you will 
hear today on the panel are ready to conduct restoration-based 
business, and are excited to be working on this with you today. 
Thank you.
    [The prepared statement of Ms. Dearstyne follows:]

           Statement of Joyce Dearstyne, Executive Director, 
                      Framing Our Community, Inc.

    Dear Chairman and Members of the Subcommittee:
    I am Joyce Dearstyne, Executive Director of Framing Our Community, 
a grass-roots community-based organization with eleven years of 
experience in regional collaboration, working in federal partnerships 
and creating jobs in my community. I appreciate the opportunity to 
testify on the potential of building rural prosperity in partnership 
with federal land management agencies and to share our hands-on 
experiences and perspectives regarding community involvement in 
restoration of our National Forests and on private lands. Framing Our 
Community (FOC), a nonprofit organization founded in 1999, is located 
in one of the largest counties--in size--in the lower forty eight 
states; 83% of our forest and rangeland is owned and managed by the 
Federal government. My town, Elk City, is surrounded by 12,000 acres 
managed by the Bureau of Land Management and 2.2 million acres of Nez 
Perce National Forest. Our community is, understandably, closely 
connected to these public lands and relies upon these resources not 
only for clean water, air and recreation, but also for jobs and is 
essential to our economic stability.
Framing Our Community -who we are and what we do:
    Eleven years ago, the residents of Elk City formed Framing Our 
Community (FOC) to identify the community's desired path away from 
being ``suppliers'' for a commodity-based economy to entrepreneurs 
creating products with a higher margin of profit and offering 
ecological services that diversify our economic base. Focusing on 
value-added product development and increasing access to wholesale and 
retail markets will eliminate the boom and bust cycles of the past.
    Our vision is to sustain a ``Healthy Forest and Healthy 
Community.'' Our mission is to provide integrated programs that create 
jobs, improve forest and watershed conditions and increase educational 
opportunities. We are dedicated to working collaboratively to find 
solutions and end conflict over the natural resources that affect the 
prosperity of our community and others who share our challenges.
    Our strengths are in job creation in the woods and in the 
community, improving forest and water conditions, as well as wildfire 
fuel reduction. We have succeeded by training 160 displaced workers and 
employing 158 workers in forest restoration and related skills so they 
can find work on federal land management projects. We employ these 
workers as part of FOC's field crew or contract their services to 
collect water samples and monitor the streams and rivers; conduct 
plant, wildlife and archeological surveys; thin overcrowded forest 
stands to remove diseased and insect infested trees and reduce fuel 
loads; and revegetate degraded sites with native seed plants. We have 
also partnered with landowners to perform work on private lands, 
further expanding the market for these services. We have reduced the 
risk for business start-ups through our business incubator program by 
providing manufacturing space, business development and management 
courses and marketing assistance. We have sought out technical 
assistance and partnerships to ensure our projects incorporate advanced 
engineering and can engage in the global market place. We have done all 
of this collaboratively working in tandem with land management 
agencies, regional nonprofits, environmentalists, recreationists and 
county government.
    Over the past decade we have invested more than $3,000,000 in 
ecosystem improvements, community infrastructure, and economic 
development in North Central Idaho. National Fire Plan, Economic Action 
program, state and private foundation funds have built business 
infrastructure at our Small Business Incubator/Business Park and 
capacity through consultants and agency expert staff who teach forest 
restoration and ecosystem management services. We foster the production 
and marketing of products that result from these activities, and 
provide business and natural resource education for community youth and 
adults. We have created a variety of jobs in our community, including 
hiring organizational staff, employing a field crew, sub-contracting to 
local contractors, and assisting with the creation of small businesses, 
who in turn hire local people. Our 2009 projects included forest 
stewardship, water quality monitoring, conducting ecological and 
archeological botany surveys and inventories, value-added wood 
production and sales by artisans through FOC's E-commerce website 
(www.framingourcommunity.org). In 2009, we created 84 seasonal and 
year-around jobs.
Five successful highlights from our projects and activities:
1. Natural Resource Education and FOC's Youth Corps
    FOC's natural resource education program focuses on the health and 
vitality of the surrounding rivers and streams with water monitoring 
and testing, replanting along waterways which are spawning and rearing 
streams for salmon, steelhead, and bull trout. Displaced timber workers 
collect water samples for the Nez Perce National Forest under a five 
year agreement, while our youth engagement component focuses on college 
and high school students learning how to collect native seeds and 
cuttings, returning them to watersheds the following year. These plants 
are propagated by local nurseries and replanted to reduce sediment, 
pathogens and stream temperatures, improving aquatic and terrestrial 
habitat. Funding sources are scant, but our 2010 youth Corps has a 
workforce of ten. Corps members also assist disabled and older 
community members create defensible space around their homes. They 
educate landowners by distributing FOC's 2009 national award winning 
video ``Are We Safe from Fire? Protecting Idaho's Communities.'' This 
video shows land and home owners how to protect families and property 
from wildfires.
2. The Elk City Business Incubator
    We needed to build the infrastructure to train workers and 
contractors with the skills and knowledge that will make them 
competitive for work on public lands and we recognized the new role 
that we as a community-based organization had in facilitating the 
development of a newly focused private sector. In public lands 
communities, the private sector is reticent to invest in equipment 
needed to harvest and process material not traditionally used in the 
wood products sector due to an inconsistent program of work on federal 
lands. Community organizations, like ours, have stepped up to share the 
risk, enter into public-private partnerships to prove out new 
technologies and share the responsibility of working with a Federal 
agency. The Business Incubator was developed through a community-driven 
process and resulted in the establishment of an integrated wood 
utilization facility. We have focused on adding as much value to the 
raw material as possible to ensure we can capture the highest market 
value and in turn offer a better package to the Forest Service, 
enabling them to restore more acres within the confines of their 
budget. We have also created an integrated woody biomass utilization 
facility where value-added manufacturing is co-located with a small-
scale energy facility. For example, using wood to create thermal energy 
- either in heat only or combined heat and power/biofuels applications 
- has more market value per unit energy than using it to generate 
electricity only. Creating this higher biomass value allows federal 
agencies and contractors to harvest and transport the material cost 
effectively and can reduce treatment costs per acre.
    Additionally our business incubator provides the infrastructure for 
the startup and growth of businesses that manufacture quality products 
from small diameter and dead trees and other natural resources from the 
forest. Tenant businesses utilize small diameter and standing dead 
timber in the manufacture of quality products, creating significant 
economic benefits through job creation. Providing infrastructure for 
the manufacturing of value-added products and full utilization of woody 
biomass is critical to removing high fuel loads from our forests at an 
affordable rate. We are able to provide the infrastructure, offer low 
cost tenant fees, assist entrepreneurs with connections to brokers and 
markets, accessing micro-loan programs, assistance to attend trade 
shows, the ability to conduct e-commerce and print professional grade 
marketing portfolios. This past Spring we began offering entrepreneurs 
an 18 session business start-up course. The course is providing 
training and education to start a business, conduct market research, 
handle daily operations and human resources, access funding sources and 
understand finance options, and create a business and marketing plan. 
Our first class will graduate in November 2010; our second session 
starting this winter is already half full.
    These endeavors improve the quality of life through economic 
development and the creation of year-around employment. Federal funding 
for this infrastructure has come from several programs within the USDA 
Forest Service including the National Fire Plan, Economic Action 
Programs, Woody Biomass Utilization, and State and Private Forestry 
Cooperative Partnership Program. A grant from USDA Rural Development 
enabled us to acquire a dry kiln to support the needs of our business 
tenants, preparing their products for interstate and international 
markets. But the bulk of the funds come from private foundation grants. 
The very successful Economic Action Program has not been funded in the 
past few years and no replacement program has emerged. Requests for 
manufacturing space from five new and growing businesses require a 
tripling of incubator space to accommodate production needs. This 
growth would increase local employment by approximately 15 percent. 
Since the closing of our timber mill in 2005, the incubator has helped 
our community reverse its out-migration and has seen the start of a 
restoration-based and value-added products economy, but without the 
continuation of a federal program similar to the Economic Action 
Program, success stories like this are likely to be rare.
3. Training in natural resource stewardship
    FOC's ``Jobs in the Woods'' program creates educational 
opportunities and full-time jobs in the fields of hazardous fuels 
reduction and forest and watershed restoration. Natural resource 
professionals, unemployed timber workers and college and high school 
students learn how to apply treatments that restore health to our 
national forest and create defensible space on private lands. Where 
possible, this is accomplished with the use of low impact equipment 
that creates the least amount of soil and vegetative disturbance and at 
a low cost per acre treated. FOC has used turn of the century skills, 
like dry stone masonry, to repair wilderness trails and improve 
wildlife and anadromous fish habitat.
4. Agreements and Stewardship contracts with the BLM and FS.
    FOC and the Bureau of Land Management and Forest Service have 
entered into several stewardship contracts to reduce the risk of 
wildland fire to life, property and natural resources in Elk City and 
the surrounding area. By removing insect and disease affected trees and 
addressing existing challenges through the creation or saving of jobs 
we are jumpstarting the economy. The 54 acre Sweeney Hill project 
created four logging, eight restoration, four trucking and ten youth 
corps jobs.
    FOC has entered into several ``Partnership and Assistance 
Agreements,'' based on the Manpower Act, through which agency experts 
have trained and hired local workers to conduct boundary marking, 
timber cruising, thinning, pruning, hand piling and replanting of 
native species. Since 2003, FOC has provided the BLM with trained and 
qualified people for field data collection for the biological, 
botanical and cultural resources programs. These are primarily recent 
college graduates who are building their resumes and gaining work 
experience.
    As an example, the South Fork Clearwater River Monitoring Project 
monitors water quality and aquatic habitat conditions along the 
mainstem of the South Fork Clearwater River. This monitoring plan 
addresses the sediment-related issues in the mainstem South Fork 
Clearwater River, regardless of the source of direction. Specific water 
column parameters sampled are suspended sediment, turbidity and bedload 
sediment, cobble embeddedness, particle size distribution, and pool 
depth. The fieldwork is conducted by two nonprofit organizations and 
lab work is conducted by the Elk City Water Laboratory; oversight and 
training has been done by federal and state agency personnel. Existing 
agreement authorities were used. This five-year project trained and 
employed 12 - 15 workers annually, monitoring of two additional rivers 
has created 9 months of employment.
5. Local and regional collaborative efforts
    Collaboration is a great tool for resolving natural resource 
management conflict. It can break the gridlock, controversy, and 
litigation that adversely impact the health and vitality of our 
national forests and communities. It brings diverse stakeholders 
together (community, environmental, recreation, county and tribal 
governments) to solve a common problem or achieve a common objective. 
As a member of the Clearwater Basin Collaborative, I have witnessed the 
opening of lines of communication and growth of respect, identification 
of common ground and concern for the forests we all love. We have 
already seen the benefit of collaboration when an appeal was withdraw 
on a project reviewed and visited by CBC members. Conflict and 
litigation are down, moving treatments forward and using agency dollars 
for management rather than legal fees. The Collaborative Forest 
Landscape Restoration Act is an excellent example of collaborative 
processes and funding of landscape scale projects designed by federal 
land management agencies and collaborative groups.
Challenges we still need to overcome:
    Despite our successes, North Central Idaho continues to face 
significant economic challenges; unemployment remains at 12.8%, county 
budgets are declining, and our county poverty rates are 18.9% with 
community rates at 23%. In a landscape predominately owned and managed 
by the federal government, we will need increased and sustained 
investment to retain and create new infrastructure that fits the 
restoration and stewardship work needed on our public lands. We need 
technical assistance and support to catalyze entrepreneurs and create 
conditions that will offer our young people a reason to return to the 
community and be part of our future. Key challenges include:
        <bullet>  Reduced agency staff and budget capacity impacts 
        small and micro businesses across Idaho. For example, the 
        combination of reduced and inconsistent funding (delays in 
        budget approval) and the shifting direction of federal agencies 
        have made it very difficult for the private sector to prepare 
        to serve the restoration economy.
        <bullet>  Lack of infrastructure for manufacturing that makes 
        use of traditionally low-value species feasible and 
        economically viable makes it hard for businesses to get 
        started.
        <bullet>  Being located in a high poverty, remote location that 
        is distant from transportation corridors makes accessing urban 
        markets challenging.
        <bullet>  Having both inconsistent offerings of restoration 
        work and unpredictable supplies of wood sources from the 
        surrounding public lands (from restoration projects or 
        traditional timber projects) creates an environment where it is 
        difficult to update, reestablish or create new businesses.
        <bullet>  Having a relatively small population density, it is 
        difficult to recruit and retain a skilled workforce when there 
        is no consistent program of work on federal lands.
        <bullet>  Given the uncertainty in federal land management and 
        the surrounding large federal ownership patterns it is very 
        difficult to raise private capital to support retooling of 
        existing businesses or entice new businesses to establish in 
        communities like ours.
        <bullet>  Federal contracting is inconsistent in providing a 
        level playing field for rural businesses to compete for 
        restoration contracts. Large contracts are written in the name 
        of efficiency, but limit the ability of small and micro-
        businesses to successfully compete. A greater emphasis on 
        quality of the work, rather than lowest bid is needed. Best 
        value contracting can help federal agencies ensure excellent 
        value for the federal government and American taxpayers.
Recommendations:
    I would like now to offer some recommendations on what can be done 
to overcome the challenges noted above, support the momentum of the 
successes we have had and promote opportunities through the U.S.D.A 
Forest Service and Rural Development, Department of Interior, and 
Congress to encourage job creation in the forest communities.
        1.  Support the next generation of rural conservation 
        leadership by supporting the President's Great American 
        Outdoors initiative. This could help to create the next 
        generation of Forest Service, Bureau of Land Management and 
        National Park Service employees by engaging and training rural 
        youth during summer employment.
        2.  Fully support and use existing programs to reach their 
        potential. Federal agencies should work together to invest and 
        provide grants, loans, and technical support to public land 
        community training programs; increasing access to capital for 
        low-impact or innovative equipment that can improve forest 
        management; and building appropriately scaled manufacturing and 
        energy facilities that can serve local markets and feed into 
        regional, national, and even global markets, if appropriate. 
        Existing programs such as the Forest Service Economic Action 
        Program, the Healthy Forest Restoration Act, Titles II and III, 
        and the Community Wood Energy Program (CWEP), should be fully 
        funded and utilized.
        3.  Level the playing field for rural businesses through 
        improved federal contracting. The agencies need to ensure that 
        work offered on public lands is awarded on a best value basis, 
        including criteria for local economic benefit. Awareness, 
        clarity, simplification and training on the full suite of 
        available existing contracting and new authorities should be 
        provided to the field. For example, Partnership and Assistance 
        Agreements are great tools for the agency to work with 
        nonprofits, providing for cost effective services, training and 
        local jobs.
        4.  Support Investment in Conservation-based Businesses. 
        Successful conservation-based businesses will require 
        investment-- both on the land management and manufacturing 
        sides--in new equipment, training and recruitment of new 
        employees, and partnerships with communities and agencies. We 
        also need to determine how the Small Business Administration 
        targets forest-based businesses and whether they offer their 
        services at the local level. The HUB Zone program seems to be 
        one SBA program that is proving itself useful in helping local 
        contractors win contracts.
        5.  Invest in Research and Technology Development. Creating a 
        restoration economy necessitates that the public and private 
        sectors develop new techniques and approaches to treat the land 
        and handle restoration by-products. The Department of Energy 
        needs to work with rural communities and help federal land 
        management agencies with scalable energy solutions. For 
        example, DOE's National Renewable Energy Lab needs to develop 
        small-scale pollution control devices for wood-fired systems. 
        The USDA Forest Service's Forest Products Lab in Madison, 
        Wisconsin has been an excellent resource and has worked with 
        rural communities and businesses. To ensure the success of the 
        Forest Products Lab, it is essential that Congress provide 
        adequate support and direction to enable its employees to work 
        with more communities and small businesses to:
                <bullet>  Test and develop value-added products
                <bullet>  Create and understand light touch management 
                techniques and equipment
                <bullet>  Understand the impacts of restoration 
                forestry.
        6.  Foster and provide incentives for development of 
        appropriately scaled energy facilities. By investing in the 
        building of small distributed power and synthetic fuel 
        facilities we can encourage long-term sustainability, in which 
        demand is less likely to exceed supply and will provide for 
        long-term employment and stability. Specifically, Congress 
        should:
                <bullet>  Improve and extend production tax credits for 
                new generation based on a minimum efficiency threshold 
                to encourage the best use of wood for energy
                <bullet>  Account for thermal energy in renewable 
                energy legislation such as qualifying the thermal 
                energy output of a small combined heat and power (CHP) 
                facility to fill a portion of any Renewable Electricity 
                Standards.
        7.  Continue and Increase Support for the Forest Landscape 
        Restoration Act. The Forest Landscape Restoration Act (FLRA) of 
        2009 facilitates collaborative restoration of priority forest 
        landscapes using the best-available science. The FLRA is 
        broadly supported by a wide array of interests that in the past 
        rarely agreed on forest issues. The forming of collaborative 
        processes like the Clearwater Basin Collaborative have opened 
        lines of communication and identified common ground among 
        industry, environmental and community organizations. Across the 
        nation, community stakeholders are anxious to begin the 
        important work that will restore forest landscapes, help to 
        revive local economies, and reduce wildfire suppression costs 
        and risks. FLRA will help reduce the risk of fire and costs 
        associated with fire management and it will stimulate local 
        economies through the creation of jobs. We hope that CFLRA 
        projects will be fully appropriated in the future ($40 million 
        vs. $10 million in 2010) and more widely applied.
        8.  Reauthorize the Secure Rural Schools legislation: Look at 
        reauthorization of the Secure Rural Schools Act with an eye 
        towards economic development in those communities in or 
        adjacent to National Forests. Title III Resource Advisory 
        Council dollars could be used to transition the economic base 
        of natural resource dependent communities. Currently these 
        funds are used solely on the national forests to augment Forest 
        Service budgets for wildlife studies, NEPA and other 
        Environmental Impact Studies.
Conclusions
    Thank you for the opportunity to share our experiences in building 
sustainability through a restoration-based program that fosters the 
growth of value-added businesses. While many of the issues I have 
raised relate to appropriations, I believe it is important that the 
Resources Committee advocate for these important programs in addition 
to providing the Forest Service with direction and authority to conduct 
its business. The main messages we would like to leave with you are:
        <bullet>  The way in which we care for the land directly 
        affects the well-being of rural communities.
        <bullet>  When our forests are healthy, our communities are 
        stronger. For us, there is a direct correlation between 
        degraded land and poverty in rural communities.
        <bullet>  We need to restructure the way we take care of the 
        land to create a healthy interdependence.
    This will take time and its success depends on communities, land 
management agencies, environmentalists, industry, and others working 
together to find solutions to building integrated programs and funding 
sources.
                                 ______
                                 
    Mr. Grijalva. Mr. Wes Curtis, Vice President for Government 
Relations and Regional Services, Southern Utah University, 
Cedar City, Utah. Welcome, sir. I look forward to your 
comments.

    STATEMENT OF WES CURTIS, VICE PRESIDENT FOR GOVERNMENT 
  RELATIONS AND REGIONAL SERVICES, SOUTHERN UTAH UNIVERSITY, 
                        CEDAR CITY, UTAH

    Mr. Curtis. Thank you, Mr. Chairman. My name is Wes Curtis. 
I am Vice President for Government Relations and Regional 
Services at Southern Utah University, and formerly a point 
person for two Utah Governors on rural affairs and public lands 
issues. And I appreciate this opportunity to talk to you about 
Southern Utah University's outdoor initiatives and partnerships 
as they relate to the public lands, job training, and the land 
management agencies in southern Utah.
    Having been actively involved in Utah public lands issues 
for over two decades, I have learned that public lands are 
viewed by many in rural Utah as both a blessing and a curse. I 
have also come to recognize that regardless of how one feels 
about the Federal lands and their management, their existence 
and the agencies that manage them are a reality that we live 
with. And within that reality, in addition to the challenges, 
there are also many opportunities to be cultivated and 
developed. At SUU, we are trying to make the most of these 
opportunities.
    Without our service region, we count three national parks, 
five national monuments, a national recreation area, numerous 
state parks, and millions of acres of BLM and Forest Service 
lands. Eighty to ninety percent of lands that surround us are 
public lands, and these lands influence our lifestyles, 
culture, and economy in many ways, both positive and negative, 
in ways subtle and overt.
    Southern Utah University's location in the midst of these 
world class landscapes is one of the primary things that sets 
us apart from other institutions of higher learning, and we 
feel compelled to make the most of this unique setting, both 
for the enhancement of student experience and for the benefit 
of our regional community and economy.
    At SUU, we are actively engaged in what we call our outdoor 
initiatives. These initiatives are directed at outdoor 
education, career training, and recreation opportunities for 
our students, working together in mutually beneficial 
partnerships with Federal and state agencies, providing 
assistance to local government in addressing public land 
issues, developing career path opportunities for students 
within Federal and state agencies, and within tourism and 
recreation industries.
    We are also viewed in our region as a resource through the 
Federal land management agencies, providing them with research 
projects, artistic and scientific resources, and as a provider 
of numerous student interns to meet their staffing needs. We 
are currently working to bring all of these initiatives 
together under the umbrella of a Southern Utah University 
Outdoor Center, and have an appropriation request through 
Congressman Jim Matheson and Senator Robert Bennett to help us 
launch this center.
    And with the focus of this Subcommittee on jobs related to 
the public lands, I want to talk about some of our career path 
training opportunities. These include, number one, a bachelor's 
degree in hotel, resort, and hospitality management, and also a 
bachelor's degree in outdoor recreation and parks and tourism. 
The hotel, resort, and hospitality management degree gives 
students skills in the hospitality management industry, and 
they take jobs with hotels, resorts, food service operations, 
convention centers, and even in transportation.
    The outdoor recreation degree has three distinct areas of 
emphasis, which allows students to specialize their focus 
depending on whether they want to pursue careers in public 
lands management, outdoor education, or tourism. In only its 
fourth year of existence, this program has already placed 
students in full-time jobs within the National Park Service, 
the Bureau of Land Management, the U.S. Forest Service, with 
private sector companies, and with state parks in two different 
states. And it is interesting to note that almost every one of 
these job placements through the outdoor recreation degree 
program has been the result of a student participating in an 
internship with the hiring agency.
    Southern Utah University has emerged as a national model in 
the placement of student interns with Federal and state land 
management agencies. This is done through our inter-
governmental internship cooperative, whose mission includes the 
development of public lands leaders for tomorrow. With grant 
funds through the National Park Service, including a shared 
National Park staff position, and in partnering with the Forest 
Service and BLM, we have placed dozens of students in paid 
internship positions, including such things as accounting, 
public affairs, visitor services, interpretation, forest 
management, and fuels reduction.
    In fact, as we speak, over 90 students are benefitting from 
these full-time internship opportunities, including a National 
Park Service Service Corps crew. And as a spinoff of this, we 
now host a public lands employment day, a career fair that 
spotlights the numerous land management agencies, and helps 
students learn about the application process and how to apply 
for employment.
    With that overview, I would direct your attention to my 
testimony, which highlights many of our other outdoor 
initiative projects and partnerships. And from that, I hope you 
will see that the scope of SUU's outdoor programs and 
initiatives is very much more than just jobs training. It is a 
reflection of the impact that the public lands have on our 
lives in this region of the West.
    Thank you, Mr. Chairman, for this opportunity, and I look 
forward to your questions.
    [The prepared statement of Mr. Curtis follows:]

 Statement of Wes Curtis, Vice President for Government Relations and 
              Regional Services, Southern Utah University

    Mr. Chairman, Ranking Member, and members of the Sub-committee, my 
name is Wes Curtis. I am the Vice President for Government Relations 
and Regional Services at Southern Utah University, and formerly a point 
person for two Utah Governors on rural affairs and public lands issues. 
I appreciate this opportunity to talk to you about Southern Utah 
University's outdoor initiatives and partnerships as they relate to the 
public lands, career training, and the land management agencies in 
southern Utah.
    Having been actively involved with Utah public lands issues for 
over two decades, I have learned that the public lands are viewed by 
many in Utah as both a blessing and a curse. The controversies and 
contentions surrounding the management of these lands are almost as 
expansive as the lands themselves. I have also come to recognize that 
regardless of how one feels about the federal lands and their 
management, their existence, and the agencies that manage them, are a 
reality that we live with, and within that reality, in addition to the 
challenges, there are also many opportunities to be cultivated and 
developed. At SUU we are trying to make the most of these 
opportunities.
    Within the sphere of the Southern Utah University service area, we 
count three national parks (Zion, Bryce Canyon, and Capitol Reef), five 
national monuments (Cedar Breaks, Pipe Springs, Grand Staircase-
Escalante, Grand Canyon Parshonts, Vermillion Cliffs), a National 
Recreation Area (Glen Canyon), numerous state parks, as well as 
millions of acres of BLM and Forest Service lands. Eighty to ninety 
percent of the lands that surround us are public lands, and these lands 
influence our lifestyles, culture, and economy in many ways--in 
positive ways and negative ways, in subtle ways and overt ways.
    Southern Utah University's location in the midst of these world-
class landscapes and natural resources is one of the primary things 
that sets SUU apart from other institutions of higher learning, and we 
feel compelled to make the most of this unique setting, both for the 
enhancement of the student experience and for the benefit of the 
regional community and economy.
    At Southern Utah University, we are actively engaged in what we 
call our Outdoor Initiatives. These initiatives are directed at 
providing outdoor education, career training, and recreation 
opportunities for our students; working together in mutually beneficial 
partnerships with federal and state agencies; providing assistance to 
local government in addressing public lands issues and opportunities; 
and developing career path opportunities for students within federal 
and state agencies and within the tourism and recreation industries.
    Within our region we are recognized and serve as a resource to the 
land management agencies, providing them with research projects, 
artistic and scientific resources, a liaison to local communities, and 
a provider of numerous student interns to meet their staffing needs. We 
are also about to launch a Demonstration Forest Project on SUU's 2,200 
acre mountain ranch property, to serve as a living laboratory and model 
for best practices in such things as forest health, fuels reduction, 
and range management.
    We are currently working to bring all of these various initiatives 
together under the umbrella of a Southern Utah University Outdoor 
Center, and have an appropriation request through Congressman Jim 
Matheson and Senator Robert Bennett to help launch this Center.
    With that overview, I would like to highlight some of our numerous 
outdoor initiative projects and partnerships. Hopefully, you will see 
that the scope of SUU's outdoor programs and initiatives is very much 
more than just job training. It is a reflection of the impact that the 
public lands have on our lives in this region of the West:
    First and foremost, Southern Utah University is a student-focused 
institution of higher education. With an enrollment of 7,500 students, 
we have a distinct niche within the Utah System of Higher Education. 
SUU is dedicated to giving students a private school type experience--
with personalized instruction, small classes, highly qualified faculty, 
and experience based learning--within the public institution structure 
of Utah's higher education system.
    Constantly cognizant of the grandeur of its setting, SUU has 
developed numerous academic and regional service programs that connect 
the university community to the surrounding lands and the economic, 
cultural, artistic and scientific opportunities they provide.
Bachelors Degrees
    SUU offers two bachelor's degrees that have very direct connections 
to the tourism and outdoor recreation sectors of the state's economy. 
These are 1) a Bachelor Degree in Hotel, Resort, and Hospitality 
Management, and 2) a Bachelor's Degree in Outdoor Recreation in Parks 
and Tourism.
    The Hotel, Resort and Hospitality Management degree gives students 
the skills and training for successful careers in hospitality 
management in such areas as lodging, retail, restaurants and 
recreational activities. These students take jobs with hotels, resorts, 
food service operations, convention centers and even transportation.
    These students have also been involved in developing customer 
service strategies for large destination resorts, such as Ruby's Inn at 
Bryce Canyon National Park, and conducting extensive visitor profile 
research for the Utah Office of Travel and Tourism.
    The Outdoor Recreation degree has three distinct areas of emphasis 
which allow students to specialize their educational focus, depending 
on whether they want to pursue career opportunities in public lands 
management, outdoor education, or tourism.
    In only its fourth year of existence, this program has already 
placed students in full-time jobs within the National Park Service, the 
Bureau of Land Management, the U.S. Forest Service, with private sector 
companies, and with state parks in two states.
Internships--The Intergovernmental Internship Cooperative
    Almost every one of the job placements through the Outdoor 
Recreation degree program as been the direct result of the student 
participating in an internship with the hiring agency. Southern Utah 
University has emerged as a national leader and model in the placement 
of student interns with federal and state land management agencies. 
This is done through the Intergovernmental Internship Cooperative 
(IIC), whose mission includes the development of the public lands 
leaders of tomorrow by providing students interested in agency careers 
with internships and other service and learning opportunities.
    With grant funds through the National Park Service--including a 
shared NPS/SUU staff position--and through working partnerships with 
the BLM, U.S. Forest Service, and Utah Department of Natural Resources, 
the Intergovernmental Internship Cooperative has placed dozens of 
students in paid internship positions within the partnering agencies. 
These internships include on-the-job experiences in such things as 
accounting, public affairs, visitor services, interpretation, forest 
management and fuels reduction projects. Many of these are specific 
career path placements. This summer, over 90 students are benefitting 
from these full-time internship opportunities--including an NPS Service 
Corp crew.
IIC's Public Lands Employment Day
    In cooperation with SUU's state and federal land management agency 
partners, IIC now hosts an annual ``Public Lands Employment Day'' 
career fair at SUU. While career fairs are the norm on college 
campuses, our Public Lands Employment Day spotlights the numerous land 
management agencies across our region and provides SUU students with 
the opportunity to learn about and begin the application process for 
agency employment, particularly in advance of the summer hiring season. 
Workshops on how to apply for federal jobs, along with other student 
training sessions provided by agency staff, are also part of this 
highly successful career fair.
Experiential Learning and Outdoor Engagement
    Over the past year there has been much interest and excitement 
generated at Southern Utah University through the development of a new 
Academic Roadmap, under the direction of Provost Brad Cook. Central to 
this strategic academic direction is the soon-to-be-added experiential 
learning requirement for graduation. This will require that students 
participate in specific real-world learning opportunities as part of 
their SUU experience, and complete a capstone project through one of 
five Centers for Student Engagement.
    In recognition of the importance of the public lands in this 
region, one of these five centers will be the Center for Outdoor 
Engagement. (Other Centers include Leadership, Civic Engagement, 
International Studies, and Creativity and Innovation.)
    In addition to the broadened student experience opportunities that 
will be created through the Outdoor Engagement Center, SUU is also 
working with Bryce Canyon National Park to create a Semester in the 
Parks, giving students the rare opportunity to live and learn in a 
national park, with the park as their classroom. In fact, we already 
jokingly refer to Bryce Canyon National Park as our ``eastern campus.''
Alliance for Education Agreements with the National Parks
    The genesis of many of the projects and partnerships of the SUU 
Outdoor Initiative can be found in the formal Alliance for Education 
agreements executed between SUU and Bryce Canyon National Park and with 
the Zion Group, consisting of Zion National Park, Cedar Breaks National 
Monument, and Pipe Springs National Monument.
    These respective agreements establish a formal cooperative and 
mutually beneficial working relationship between SUU and the region's 
national parks and monuments. These partnerships provide a world-class 
education and research venue for SUU students and faculty. In return, 
the signatory National Parks and monuments get access to the resources 
and expertise of the University.
    As an example of how this agreement furthers the missions of all 
the entities involved, SUU staff participated on the 2009 Zion 
Centennial Planning Committee, and SUU faculty, staff, and students 
planned and participated in numerous activities as part of the 2009 
Zion Centennial Celebration.
Grand Staircase Escalante National Monument (GSENM) Memorandum of 
        Understanding
    Patterned after the University's successful Alliance for Education 
agreements with Bryce Canyon and Zion National Parks, the objectives of 
this Memorandum Of Understanding between SUU and Grand Staircase-
Escalante NM are to establish a general framework of cooperation upon 
which mutually beneficial science, research, and education programs; 
service projects; training seminars; internships; and curriculum 
development opportunities and other activities may be planned and 
accomplished in such a ways as to complement the missions of the BLM, 
GSENM, and SUU, and in the best interest of the public. Since its 
signature in 2009, numerous activities have occurred at the Monument 
that benefit students, faculty, staff, monument employees and 
surrounding communities and their residents.
    It is our contention that these unique agreements--the Alliances 
for Education and the GSENM MOU--positively enhance the University's 
relationship with our agency partners while formalize our commitment to 
providing service to the parks and monuments as well as the surrounding 
communities. In return, SUU students gain an undeniable competitive 
advantage in their post-education, professional endeavors.
The SUU Mountain Ranch and Demonstration Forest
    Southern Utah University is fortunate to own 2,200 acres of 
mountain forest lands in Cedar Canyon, 12 miles east of the main 
campus, and near Cedar Breaks National Monument and the Ashdown Gorge 
Wilderness Area.
    A resource management plan for the property has been developed over 
the past two years focusing on wise management of the property's 
forest, recreation, range, and grazing resources as well as its 
research and educational potential.
    Through SUU's planning leadership, we have reached out to adjacent 
landowners--including the U.S. Forest Service--to complete a Community 
Wildfire Protection Plan. As a result of this wildfire protection 
planning effort, American Recovery and Reinvestment Act funds are being 
used this summer to implement the objectives of this plan using SUU 
student labor.
    One of the outcomes of this planning process is a partnership 
between Southern Utah University and the Utah Division of Forestry, 
Fire, and State Lands to create a one-of-a-kind ``demonstration 
forest.'' Utilizing the expertise of the State of Utah, along with 
participation from other universities, sections of this property will 
be managed as living models of forest health and range management best 
practices. Forest Service and private property owners alike will be 
able to view and understand state-of-the-art management techniques, and 
monitor them over time.
Colorado Plateau Cooperative Ecosystem Studies Unit (CESU)
    SUU joins 25 non-federal partners along with seven federal natural 
resource management agencies to form the Colorado Plateau Cooperative 
Ecosystem Studies Unit (CPCESU).
    The CPCESU creates opportunities for research, education and 
technical assistance to support stewardship of natural and cultural 
resources by federal agencies on the Colorado Plateau. The CPCESU 
ensures that the expertise of academic and non-governmental partners is 
made available to assist federal resource managers in accomplishing 
their agency missions. SUU students, faculty and staff from across 
campus have benefitted from this positive relationship, and SUU is 
recognized as one of the most active CESU members with nearly 20 
contracts and agreements in place with agency partners in just the past 
four years. These agreements take advantage of SUU faculty and staff, 
and provide students with real-world experiences, to meet the research, 
work and service needs of the land management agencies.
Intergovernmental Coordination--The Southwest Utah Planning Authorities 
        Council
    With the belief that communication and coordination between various 
levels of government can lead to improved cooperation and better 
solutions to issues facing southern Utah, Southern Utah University 
hosts and chairs bi-monthly field trips and meetings during which 
federal and state agency directors meet with local government officials 
from throughout the region under the auspices of the Southwest Utah 
Planning Authorities Council (SUPAC).
    SUPAC was established in 1994 by then-Governor Michael O. Leavitt 
to serve as a non-binding forum for discussion of issues, grievances, 
misunderstandings, and disputes among the participants, and to serve as 
a clearinghouse for the exchange of information relative to the 
planning processes and activities of the participants.
    Over the years, this forum has proved to be very beneficial in 
improving intergovernmental relationships and establishing comfortable 
lines of communication between public land managers and state and local 
government leaders.
County Resource Management Planning
    Southern Utah University is working with three counties within the 
region to develop County Resource Management Plans for the public lands 
within these counties. This is a nationally significant effort to 
collaboratively and pro-actively address planning and management issues 
from the local level, utilizing a planning model developed by SUU 
personnel.
    This planning model mirrors in many ways the BLM's Resource 
Management Planning process, but it is driven by local government and 
by local perspectives on the impacts and management of public lands 
resources. It is important to note that these county planning processes 
are not done in a vacuum, but are done in collaboration with the land 
management agencies.
The Utah Prairie Dog Recovery Implementation Program
    The Utah Prairie Dog--protected as a threatened species under the 
Endangered Species Act since 1973--has long been a vexing issue for 
land owners and developers in parts of Southern Utah. Southern Utah 
University is playing a leading role in bringing together over 20 
federal, state, and local partners as part of the Utah Prairie Dog 
Recovery Implementation Program (UPDRIP). The UPDRIP partners have two 
primary goals: The first is to recover the Utah prairie dog so that it 
no longer requires protection under the Endangered Species Act; the 
second is to allow landowners to develop lands historically inhabited 
by the prairie dog.
    SUU houses and provides administrative support to the Director of 
UPDRIP within the College of Science. This proximity to the science 
faculty provides the director with convenient access to academic and 
scientific expertise to assist in developing and implementing a 
recovery plan for the prairie dogs.
Zion National Park Artist in Residence
    The re-emerging Zion National Park Artist in Residence initiative 
is a new and exciting partnership between SUU's College of Performing 
and Visual Arts' Arts Administration Program, Braithwaite Fine Arts 
Gallery, graduate students in the Master of Fine Arts Program, and Zion 
National Park. Through the program development and arts expertise of 
these SUU entities, Zion has been able to re-establish this defunct 
program and artists from around the world have applied to be selected 
as an artist in residence. The new and improved Zion NP Artist in 
Residence Program hosted its first artist in early 2010 at the Park's 
recently restored Grotto House.
Partners in the Parks
    Southern Utah University manages the Partners in the Parks program 
for the National Collegiate Honors Council. This program is currently 
recognized by the National Park Service as a 2016 NPS Centennial 
Initiative Project. This program gives honors students from across the 
nation the opportunity to have week-long academic and learning 
experiences within the National Parks.
The Utah Rural Summit
    For the past 23 years, Southern Utah University has hosted the 
annual Utah Rural Summit. This Summit began as a forum for discussing 
public lands issues, and has since evolved to include economic and 
community development components as well. At the core of each Summit 
gathering is a public lands track, in which local and state leaders 
from across the state have the opportunity to engage in discussion with 
key leaders and experts on public lands matters from throughout the 
West.
Zion National Park/Danxiashan World Geopark Sister Park
    SUU's Office of Government Relations and Regional Services has been 
an active partner with Zion National Park in the development of a 
``sister park'' relationship with Danxiashan World Geopark in Guangdong 
Province, P.R. China. Higher education is a key component of this 
relationship, which includes Sun Yat-sen University and SUU. Visits to 
both parks and universities occurred in late 2009 and early 2010 by 
delegations from each country.
Youth Science and Outdoor Education Director at SUU
    This position at SUU was created in early 2010. Along with 
oversight of the Cedar Mountain Science Camp program and the 
University's new Voyager Science Lab, positive success is also being 
achieved by working with local school districts and public lands agency 
partners to develop new programs such as the U.S. Forest Service's More 
Kids in the Woods program, National Park Service's First Bloom program, 
and numerous other agency-desired partnership projects. In fact, 
assisting local public lands offices develop these agency-funded 
programs is a priority for this position. Local agency offices 
typically do not have the capacity to develop and/or manage these 
programs that can greatly benefit the community.
Zion National Park/Danxiashan World Geopark Sister Park
    SUU's Office of Government Relations and Regional Services has been 
an active partner with Zion National Park in the development of a 
``sister park'' relationship with Danxiashan World Geopark in Guangdong 
Province, P.R. China. Higher education is a key component of this 
relationship, which includes Sun Yat-sen University and SUU. Visits to 
both parks and universities occurred in late 2009 and early 2010 by 
delegations from each country.
SUU Outdoors
    Founded in Spring 2003, SUU Outdoors is home to the publicly 
accessible Outdoor Center, which offers a wide variety of year-round 
trips, equipment rentals and training, and other outdoor resources and 
expertise. The Outdoor Center also manages the on-campus low ropes 
challenge course and the popular new indoor climbing wall. Other 
special events are scheduled throughout the school year such as gear 
swaps and the annual Warren Miller ski film. SUU Outdoors maintains 
many formal partnerships and affiliations including local organizations 
such as the Color Country Cycle Club, Cedar Mountain Nordic Ski Club, 
and the Southern Utah Climbers Coalition.
Conclusion
    In conclusion, it is evident that Southern Utah University plays a 
vital role as a partner and resource in public lands matters, bringing 
personnel, knowledge, talent and leadership to the table. SUU is fully 
engaged with the federal land management agencies, and with state and 
local government, in maximizing the opportunities for students, 
faculty, communities, and the regional economy that flow from our 
proximity to the vast and beautiful national parks and public lands 
that surround us.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. Mr. Bebo Lee, New Mexico 
Federal Lands Council, New Mexico Cattle Growers' Association, 
Alamogordo, New Mexico. Welcome, sir. I look forward to your 
comments.

 STATEMENT OF BEBO LEE, NEW MEXICO FEDERAL LANDS COUNCIL, NEW 
   MEXICO CATTLE GROWERS' ASSOCIATION, ALAMOGORDO, NEW MEXICO

    Mr. Lee. Thank you, Mr. Chairman and members of the 
Subcommittee. My name is Bebo Lee. I live in southeastern New 
Mexico, and I am here before you today representing myself, the 
New Mexico Federal Lands Council, and the New Mexico Cattle 
Growers' Association. I thank you for the opportunity to 
testify before you on some concerns that have been raised by 
the people that live on Otero Mesa and by the Otero County 
Commission itself about the possibility of a national monument 
designation on Otero Mesa.
    The lack of involvement of the local government and 
residents in the whole process has the potential of eliminating 
jobs rather than creating them. Grazing of livestock has 
occurred on Otero Mesa for over 100 years. The longevity of 
these businesses show the economical viability of the 
management practices. There are numerous families that have 
been grazing continuously on Otero Mesa at least 30 years prior 
to New Mexico becoming a state in 1912. They are proponents of 
multiple use, not limited use.
    When word first came out about the possible designation of 
the national monument, the agricultural community again had 
concerns about their livelihood and their investments. We all 
wondered what happened to an open and transparent government. A 
number of these individuals have been there through the 
creation of the National Forest condemnation of lands by the 
Holloman Air Force Base, the eviction of ranchers and 
condemnation of lands at White Sands Missile Range, the 
establishment and the eviction of ranchers of MacGregor Range, 
the elimination of all private holdings, and the establishment 
of the White Sands National Monument, which they were never 
compensated for, and the continued expansion of Fort Bliss 
Military Range. And they believe they were on the receiving end 
again possibly.
    As was experienced in past actions, there has been no 
official notice of a possible monument designation given or an 
explanation why a designation is possibly needed. It has been 
rumored it is to stop further oil and gas drilling, which 
probably makes sense because the environmental communities have 
cornered the ranching industry since a producing well was 
completed on Otero Mesa. But they have not gained any inroads, 
probably because of the natural trust.
    Several groups have proposed to make Otero Mesa a natural 
conservation area or wilderness, and have published 
considerable literature about Otero Mesa and the need to 
protect it. Most of these do not tell the whole story. Otero 
Mesa has been portrayed as 1.2 million acres of Federal domain. 
As you can see by a map provided, which is under Attachment A--
I believe it is up over here on the left of me--there is New 
Mexico State Trust land and private property intermingled with 
Federal land. It would be difficult to get 1.2 million acres, 
even including all the state trust land and private property.
    You may also notice there are a number of allottees who 
live on Otero Mesa and the surrounding areas, which are not 
geographically considered Otero Mesa. Was the New Mexico State 
Land Office or the private landowners notified about the 
possible designation? Shouldn't they be, as it will directly 
affect them if the state trust lands are traded out because of 
a monument designation? In the past, the New Mexico state land 
traded out their lands that were located within what is now 
MacGregor Range and Holloman Air Force Base. If the land is not 
swapped out, it would be landlocked and unable to generate 
income from wind or solar activities, leading of hunting 
rights, and the proposed wind and water projects, Attachment B, 
could be affected.
    In turn, the improvements agriculture had made on state 
lands by the lessees would be under increased scrutiny from the 
BLM, Bureau of Land Management, subject to new rules and 
regulations and possible abandonment because they may not fit 
into the monument's position. For that reason, the local 
residents should know upfront about this and be involved in the 
whole process. The thought is, if a monument is designated, 
that eventually the special rules, permits, or not meeting the 
goals of the mission, livestock would be removed permanently, 
as is the case in some national monuments. If a monument is 
created, it would not allow for an economic way to maintain, 
repair, or make new improvements, and then cattle would be 
sold, which would incur a loss of jobs and a tax base for Otero 
County.
    In a county with a limited tax base already because of 
Holloman Air Force Base, MacGregor Range, White Sands Missile 
Range, and the Mescalero Indian Reservation, what would the 
Federal Government do to compensate Otero County's tax base 
with? Tourism? A study from the range improvement task force at 
the New Mexico State University suggests that tourism would not 
generate that much income, which is under Attachment C. The 
study shows agriculture returns two dollars for every one 
dollar that is spent in the local community.
    These are some of the items that were discussed before the 
Otero County Commission passed ordinance 10-05, Attachment D, 
so that possibly the administrative and Federal agencies would 
coordinate with the county before any process starts and 
throughout an entire process if a designation is made. One of 
the questions that has arisen is why the Administration trying 
to protect Otero Mesa from or for. When the environmental 
groups first came to Otero Mesa, they started promoting to 
protect the area. They said it was as pristine as the savannahs 
of Africa. At the time, Otero Mesa was in the fourth year of an 
eight-year drought. If they truly believed this, would it not 
mean that the ranchers and the BLM had been good stewards of 
the land for over 100 years?
    As I prepared to come before you today, I inquired about 
the total number of power lines and meters that would fall 
under the designation--yes, sir. Oh, I am sorry. Yes, sir. That 
is all I have.
    [The prepared statement of Mr. Lee follows:]

         Statement of Don L. (Bebo) Lee, Alamogordo, New Mexico

    Mr. Chairman and Members of the Committee:
    My name is Bebo Lee and I live in southeastern New Mexico. I am 
here before you today representing myself, the New Mexico Public Lands 
Council and the New Mexico Cattle Growers' Association. Thank you for 
the opportunity to testify before you on some concerns that have arisen 
by the people that live on Otero Mesa and the Otero County Commission 
itself about the possible National Monument on Otero Mesa, the lack of 
involvement of the local government and residents in the whole process 
as well as the potential for eliminating jobs rather than creating 
them.
    Grazing of livestock has occurred on Otero Mesa for over 100 years. 
The longevity of these businesses shows the economical viability of 
their management practices. There are numerous families that have been 
grazing continuously on Otero Mesa at least 30 years prior to New 
Mexico becoming a state (1912). They are proponents of multiuse of the 
BLM lands, not limited use.
    When word first came out about the possibility of a National 
Monument designation the agricultural community again had concerns 
(immediately) about their livelihood and investments. We all wonder 
what happened to having an open and transparent government. A number of 
these individuals, having been through the creation of the national 
forest, condemnation of the lands for Holloman Air Force Base, the 
eviction of ranchers and condemnation of lands on White Sands Missile 
Range, the establishment and eviction of ranchers of McGregor Range, 
the elimination of ranchers and establishment of San Andres National 
Wildlife Refuge, the elimination of all private holdings and the 
establishment of White Sands National Monument (which they were never 
compensated for), and the continued expansion of Ft. Bliss Military 
Range, know that (feel) they will be (are) on the receiving end again.
    As was experienced in those past actions, there has been no 
official notice of a possible monument designation (has been) given or 
explanation why a designation is possibly needed. It has been rumored 
it is to stop further oil and gas drilling, which probably makes sense 
because the environmental groups have courted the ranch community to 
oppose oil and gas development since a producing well had been 
completed on Otero Mesa. But they have not gained any inroads because 
of the natural mistrust. Several groups have proposed to make Otero 
Mesa a national conservation area or wilderness and have published 
considerable literature about Otero Mesa and the need to protect it. 
Most of this does not tell the whole story.
    Otero Mesa has been portrayed as a huge block of federal land 
consisting of 1.2 million acres. As you can see by the map provided 
(attachment A) Otero Mesa is intermingled with federal land, New Mexico 
State Trust land and of private property. It would be difficult to get 
1.2 million acres even including all the state trust lands and private 
property. You may also notice the number of allottees who live on Otero 
Mesa and the surrounding areas which are not geographically considered 
Otero Mesa.
    Was the New Mexico State Land Office or private land owners 
notified about the possible designations? Shouldn't they be as, it will 
directly affect them if the state trust lands were traded out because 
of a monument designation? In the past, the NM State Land Office traded 
out their lands that were located in what is now McGregor Range and 
Holloman Air Force Base. If the land is not swapped out it would be 
land locked and unable to generate income from wind or solar 
activities, leasing of hunting rights and the proposed wind and water 
project (Attachment B) could be affected. In turn the improvements 
agriculture has made on state lands by the lessee's would be under 
increased scrutiny from the Bureau of Land Management (BLM), subject to 
new rules and regulations and possible abandonment, because they may 
not fit into the monument's mission. For that reason the local 
residents should know up front about this and be involved in the whole 
process. The thought is if a monument is designated that eventually, 
through special rules, permits, or not meetings the goals of the 
missions, livestock would be removed permanently as is the case in some 
of the Monument Designations.
    If a monument is created and the rules would not allow for an 
economical way to maintain, repair or new improvements then the cattle 
would be sold, which would incur a loss of jobs and in the tax base for 
Otero County.
    In a county with a limited tax base already because of Holloman Air 
Force Base, McGregor Impact Range, White Sands Missile Range and 
Mescalero Indian reservation what would the federal government do to 
compensate Otero Counties tax base with, tourist dollars? A study from 
Range Improvement Task Force at NM State University, suggests that 
tourism will not generate that much income. (Attachment C)
    The study shows agriculture returns $2.00 for every $1.00 that is 
spent in the local community.
    These are some of the items that were discussed before the Otero 
County Commission passed Ordinance #10-05 (Attachment D) so that 
possibly the administration and federal agencies would co-ordinate with 
the county before any process starts and throughout the entire process 
of a monument designation.
    One of the questions that have arisen is what is the Administration 
trying to protect Otero Mesa from or for. When the environmental groups 
first came to Otero Mesa and started promoting to protect the area they 
said it was like the pristine savannas of Africa. At the time Otero 
Mesa was in the fourth year of an eight year drought. If they truly 
believed this, would it not mean that the ranchers and the BLM have 
been good stewards of the land for over 100 years?
    As I prepared to come before you today I inquired about the total 
number of power line miles and meters that would fall into and around 
the designated area. To my surprise I was told that the Department of 
Homeland Security would not release the number of miles and number of 
meters that would need to be serviced if the Monument was designated. 
How can you plan for routine maintenance, repair and expansion of the 
lines if you do not have a current data at the starting pointing? On 
this point, Dell Telephone Company has several hundred miles of fiber 
optic lines that will need to be serviced. People in rural communities 
rely on good communication on a daily basis for several different 
reasons one of which is emergency services. If a line is not working it 
literally could mean the difference in life and death.
    There are gas lines running through the area as well as the 
potential for wind generation. What will a monument designation do to 
these projects?
    There is a lot of misinformation regarding Otero Mesa. I would 
encourage Congress, the Administration and agencies to personally look 
at the areas and coordinate with the local government and residents 
before making a judgment.
    Why is this designation being brought forward? To protect grass 
land, stop oil & gas development, protect wildlife and limit grazing or 
for the wild lands project? (attachment E).
    Thank you again, for the opportunity to address the committee. I 
will stand for questions.
Attachments:
        A.  Otero County Map
        B.  Wind & Water Prospectus
        C.  Range Improvement Task Force Report
        D.  Otero County Ordinance
        E.  Wildlife Corridors Map

    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    Mr. Grijalva. Mr. Lee, your full testimony is part of the 
record, and members of the Committee will have access to that 
full record. I want to thank you for your comments.
    Mr. Lee. Thank you, Mr. Chairman.
    Mr. Grijalva. Let me begin with some questions. Dr. 
Moseley, what can the land management agencies--because that is 
part of the partnership--do with their community partners to 
create the long-term jobs, not the project by project jobs, but 
the long-term jobs.
    Dr. Moseley. That is a very important question. I think it 
is one of the critical questions we need to be asking 
ourselves. One of the realities of working outdoors is that the 
work is seasonal. Different kinds of activities can be done in 
different times of year. And so in that context, we really need 
to be thinking about how you string work together. And one of 
the things about contracting businesses or restoration 
businesses is that they are contracting firms. And typically, 
like many contracting firms, they have many projects, and part 
of their task is to string those projects together into a 
program of work. They keep their business open and their 
workers working.
    So part of the task is in the hands of the contracting 
businesses themselves. But there is a lot that the Federal land 
management agencies can do as well. The way they structure 
their contracts has a lot to do with how this can function. One 
thing we learned from the study that we did of the forest and 
watershed restoration businesses in Oregon was that for these 
watershed businesses, working in the streams actually extended 
their work season, that in the height of the summer they often 
were not doing restoration work. They were doing construction 
work, but that the forest and watershed work added to a work 
season a seasonal work in other industries. So that is actually 
a very good sign of adding restoration.
    In the case of the Forest Service and the BLM, one of the 
key things in rural communities is to think about how you 
structure contracts so that they are what we talk about as long 
and skinny rather than short and fat. You can have 20 guys work 
for a month, or you can have five guys work for four months, if 
I am doing the math right. And in a rural community, that 
longer, skinnier contract is really much more valuable because 
getting 20 people to show up for one month means that the next 
month those 20 people are going to be working in a different 
community. So that is a key piece.
    I think the other key piece with stewardship contracting, 
the integration of the work on the ground and the removal 
allows you to put together into a single contract a large 
number of different activities. And as long as those activities 
are related to each other, you can have contracts where people 
can work over longer periods of the season, and you can add the 
removal, and then that has downstream job effects.
    And then I would say, third, for the communities 
themselves, a key task is doing worker and contractor training 
so that those contractors and workers can't just do--aren't 
able to just do one thing. They can't just thin, but they can 
also do the timber cruising and the surveys, and, and, and, so 
that you have a workforce both like on the business side and 
the workers who can do a variety of tasks. You can match that 
up with contracts where there are a variety of activities, and 
you keep them sized for the community, and you have a pretty 
good formula. Thank you.
    Mr. Grijalva. Yes. The question for me--because one of the 
points was that you mentioned at the beginning. They are not 
long-term, they are seasonal. And I think one of things we are 
probing with this hearing is how you----
    Dr. Moseley. Right.
    Mr. Grijalva.--extend the life of the job and the project. 
Ms. Dearstyne, you state that reductions in staffing and 
Federal agencies are impeding your ability to grow jobs in the 
private sector in your area. Can you explain that?
    Ms. Dearstyne. Yes. It has been critical for us to have 
agency staff that is accessible and knowledgeable, and that has 
become more and more rare. Frequently, in our communities, we 
will find that a contracting or an agreements staffer is either 
100 miles away or has very little experience. And it is hard to 
put agreements together with people who aren't sure what their 
authorities allow them to do. And it makes them nervous and 
risk-adverse.
    We also find, because we do so much training on the ground, 
that when we started this in 2003, that we had easy and ready 
access to fish biologists, hydrologists, and fire management 
officers. And that again is becoming more and more rare for us. 
We are having to put training off for months and, in one case, 
reschedule it for the following year--just because of the 
availability of staff.
    Mr. Grijalva. Thank you. We hear so much that you need to 
reduce, you need to cut back. And when you lose an investment, 
I think there is a corresponding loss on the private sector as 
well, and I appreciate your answer.
    Mr. Curtis, in the testimony--and before I do that, I just 
wanted to say that Leigh von der Esch--did I say it right? Yes, 
thank you--of the Utah Office of Tourism will not be testifying 
today. She had to cancel at the last minute. Her written 
testimony is very compelling. I want to enter it into the 
record if there is no objection. And obviously, there won't be 
any, so it is in the record.
    [The statement of Leigh von der Esch submitted for the 
record follows:]

       Statement submitted for the record by Leigh von der Esch, 
               Managing Director, Utah Office of Tourism

    Good morning, I am Leigh von der Esch, Managing Director of the 
Utah Office of Tourism in the Governor's Office of Economic 
Development. It is my pleasure to speak to you regarding ``Gateways to 
Prosperity: Managing Federal Lands to Create Rural Jobs.'' I am happy 
to be here to speak to you about two economic development efforts that 
are important to Utah on and around federal lands, tourism promotion 
and film production, both important economic development activities 
that create jobs and prosperity in our state.
    Utah is known worldwide for its scenic beauty. We have an abundance 
of riches with our natural beauty showcased within 5 National Parks, 7 
National Monuments, 2 National Recreation Areas, 6 National Forests and 
additional beauty found on thousands of acres of Bureau of Land 
Management land in addition to 43 State Parks and other state sovereign 
and state trust lands. Our summer advertising commercials reflect the 
myriad of activities that one can enjoy in Utah and on our public 
lands, from hiking and biking, fishing and kayaking, camping and 
wildlife viewing, and many other outdoor opportunities. It is truly a 
summer wonderland for the outdoor recreationist.
    With over 19 million people visiting the state in 2009, tourism 
spending in the state accounted for $6.2 billion dollars to our 
economy. Traveler spending in 2009 is estimated to have generated $625 
million in state and local tax revenues, and tax relief per household 
of the yearly amount of $703. In addition to having ``The Greatest Snow 
on Earth'' in the winter, with over 4 million skier days, our summer 
visitors account for approximately 80 percent of our visitation. 
Tourism is big business.
    And Utah's scenic beauty is not just a destination for the 
traveler, seeking outdoor recreation or reflection; it is also a 
destination for the filmmaker.
    Utah's locations have been the backdrop for the motion picture 
industry, originating even before director John Ford shot the iconic 
mittens of Monument Valley which has resulted in global recognition for 
that area of our state. Movies from ``Stagecoach'' and the 
``Searchers'', and other John Wayne westerns, to ``Geronimo'', ``Thelma 
and Louise'', ``City Slickers II'' and ``John Carter of Mars'', have 
all relied on our scenery to move the narrative. ``John Carter of 
Mars'', is the largest movie ever shot on location in Utah and recently 
finished shooting by Disney/Pixar. The motion picture industry has 
brought over 800 movies to our state, and accounted for thousands of 
jobs and millions of dollars to our economy. But it hasn't always been 
easy shooting on location, and many films and commercials were lost to 
other jurisdictions due to slow and confusing processes and 
regulations.
    Both tourism visitation and motion picture production provide 
``Gateways to Prosperity'' and require mutual cooperation in working on 
and respect for our natural resources, in order to be successful 
economic development efforts as well as sustainable. Mutual agreement 
to generate any segment of our local and state economies requires 
communication and cooperation, as we have seen in so many communities 
throughout the west, no one single industry can be relied on to sustain 
an economy indefinitely. Prior to becoming the Managing Director of the 
Office of Tourism, I served for 20 years as the state film 
commissioner. Since so many of the movies shot in Utah are location 
specific, written to capitalize on the uniqueness and beauty of our 
landscapes, our office interfaced with public land agencies on a 
regular basis. Many times our interface was frustrating, when filming 
schedules collided with permit processing times. In the 1990's the 
perception, if not the reality was that you could not film on Utah's 
public lands, or if you tried, it would be costly and complicated.
    Because of the regulatory perception, our motion picture production 
in the Moab and Monument Valley area decreased significantly in the 
90's. Other states in the West were finding significant and similar 
frustrations and we all watched as movies that could easily be shot in 
the United States go to other countries for their productions, where 
permits to film were more manageable and predictable.
    As Director of the State Film Commission and President of the 
Association of Film Commissioners International, I and others reached 
out to the public lands agencies to forge partnerships that allowed us 
to create forums to discuss the needs of the motion picture industry 
while in preparation for and during the shooting of films, television 
productions and commercial productions. As a result of those efforts, 
several of us participated in training sessions for film permitting, 
location monitoring and possible mitigation efforts that would assist 
the land agencies in their efforts to manage their respective natural 
resources, while assisting the motion picture industry.
    The dialogue that was created between the motion picture industry 
and federal land managers, allowed the motion picture industry to 
recognize the multiple demands placed on our public land managers in 
the efforts they were making with underfunded capital projects and 
manpower shortages. It also created an understanding of industry needs 
by land managers. As a result of talking and understanding, I saw many 
instances where motion picture companies went beyond mitigation for 
their activities on public lands and left instead repaired roads and 
facilities in areas where they shot and other contributions to the 
local communities.
    We need to continue to have dialogue about filming on public lands 
and forums to discuss mutual needs to assist filming on location. 
Filmmaking is a resource sustaining activity. Filming on location, like 
tourism, is big business. ``John Carter of Mars'', which I initially 
mentioned, resulted in $20,000,000 dollars spent in our state over the 
course of 4 months of preproduction and production and created jobs in 
rural communities in some of the least populated areas of the state. 
And for the gateway communities located near national recreation areas, 
national parks and BLM land, where the majority of the film's scenes 
were shot, those millions of dollars were left in lodging, grocery 
stores and lumber yards and hundreds of other purchases, in addition to 
being paid to hundreds of extras and crew hired locally.
    Movies shot on location are also the biggest promotional billboard 
a state could hope for in showcasing our unique and breathtaking public 
lands. But we can't have that promotion or resource sustaining job 
creation unless we work together and regulate our public lands with a 
process that provides for clarity, consistency and a more expeditious 
process. We can work together and create a process of permitting and 
assistance on public lands, which can provide the appropriate 
stewardship of our natural resources.
    As I mentioned earlier, tourism is big business in Utah and our 
visitation numbers are increasing. Our scenery in our National Parks 
and public lands is recognized throughout the world. Delicate Arch, in 
Arches National Park, is on our state license plates. Our state slogan, 
our brand, is ``Utah Life Elevated''. We believe our brand experience 
can be found any day of the year on our federal and state lands, and 
those public lands are showcased in our commercials, our travel 
publications and our calendars.
    In Utah, we don't just provide the scenery for the experience; we 
also are providing the equipment. The Outdoor Recreation industry is a 
major economic industry cluster in the Governor's Office of Economic 
Development and we are growing outdoor recreation businesses and seeing 
them relocate to Utah in metropolitan and rural communities. They love 
to test, as well as enjoy their newest outdoor recreation equipment in 
our state.
    Each January and August, Salt Lake City, Utah hosts the Outdoor 
Recreation Industry for their winter and summer equipment convention. 
In addition to bringing the latest outdoor equipment to Utah, the 
Outdoor Industry Association also brings those leaders in the outdoor 
industry who are working locally and nationally to encourage the next 
stewards of our public lands, as well as encourage healthy lifestyles 
of the young and the old through outdoor activities. Our own summer 
advertising kickoff included a ``get out, get active, get healthy'' 
message.
    There is no doubt that our natural resources on federal lands are a 
gateway to prosperity. Parks and federal lands attract visitors that 
energize local economies, support jobs and economic growth. Quality of 
life is always an attribute cited for relocation of business.
    We have to continue to invest in our infrastructure and continue to 
talk to all interested stakeholders of federal land use to continue 
prosperity.
    The economy of the West has been evolving and tourism and motion 
picture making has played and can continue to play a part, along with 
other economic development efforts for economic prosperity. We can 
build on relationships between federal lands and local communities. We 
can work with environmental groups and businesses. Future prosperity 
requires all interests to reach out and work together. It all begins 
with communication, there are hundreds of successes we can share and 
thousands more we can create together.
    Thank you.
                                 ______
                                 
    Mr. Grijalva. And also for the record, and correcting Mr. 
DeFazio, Plymouth Rock will be celebrating its 390th birthday, 
and not its 400th. But anyway. Thank you.
    One of the points that she did make in her testimony, the 
state director, was that parks and Federal lands attract 
visitors, energize local communities, support jobs and economic 
growth. From your perspective, does the proximity to national 
parks and forests affect the economy of Cedar City? And to 
follow up, you have worked extensively on rural affairs for 
Governors of Utah, as you mentioned. How do national parks and 
forests help or hinder preserving the historic and rural 
culture that one finds in places like Cedar City? Those two 
questions.
    Mr. Curtis. Thank you, Mr. Chairman. Answering your second 
question first, regarding preserving the history and culture of 
the area, that is an interesting question because the public 
lands and how they affect our culture, our lifestyles, and way 
of thinking is something that is really ingrained within us in 
this part of the state. It is part of our lifestyle. It is part 
of our way of thinking. And that is why people are so 
passionate for how these lands are managed, and of course, 
availing ourselves of these vast tracts of public lands for 
various purposes is something that is very much a part of our 
nature.
    But at the same time, many of our historic uses and the 
jobs associated with these lands are disappearing. The 
lifestyles associated with grazing, with logging, some of those 
kinds of things that are very much a part of our culture are no 
longer so much a part of that, and the new outdoor recreation 
economy is indeed new, and the technologies involved there, 
with ATFs and whatnot, with rock climbing type things, these 
are a very recent phenomenon, and it will be interesting to see 
how this becomes incorporated into our culture and our 
approaches to things.
    In terms of the jobs themselves and how these lands affect 
that, of course, we know intuitively that these lands have a 
lot to do with what happens there, but it is hard to measure 
just how much these things factor into decisions by those who 
locate there with second homes or retire there, or bring 
businesses there. We do know that the tourism industry jobs are 
very much a part of our economy and very much appreciated. 
However, they are very much low-skill, low-paying, seasonal 
type jobs. In fact, our neighboring county, Garfield County, 
which relies more on tourism than any other county, the average 
monthly wage there is only 64 percent of the state's average 
wage.
    So these jobs really--we seek for higher paying jobs than 
we find in the tourism industry. And in fact, we get more bang 
for our buck in terms of dollars spent per tourist visitor day 
from locally sponsored attractions like our Utah Shakespearean 
Festival in Cedar City than we do from visitors who come to the 
public lands.
    So I hope that answers your question, Mr. Chairman.
    Mr. Grijalva. Mr. Lee, I don't have a question. Just thank 
you. And you remind me, when I had a much more pleasant job, 
and I was a supervisor in Pima County in southern Arizona, we 
put together something called a Sonoran Conservation Plan, in 
response to having to deal with an endangered species listing. 
And one of the components of that was ranches, because we felt 
that it was better in the long term to cooperate and set up 
partnerships with the stewardship that would be occurring on 
those ranches, and have occurred for generations, than getting 
into a protracted battle over the conservation plan.
    The alternative was that ranches, as they decline in their 
profitability, begin to sell off their land for development. 
And that development then begins to encroach on the 
conservation strategy. It has worked very well, and I think 
particularly in the West, ranching and farming have to be 
integrated in the long-term conservation strategies. So I 
appreciate the work that your colleagues did in southern 
Arizona in helping us get that plan done, and I thank you for 
your testimony. And we will invite the next panel up.
    [Pause]
    Mr. Grijalva. Welcome. Thank you for your patience, and we 
are looking forward to it. Rachael Mondragon, owner, Urban 
Interface Solutions, Taos, New Mexico. As part of the 
introduction--you were already introduced by our colleague, Mr. 
Lujan--my wife is from Penasco, up there north, and while she 
enjoys living in Arizona, she still considers us second class 
to northern New Mexico. So welcome, and we look forward to your 
testimony.

            STATMENTS OF RACHAEL MONDRAGON, OWNER, 
          URBAN INTERFACE SOLUTIONS, TAOS, NEW MEXICO

    Ms. Mondragon. Thank you, Mr. Chairman. I would like to 
thank you all for the opportunity to speak to you regarding 
something that I have had the good fortune to personally 
experience and be part of, the positive relationship between 
rural economics and forest health restoration.
    I decided to start my own business in 2005. I knew that 
like every person out there who embarks on that journey, I was 
taking a huge leap of faith. The reason I pressed on was 
because I was convinced that not only could I make it in this 
industry, but that if I worked hard enough, I could build my 
business to a point that I could have several people working 
with me and be able to bid on larger projects.
    I wanted to take my business to the next level. When I 
started out, friends and family helped me, and I envisioned the 
day when I would be able to hire a crew and purchase the 
equipment that I needed to take on larger projects. That day 
came. I hired a crew. I began to purchase the equipment. My 
business was growing. And as much as I would like to tell you 
that hard work alone made all of this possible, I can't. I had 
help. The project that really opened the doors for me in my 
business were projects that I was able to implement on public 
lands. The contracts and programs that I was able to take 
advantage of provided me with the opportunities that I would 
never have had otherwise. These were the projects that 
introduced me to the power of partnership and collaboration.
    I met the people who would later become resources for 
future projects, and it was then that I understood that there 
are many organizations, groups, and individuals out there that 
are working together toward common goals, and they seem to want 
to help each other. They call and e-mail each other. They meet 
at project sites, and they support each other. You don't find 
that very often in the private sector, but when the Forest 
Service or the BLM provide an opportunity for these resources 
to work together, it seems to happen, and it seems to benefit 
everybody, including the Forest Service and BLM.
    A Forest Service CFRP grant awarded to the village of 
Questa allowed them to hire me as a contractor in 2005. Thirty 
other workers were also hired for that project. In a village of 
1,800 people, creating that many jobs for that many people is 
significant. To date, I still look on that project and consider 
it to be my big break. Grants through the Forest Service that 
provide funding for contractors like me to work on public lands 
made it possible to purchase equipment that would otherwise 
have taken years to acquire.
    The same equipment now makes me more competitive as a small 
business. I recently applied for and was awarded my own CFRP 
grant on the Carson National Forest. I now have the opportunity 
to create jobs for people in northern New Mexico for the next 
three years. And given the amount of work in the Urban 
Interface just in Taos County alone, I plan to keep this crew 
working for many years to come. This is sustainability, and 
that is what every business strives for. As a contractor, it is 
incredibly rewarding to be able to do that, not because it 
speaks to the success of my business or allows me to make more 
money with a bigger crew, but because I am creating jobs in my 
community.
    The work we are doing is rewarding. We are lowering the 
risk of wildfire next to a beautiful community. We are 
improving wildlife habitat. We are restoring health to a dense, 
overgrown forest. All of these are great accomplishments. But 
at a time when our economy is struggling to recover, and 
unemployment remains a concern nationally, it means the world 
to me that I am in a position to be part of the solution. Not 
only am I working, but so are several others who otherwise may 
not be. I am helping people to provide for their families.
    In closing, I would like to say that I have been very 
fortunate to have been involved in some of these projects on 
public lands. As a contractor, they have opened doors for me 
that once were closed. There are other business owners out 
there like myself who are not looking for easy money or 
handouts. They are looking for the opportunity to be part of 
something that will help them build capacity and provide for 
the future success of their businesses. Our public lands hold 
the key to many of those opportunities. By fostering strong 
relationships with land managers and reinforcing the value of 
these partnerships through successful, responsible project 
accomplishments, we all stand to gain something for generations 
to come.
    Again, I thank you for this opportunity to speak to you.
    [The prepared statement of Ms. Mondragon follows:]

     Statement of Rachael R. Mondragon, Urban Interface Solutions, 
                            Taos, New Mexico

    My name is Rachael Mondragon, and I am the owner of a small company 
in Taos, New Mexico called Urban Interface Solutions. I will be 
testifying on July 15, 2010 before the House Natural Resources 
Committee, Subcommittee on National Parks, Forests and Public Lands on, 
``Locally Grown: Creating Rural Jobs with America's Public Lands.''
Background:
    With the exception of living in Wichita, Kansas for the first six 
months of my life, I am a life long resident of Taos. I attended public 
schools in Taos, and I graduated from Taos High School in 1997.
    In 2000, the country experienced catastrophic wildfires in many of 
the western states. At the time, I was working as a financial 
consultant for a national investment firm. It was then that I began to 
develop an interest in wildland fire.
    In 2001, I left my job at the investment firm, and began taking 
courses that were offered locally by the Forest Service, BLM, BIA, and 
State Forestry. Once I completed the required courses to become a 
Wildland Firefighter, I signed up with the Carson National Forest's 
SWFF Program (Southwest Forest Firefighter). I went out as a crewmember 
on several crews, and had the opportunity to fight fire in several 
states, and in various fuel types. I developed a strong working 
knowledge of fire suppression tactics, fire behavior, tactical 
suppression operations, and a solid understanding of the Incident 
Command System used by the various interagency resources and Incident 
Command Teams. Later that same year, I took the S-212 Wildland Fire 
Chainsaw training, and became certified to operate a chainsaw on the 
fireline. That winter I attended the S-217 Helicopter Crewmember 
training so that I may begin working towards that qualification the 
following fire season.
    In 2002, I took the S-131 Advanced Firefighter Training. I also 
took the S-260 Interagency Incident Business Management class, and 
decisively charted a course to make this a career.
    I applied for a position with the Red River Fire Department, and 
was hired as a sawyer on their thinning crew. I obtained my ``B 
faller'' certification, and worked daily with a highly skilled, and 
well trained thinning crew on various hazardous fuels reduction 
projects. While working on this crew, I maintained my wildfire 
qualifications, and responded to wildland fires with the crew.
    By my second year on the thinning crew, the Fire Chief promoted me 
to Crew Boss for demonstrating initiative, and leadership skills. I was 
then responsible for the program of work, scheduling, organization, 
mobilization and all logistical considerations for the entire crew on a 
daily basis.
    At this point, I was also working closely with the Asst. Fire Chief 
to perform more of the administrative tasks associated with the 
projects that we were implementing. I began to understand the grant 
process, and many of the fiduciary responsibilities associated with the 
administration of these grants. This was a pivotal point in my career.
    It was during my second year with the Red River Fire Department 
that I also began to look at the areas that we were treating more as 
ecosystems and landscapes, as opposed to ``properties that we were 
thinning.'' My background as a firefighter had allowed me to witness 
first hand the devastating effects that can and will occur when fire 
meets an unhealthy, overgrown, dense forest. We weren't just thinning 
trees, we were improving forest health. By doing so, our work also 
restored watersheds, improved wildlife habitat, reduced diseases in 
stands, and reduced the risk of catastrophic wildfire. The benefits of 
the work we were doing were countless.
    In 2002, I sustained an injury while on a training exercise with 
the Red River Fire Department. I was unable to work for some time after 
the accident. It was during the time that I was recovering from my 
injury that I began the business plan for ``Urban Interface 
Solutions.''
    In 2005, I began my business, and it is the countless, positive, 
rewarding experiences to date, that I will be basing my testimony to 
this committee on.
Socio-economic Benefits:
    When small businesses, or fledgling contractors can collaborate or 
enter into any type of partnership with any of the various land 
management agencies, everybody wins! Jobs are created, local economies 
thrive, and sustainability is made possible for contractors or small 
businesses.
    This is quantifiable, and my business is a textbook example of how 
these partnerships can benefit an entire region in ways that may not be 
apparent to those unfamiliar with the various programs and grants 
responsible for these successes.
    In 2003, the Village of Questa, in Northern New Mexico applied for 
and received a CFRP (Collaborative Forest Restoration Program) grant. 
I, along with several other local contractors, was hired as a 
subcontractor to perform the thinning work. Not only were over 30 jobs 
created locally, but also large quantities of firewood were processed 
and distributed to elderly people in the community through the local 
``Ancianos'' Program. Local businesses benefited as a result of the 
contract crews working daily in the community. When the project was 
complete, 150 acres had been thinned to prescription specifications, 
marking the beginning of the implementation of the Questa/Lama Wildland 
Urban Interface (WUI) project, a 5,000 acre project planned by the 
Questa Ranger District of the Carson National Forest, adjacent to the 
area that in 1996 was ravaged by the ``Hondo Fire'', forcing the 
evacuation of three communities, and destroying several homes. The 
accomplishment of these critical acres cost the Forest Service little 
more than some technical and administrative support (maps, layout, site 
visits, etc.).
    For those unfamiliar with the CFRP Program, it was established in 
2001, and is unique to the State of New Mexico. It provides cost-share 
grants to stakeholders for forest restoration projects on public land 
designed through a collaborative process.
    ``Within its legislative authority, the Act provides Federal 
appropriations of up to $5 million annually towards cost share grants 
to stakeholders for experimental forest restoration projects designed 
through a collaborative process. These projects may be entirely on, or 
any combination of, Federal, Tribal, State, County or municipal forest 
lands and must include a diverse and balanced group of stakeholders in 
their design and implementation. Each project must also address 
specific restoration objectives, including: wildfire threat reduction; 
reestablishment of historic fire regimes; reforestation; preservation 
of old and large trees; and increased utilization of small diameter 
trees. Projects must also include a multiparty assessment and efforts 
to create local forest-related employment or training opportunities.''
    This program helps small businesses. Not just by giving them a 
project to work on for a while to earn money, but also by helping them 
purchase equipment, provide crucial trainings for employees, increase 
and enhance their workforce, and develop the necessary experience to 
become and remain competitive in their respective industry. 
Sustainability, in the truest sense of the word.
    This program helps rural communities. The emphasis this program 
places on core value objectives ensures benefits to the surrounding 
community. It requires applicants to include an education component, 
and a youth component. Schools and Boy Scout Troops become involved in 
these projects. Small diameter forest product utilization is required 
and monitored. Socio-economic monitoring reports are required 
periodically throughout the project, quantifying the number of jobs 
created, and revenue being generated by the project.
    The socio-economic benefits of this program are undeniable. Coupled 
with the biological benefits of restoration, CFRP has been a success. 
That success is leading to expansion and adaptation. I have recently 
learned of a new program of the Forest Service that seems to be modeled 
on the CFRP. This national program, the Collaborative Forest Landscape 
Restoration Program (CFLRP), has many of the same components that the 
CFRP has. Like the CFRP, the CFLRP requires the organizations that want 
to do restoration on federal land to collaborate with others in their 
community, to the extent that preference is given to projects that span 
ownerships. Like CFRP, CFLRP projects are evaluated by a panel; the 
first CFLRP panel will meet next week in Washington. The biggest 
differences are the CFLRP targets large landscapes--greater than 40,000 
acres--with a strong emphasis on Forest Service land, and not just in 
New Mexico but anywhere in the US. The similarities are so great that 
people in New Mexico that are familiar with the CFLRP call it ``CFRP on 
steroids.'' I trust it will be as successful as the CFRP.
Forest Health Benefits:
    Each year Federal land managers spend a considerable amount of time 
and money to plan projects that once approved, they may not have the 
time, money, or resources to implement. This is a reality of declining 
budgets, reductions in workforce, or possibility shifting priorities.
    Allowing contractors to work with our land managers through 
programs like the CFRP program, enables the work to get done sooner 
than it would have otherwise. Project oversight is still provided by 
the agency, so quality work is assured. As with any other contract, the 
scope of work is clearly outlined, and the contract is administered by 
agency personnel.
    There are multiple benefits associated with this method of 
implementing these projects. The most notable is the fact that land 
managers are able to move forward with implementation of their projects 
before NEPA gets stale, and collectively we move towards improving 
forest health one project at a time.
    On July 6, 2010, I met with Kendall Clark (Forest Supervisor, 
Carson National Forest) to discuss the CFRP projects that have been 
implemented on her forest, as well as her thoughts on the connection 
between rural economics, and the principal land management agencies in 
those areas. She felt that the CFRP Program created ``capacity'' that 
would otherwise not exist for implementing these projects in the 
region. She also felt strongly about agencies creating opportunities 
through collaboration with rural resources that would both meet the 
needs of the agency, and provide contract and job opportunities in 
these communities.
Partnerships and Collaboration:
    Any program, project or process that allows multiple parties to 
combine resources and ideas, has a greater chance of success than any 
one entity working independently to accomplish the same goal.
    My personal experience as a business owner is that the measure of 
success comes not with high profits, but with the quality of work that 
is produced. High quality work is easier to accomplish when you have 
the proper mix of skill sets involved. Often times that means 
collaboration and partnerships with others who share a common goal.
    Fortunately for businesses like mine, there are many local groups 
and organizations who share the same desire to see quality work being 
performed on the ground, by people who care about the land. I feel that 
the resources available to me locally have played a significant role in 
the success of my business. In turn, I feel that they are able to 
consult with me and request assistance when they need it. The result is 
a strong, mutually beneficial working relationship, and the benefactor 
of this cohesiveness is the project or client.
    The following are groups or organizations who I have had the 
pleasure of working with in various capacities on local projects. These 
are the people who contribute to the tremendous success of local 
projects, and actively seek out partnership opportunities to better 
serve the people of the Southwest Region:
New Mexico Forest and Watershed Restoration Institute (NMFWRI):
    ``The New Mexico Forest and Watershed Restoration Institute 
(NMFWRI), which is located at New Mexico Highlands University, is a 
statewide effort that engages government agencies, academic and 
research institutions, land managers, and the interested public in the 
areas of forest and watershed management.
    The New Mexico Forest and Watershed Restoration Institute is one of 
three Institutes formed by the Federal Southwest Forest Health and 
Wildfire Prevention Act of 2004. Their partner institutions are the 
ecological Restoration Institute, located at Northern Arizona 
University, and the Colorado Forest Restoration Institute, located at 
Colorado State University.''
    Kent Reid and his staff have been instrumental in promoting 
training and supporting businesses like mine on several projects over 
the past few years. They have sent trainers and instructors out to 
project sites, and have supported my efforts both directly, and 
indirectly. Having resources like these available to businesses like 
mine can make the difference between success and failure for a 
business. It is a perfect example of why collaboration and partnerships 
are such an important part of land management.
Rocky Mountain Youth Corps:
    ``Rocky Mountain Youth Corps (RMYC) was created in 1995 to 
revitalize community, preserve and restore the environment, prepare 
young people for responsible and productive lives, and build civic 
spirit through service. Modeled after the Civilian Conservation Corps 
of the 1930's, RMYC provides creative approaches to problems stemming 
from poverty, youth substance abuse, teen pregnancy, and violence. RMYC 
works with youth from various backgrounds, providing a strategy for 
young adults to better their communities and their own lives. With this 
in mind, they not only work to restore trails, watersheds, and fire 
safety corridors, they also use these activities as the means to 
positive youth development. RMYC has hired more than 1,900 Taos youth, 
between the ages of 16-25, providing them with employment readiness 
programs, violence and substance abuse prevention education, GED 
attainment, and continuing educational scholarships. These youth have 
completed over 200,000 hours of meaningful community service that have 
benefited hundreds of school children, low-income families, elderly 
citizens, local government and non-profit agencies, and users of public 
land in Taos. RMYC members become heroes and heroines in the community, 
transforming negative images of youth into success stories about youth 
making a difference. By providing a safe, structured environment for 
learning that promotes citizenship, RMYC builds stronger communities in 
northern New Mexico.''
Local Culture:
    In rural communities such as those found in Northern New Mexico, 
you will not find big, industrial or commercial operations working on 
forestry projects. With all due respect to the big operations found in 
the Northwest, and in other parts of the country, many areas in the 
Southwest don't lend themselves well to the heavy equipment and 
industrial machinery used in areas where commercial timber is harvested 
by the millions of board feet.
    The successful projects that I have been involved in were smaller, 
more manageable projects. The work was done by groups like the Rocky 
Mountain Youth Corps, Boy Scout Troops working with volunteers, and 
small contractors like myself. The end result was a completed project 
with attention to detail, and aesthetics. Having a sense of ownership 
in the area, the same local contractors who performed the work take 
great pride in the finished product.
    Many of the local contractors have families that date back several 
generations in these rural areas. To them, it isn't just about cutting 
trees, and making money. It epitomizes the term ``caring for the 
land''. These are families that belong or once belonged to land grants, 
ranchers and farmers who were raised here, and families who have 
hunted, fished and camped on these public lands for generations. When I 
met with Kendall Clark on July 6, she commented on the value of sharing 
the stewardship of our public lands with those who have a personal 
connection to the land.
Room for Improvement:
    As with any program, there is always room for improvement. The 
concept is great, but it is not without its flaws.
    As I have spoken to my peers in preparation for this hearing, two 
topics seem to surface repeatedly.
    The first is the evaluation and selection process. Granted, if it 
was easy to get through this process, everybody would be submitting 
applications. I understand that it has to be a stringent process, but 
it does seem that it has become more of a technical review with subject 
matter experts dissecting specific language in the proposal, rather 
than an objective evaluation of a proposal that may have merit with a 
few changes.
    I realize that every applicant thinks that their project should be 
funded, and that it is a great project. My comments are directed more 
towards applicants who have a great idea for a project, but that may 
not be able to afford a grant writer, or be able to articulate their 
idea in a manner that allows them to be competitive in the selection 
process.
    There is a growing perception that the CFRP Program is developing 
into a ``battle of the grant writers''. Maybe there is a way to level 
the playing field for those who are more comfortable behind a chainsaw 
than a computer.
    The second issue that surfaced repeatedly was the administration or 
oversight provided by the agency to the contractor. Several contractors 
mentioned that there is no formal opportunity to provide feedback 
relative to how they feel they were treated as contractors. In true 
collaboration there should never be a ``take it or leave it'' 
relationship. Most contractors are acting in good faith, and deserve 
the opportunity to not only provide feedback, but to have that feedback 
heard, and acted upon in the interest of improving the program. Agency 
officials should be responsive to contractors, and accept feedback 
positively and productively as it was intended. It could potentially 
lead to changes that create efficiencies in how the projects are 
implemented.
    The last item was shared with me by Kendall Clark, who felt that 
two phases of funding in the grant process may allow for some monies to 
be used for the planning of the proposed project, with a second phase 
to be used for implementation. I would offer that a third phase could 
be planned for follow up or ``maintenance'' treatment several years 
later. This would ensure that the effectiveness of the initial 
treatment could be restored in the future.
    I respectfully ask that consideration be given to my testimony, as 
it is intended to provide the members of this committee with possibly a 
different prospective than they may have previously had.
    There are many like me who take great pride in the work that they 
do, and consider it an honor to be a part of any effort that moves us 
closer to healthier forests, and helps our land managers reduce the 
risk of catastrophic wildfire. Partnerships, collaboration and programs 
like the CFRP and CFRLP are instrumental in making that possible.
    Thank you.
                                 ______
                                 
    Mr. Grijalva. Thank you. Ms. Kristin Troy, Executive 
Director, Lemhi Regional Land Trust, Salmon, Idaho. Welcome, 
and thank you.

        STATEMENT OF KRISTIN TROY, EXECUTIVE DIRECTOR, 
            LEMHI REGIONAL LAND TRUST, SALMON, IDAHO

    Ms. Troy. Good morning, Mr. Chairman and members of the 
Subcommittee. Thank you for this invitation and the opportunity 
to share with you how the management of Federal land in my 
community is potentially retaining several generations of jobs, 
and is creating jobs in the process as well.
    My name is Kristin Troy, and I am the Executive Director of 
Lemhi Regional Land Trust, which was started by ranchers, and 
is based in Salmon, Idaho. Salmon is also one of the most 
rugged--or excuse me, remote communities in the lower 48, and 
it is also one of the most rugged. We are flanked to the west 
by the Frank Church Wilderness, and to the east by the 
Continental Divide. Our county has about 4 million acres; 92 
percent of those acres are publicly owned. And the cattle 
outnumber us by about seven to one.
    Given that ratio of public-to-private land, our ranchers 
depend heavily on public lands for grazing. And ranching 
currently is one of our few natural resource industries to 
survive. And we know about challenges and survival in my county 
because as I grew up there, I watched as our timber mills 
closed down, as did our mines. And what I now know is that once 
that infrastructure and skilled labor is gone, starting over 
gets complicated and expensive. It is not unlike the decline of 
a species. Once you become threatened and endangered, you 
become complicated and expensive.
    There is opportunity in all of this, though, and my 
organization embraces the idea that conservation and economic 
needs can in fact be compatible. And this is what I do. I work 
at the intersection of working lands and endangered species, 
and together with willing landowners and Federal partners, we 
are finding ways to keep our working lands working, while at 
the same time conserving land and water for the endangered 
Chinook salmon and Steelhead trout that make a 1,600 mile 
round-trip journey from Salmon, Idaho to the Pacific Ocean, and 
back again.
    One of the groups we are working with is the Upper Salmon 
Basin Watershed Project that was started as a collaborative by 
ranchers in the early '90s. This group helps to prioritize 
projects that benefit fish, and they carefully consider both 
the ecological and social aspects of the project. One of the 
sources of fish funding for these projects is Bonneville Power 
Administration. And what works in that particular program is 
that we have a state point agency that helps to manage those 
funds. It is the Office of Species Conservation. And as the 
Governor's representative, they are really motivated to help 
craft projects that have community support and recognize the 
good return on investment by allowing for project 
implementation and administration costs. That is incredibly 
important in my world, and it is all too rare.
    We are working on a large-scale land conservation project 
right now that has over $2.5 million designated to it, and 
$25,000 has been designated for hours of staff time necessary 
to make the project work on the ground. And that money allowed 
me to hire my first time local part-time employee. We have also 
utilized the Farm and Ranch Land Protection Program, and that 
was used to conserve a multi-family, multi-generation parcel of 
a ranch right at the base of the Continental Divide, by the 
way--really beautiful--and it gave that family an option to 
keep the ranch viable instead of subdividing.
    While that is a really well-intentioned program, and we are 
really happy to use it, it does have a very steep cash match, 
or a steep match, I should say. It is a 50 percent cost share 
program; 25 percent of that needs to be cold, hard cash. And 
there is no mechanism in there for implementation or on-the-
ground staff time. And while the land trust focus has been 
primarily on conserving private lands, a forestry collaborative 
in my community is working to achieve the same balance on 
public lands. They are trying to get past nearly two decades of 
gridlock on the Salmon-Challis National Forest, and they are 
focusing heavily now on forest health and local economic 
benefit. In fact, their first 13-acre Hughes Creek project has 
pumped $215,000 into our community, with 90 percent of that 
going directly to Lemhi County workers.
    So I guess this story is meant to portray a few things. 
First of all, collaborative efforts and community-based 
organizations have a pretty unique ability to set politics 
aside and to focus on our landscapes, and to get our good work 
done. And like it or not, through this process, we really get 
to know one another, and we learn to trust one another, and 
that is what is working.
    But please hear me when I say that community-based 
organizations are not seeking to become another arm of the 
Federal Government. We are valuable because we are small, 
nimble, efficient, and we are tied to the land. I hope that 
Federal agencies can recognize us as valuable partners to get 
the work done in a really meaningful way. So thank you for this 
invitation and opportunity. I hope this has been helpful, and I 
am happy to answer any questions.
    [The prepared statement of Ms. Troy follows:]

  Statement of Kristin Troy, Executive Director, Lemhi Regional Land 
                                 Trust

    Good Morning Mr. Chairman and Members of the Subcommittee:
    Thank you for this opportunity to share with you how the management 
of federal and private lands is retaining and creating jobs in my 
community.
    My name is Kristin Troy and I serve as the executive director of 
the Lemhi Regional Land Trust, a non-profit organization that was 
founded by ranchers and is based in Salmon, Idaho. Salmon is one of the 
most remote communities in the lower 48, and it is also one of the most 
rugged. We are flanked to the West by the Frank Church River of No 
Return Wilderness and to the East by the Continental Divide.
Context:
    Around 92 percent of Lemhi County is in public hands and managed by 
United States Forest Service and the Bureau of Land Management. The 
remaining 8 percent of private lands are, as one would expect, situated 
in the valley bottoms along the Salmon and Lemhi Rivers. Given the 
small amount of private land we have in our valley, ranchers depend 
heavily on access to these public lands for grazing.
    Ranching is one of the few natural resource based industries in our 
community that has survived. But that survival is tenuous at best for a 
variety of reasons - aging landowners, the rising cost of doing 
business, and pressure to subdivide.
    I grew up in Salmon and in my lifetime, I watched as the mainstay 
timber and mining industries dried up and blew away. The lost jobs 
meant lost tax revenue, lost families, a drop in school enrollment, and 
an increase in despair. As with many other rural communities across the 
West, we are committed to finding solutions that will maintain working 
landscapes, blurring the line between public and private lands in light 
of overall conservation objectives. We know from the loss of our timber 
industry that once the infrastructure and skilled labor is gone 
starting over is complicated and expensive. In a way, the decline of a 
rural economic sector is not so different from the decline of a 
species. By the time you are threatened and endangered, you are 
complicated and expensive.
The opportunity:
    Rural communities are the front line stewards of our public lands. 
My organization embraces the idea that meeting our conservation and 
economic needs can be compatible. This is what I do - I work at the 
intersection of working ranch lands and endangered species and together 
with willing landowners and federal partners, we are looking for and 
finding ways to keep our working lands working while at the same time 
achieve conservation goals. The community is behind our efforts to 
conserve our working lands and our rural lifestyle for social and 
economic reasons, but the outcomes have impressive ecological 
implications as well.
    Although most of our county is public land, adjacent private lands 
harbor some of the richest wildlife habitat, including some of the most 
important habitat in the West for Chinook salmon and steelhead trout. 
These fish have traveled to the ocean and back - a round trip of about 
1,600 miles - for thousands of years. Salmon were the staple for the 
Lemhi-Shoshoni tribe who inhabited the valley when Lewis and Clark came 
through the area, and salmon fishing continued to be part of the 
traditional way of life for ranching families who were early settlers. 
Today, dozens of landowners in this valley are voluntarily working with 
federal and state agencies and community-based organizations like Lemhi 
Regional Land Trust to make sure that when the wild salmon and 
steelhead return, they recognize home.
Three project examples:
    In this context, I'd like to share some of my community's 
experiences with federal programs intended to motivate private 
landowners to conserve land for the benefit of threatened and 
endangered species, and the multitude of other wildlife that rely on 
intact pieces of land to thrive.
Upper Salmon Basin Watershed Project
    Lemhi Regional Land Trust is one of the organizations participating 
in a collaborative group called the Upper Salmon Basin Watershed 
Project. The group works together to prioritize projects meant to 
enhance this critical fishery. Members include fish biologists, 
ranchers, conservationists, agencies, and tourism industry 
representatives, just to name a few. The group's recommendations put a 
powerful stamp of approval on proposals and let potential funders know 
that both ecological and social aspects of the plan have been carefully 
and thoughtfully considered.
    One of these funders is the Bonneville Power Administration. 
Bonneville Power mitigates the impacts of the massive hydroelectric 
dams on the Columbia River system, allocating revenue to fund the 
Pacific Coast Salmon Recovery Fund, established by Congress in 2000 to 
protect, restore, and conserve Pacific salmon and steelhead populations 
and their habitats. The National Oceanic and Atmospheric Administration 
(NOAA) manages the program that provides competitive funding to states 
and tribes of the Pacific Coast region, including Idaho. We have 
successfully used some of this funding to help conserve private working 
lands adjacent to the Lemhi River. I would like to make a few comments 
about what worked with this federal program:
        <bullet>  When the funding is awarded to the eligible states, 
        there is a state contact and in Idaho's case, this is the 
        Office of Species Conservation. As the Governor's 
        representative on these issues, the Office of Species 
        Conservation is highly motivated to make sure projects have 
        community support. Federal agencies with far away offices and 
        staff might not share this same sensitivity.
        <bullet>  The Office of Species Conservation also manages other 
        sources of federal funding, such as the Snake River Basin 
        Adjudication Habitat Trust Fund, which allow funds to be used 
        for project administration and implementation costs. This is 
        incredibly important, and all too rare. We are currently 
        working on a project to conserve land and water on two separate 
        ranches located on valuable tributaries to the Lemhi River. 
        Between three different funding sources, all public money, over 
        $2.5 million dollars has been designated for this project and 
        $25,000 for the hours of staff time necessary to make such a 
        project work on the ground. Additional funds for long-term 
        monitoring were allowed to make sure project benefits continue 
        to be realized over time. In this example, the $2.5 million 
        would not have gotten to the ground (or to the river) without 
        the allowance of $25,000 in implementation funding.
Saving Carmen Creek Ranch
    Another project involved the Natural Resources Conservation Service 
Farm and Ranchland Protection Program. In partnership with the Nature 
Conservancy, we used this program to purchase a conservation easement 
on a 300-acre parcel that is part of a multi-family, multi-generational 
ranch along Carmen Creek, an important fish-bearing tributary to the 
Salmon River just 5 miles from town. As one of the most scenic 
properties in the valley, the land was getting serious and focused 
attention from real estate developers. The three brothers who are the 
principals of Carmen Land and Livestock knew they valued the land for 
its productivity, its scenic qualities, and its undeniable importance 
to fish, birds, and other wildlife. The Farm and Ranchland Protection 
Program gave the brothers another option to keep their ranch viable 
other than subdividing.
    The Farm and Ranchland Protection Program was vital in the 
preservation of not only the 300 acres along Carmen Creek, but also for 
the intact working ranch that will now endure for generations to come. 
However, Lemhi Regional Land Trust will only approach this funding 
source again with caution, because the significant costs for 
implementing the project cannot be recovered through the program itself 
(and the cash match requirement puts this well-intentioned program 
beyond the reach of many of the most vulnerable farmers and ranchers). 
This is one of the many federal programs targeted at communities like 
ours that lacks funding for implementation. This project, and so many 
others like it, could not have been accomplished without a community-
based organization. \1\
---------------------------------------------------------------------------
    \1\ Community-based Organizations: Strategic Assets for Western 
Conservation. April 2010. Sustainable Northwest. http://
www.sustainablenorthwest.org/resources/rvcc-issue-papers/2010-issue-
papers/Community-based%20Orgs%20Final.pdf
---------------------------------------------------------------------------
Lemhi County Forest Restoration Group
    While Lemhi Regional Land Trust's focus is mostly on conserving 
private lands in the valley, a partner organization is working to 
achieve this same balance on our public lands. Salmon Valley 
Stewardship and the Lemhi County Forest Restoration Group are working 
to get past nearly two decades of gridlock on the Salmon-Challis 
National Forest, a forest that lately has retained more outside 
attorney jobs than community forest practitioner jobs.
    The Lemhi County Forest Restoration Group is successfully building 
social agreement around the dual concepts of forest health improvement 
and local economic benefit. The group is carefully tracking jobs and 
revenue created by their first 13,000-acre Hughes Creek project. Last I 
knew, even before the first commercial stick of wood has been cut, the 
project has put $200,000 into the local community, with more than 90 
percent going to Lemhi County workers. Because the Lemhi County Forest 
Restoration Group has placed importance on local economic benefit, they 
carefully monitor the project to ensure this benefit is realized. 
Surprisingly, few federal agencies--although endowed with millions of 
dollars--can report the same.
    The diverse group is working hard to bring additional dollars to 
forest restoration work. The collaborative's coordination activities 
and support staff is completely funded by private philanthropies. The 
group's members have been successful in raising money and using 
volunteers to help implement their projects, but these funds and 
volunteer hours are not guaranteed, and therefore keep the successful 
efforts of these organizations in an ever tenuous financial state. 
Although leveraging funding and human resources seems to be the best 
hope for the Forest Service's future, the agency is willing but 
woefully unequipped to manage grants and agreements with community-
based organizations. The Salmon-Challis National Forest shares one 
grants and agreement employee with two other national forests and her 
desk is 160 miles away. Because they are understaffed, agreements can 
easily take four months or longer to put into place, creating 
frustration and sometimes jeopardizing the funding the partner group 
brings to the table.
The solutions:
    Public and private partnerships, as well as groups of diverse 
stakeholders working together to solve economic and environmental 
challenges, is the only way we can move forward with innovative 
solutions that will create pathways to prosperity and address our 
nation's conservation challenges.
    Federal programs and the land management agencies need to better 
organize their business operations to be effective partners to rural 
community-based organizations, to fully utilize the federal programs 
that are currently in place, and to be truly effective and sustainable 
over time. For example, the time and resources it took to see our Farm 
and Ranchlands Protection proposal for the Carmen Creek easement from 
start to finish, as well as meet the monitoring requirements, far 
exceeded the amount of the grant or my organizations ability to raise 
funds from other sources; the program does not make good business 
sense. Federal programs need to recognize that getting money to the 
ground takes time, energy, and a degree of trust. Community-based 
organizations are often in the best position to offer these resources 
and in many cases can amplify the effect through public outreach, 
volunteer support, or leveraged funding. Some programs require a 50 
percent match with half of that needing to be cold, hard cash. 
Flexibility that recognizes the value of in-kind match would remove 
significant barriers to these funding sources.
    Collaborative efforts and community-based organizations have a 
unique ability to put politics aside and focus on these incredible 
landscapes. As we work together to find solutions, we get to know and 
trust one another. Going out on the range with a rancher or walking in 
the woods with a forester, you get a chance to hear the wisdom that 
comes from working and living on the land. Involving relevant members 
of the community in these important discussions as equals adds an 
element of respect that is too often missing outside the collaborative 
process.
    In Lemhi County and all over the West, we are motivated to create a 
balance between our environment and our livelihoods. When we figure out 
how to keep enough water in the streams for fish but still allow the 
rancher enough to irrigate his hay while providing an option other than 
subdividing, we know we have succeeded in achieving this balance. We 
have retained not just a few jobs, but potentially several generations 
of jobs, and the vibrancy of our small towns.
    Community-based organizations are not seeking to become yet another 
arm of the federal government. We are valuable because we are small, 
nimble, efficient, and tied to the land. My hope is that federal 
agencies can be enabled to recognize the importance of partners who are 
willing and able to get federal dollars on the ground in the most 
meaningful way possible.
Recommendations:
        1.  Make grant programs, such as the Farm and Ranchland 
        Protection program, more effective by making them more 
        flexible.
        2.  Match requirements for federal grants should take into 
        consideration the economic context of the grantee--public land 
        communities are high in poverty and unemployment, raising 
        private match in this context is a serious challenge.
        3.  Integrate funding to support long-term monitoring to be 
        performed by community-based organizations or other entities to 
        ensure the long-term objectives of projects can be successful.
        4.  Recognize that increasing partnerships and collaborative 
        efforts enhances the agencies' capacity.
        5.  Continue to support and fully fund the Land and Water 
        Conservation Fund and the Forest Landscape Restoration Act, 
        which hold great potential for communities such as mine.
    Thank you for the invitation and opportunity to meet with you 
today. It is my hope that this testimony has been helpful and I am 
happy to answer any questions.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Melanie Parker, 
Executive Director, Northwest Connections, Swan Valley, 
Montana. Welcome, and I look forward to your testimony.

  STATEMENT OF MELANIE PARKER, EXECUTIVE DIRECTOR, NORTHWEST 
               CONNECTIONS, SWAN VALLEY, MONTANA

    Ms. Parker. Thank you, Mr. Chairman. Thank you for inviting 
me here today to share my experience from Montana's Swan 
Valley. My name is Melanie Parker. I am the Executive Director 
of Northwest Connections. We are a not-for-profit business that 
hires and involves local people in citizen science. We engage 
in restoration. We lead collaborative planning efforts. We 
teach field ecology courses actually to young conservation 
professionals from all over the country.
    I also help my husband operate a traditional hunting and 
guide service and manage our small private forest land. I am a 
mom, and I am the chair of the local school board. The unifying 
concept really at the end of the day that I came here to talk 
about more than anything else in my written testimony is the 
value to this country of conserving working landscapes. I 
really believe strongly that Congress and this Administration 
need to focus both their conservation efforts and their job 
creation strategies on investment in working landscapes.
    So what are working landscapes? They are vast areas outside 
of designated parks and outside of wildernesses that still have 
high biological values. They are private lands and they are 
public lands. And they provide food, fiber, clean water, and 
wildlife habitat. They are lands that support the lives and the 
livelihoods of rural farms, rural ranches, and rural forest 
communities. They are lands on which millions of Americans 
rediscover the great outdoors: camping, fishing, hunting, 
hiking, biking, climbing. Working landscapes are not parks, and 
they are not sacrifice zones. They represent in fact the next 
great challenge in conservation across the West. And that is to 
say, how do we use land and take care of it?
    It is also a concept, this working landscape concept, that 
resonates quite deeply in rural communities. The Swan Valley, 
where I live, is one such working landscape, a vast area of 
checkerboard land ownership that stretches between two great 
wilderness areas to the south of Glacier National Park. Our 
working landscape has been threatened by two main factors, the 
divestment of our corporate land base into real estate 
development, and the shutdown of active management on our 
public lands. We are struggling to keep the land in landscape 
and the work in working.
    So there are three keys to our success that I pulled from 
my written testimony that I wanted to underscore right now. The 
first really is to communities like ours that are facing this 
divestment issue and the fragmentation in the real estate 
development. I really hope that this Subcommittee does support 
full funding for the Land and Water Conservation Fund. And in 
addition, I will tell you that what really helps working 
landscapes in the West--and it has occurred in some places--is 
to use those funds not necessarily just for straight-up 
acquisition, but for easement projects. That has happened in my 
state. And if you could encourage that flexibility and that 
tool, I think that would even improve it.
    Second, we need programs that invest in--you know, I guess 
I should back up and say--you probably saw this in my written 
testimony, but the way that we have utilized tools like that, 
right now, we are celebrating the conservation of 310,000 acres 
of former Plum Creek land in western Montana, and that is all 
the remaining corporate timberlands in my valley. So that is 
why I am kind of passionate about that one.
    The second is the investment in programs that fund 
restoration and stewardship for a long enough duration that our 
business owners can make those investments, and also programs 
that are rewarding the kinds of collaboration that our 
communities are bringing to the table. So most notably right 
now, the collaborative forest landscape restoration program. 
Our community, along with communities in the Blackfoot and the 
Seeley Lake area just submitted a proposal that will cover--
that will fund for 10 years, right, our partners, our Federal 
partners, $4 million a year for 10 years if we are successful. 
That is a big plus for our small businesses to be able to 
invest. And so those kinds of programs, I think, are really 
important. So I want to support full funding for CFLRP, but 
mostly I want to say it could be a template for other kinds of 
strategic investments.
    Last, I want to underscore what others have said about the 
value of our community-based organizations. In the Swan Valley, 
the very first building block to economic success has come from 
pulling various stakeholders together to forge common ground 
because without the social agreement on what constitutes land 
stewardship in our specific site, we quickly get locked up in 
contentious appeals and litigation. We as citizens have formed 
organizations that have built the capacity to build that social 
agreement and partner with all our agencies and interest 
groups, but there are no Federal programs, or very few at 
least, that support community-based organizations. So we would 
really encourage that.
    And just before I conclude, I would like to say I was 
thinking just as I was sitting back here that, actually, 
legislative tools that integrate those three things all in one 
place would actually really help us so that we are not chasing 
different things.
    OK. So in conclusion, I hope that as you have listened to 
my testimony and those of my fellow panelists, you realize that 
we actually represent something very important. We are new 
voices. We are not the voices of industry, and we are not the 
voices of environmentalism. We are the third way. We are 
rapidly becoming the new way of doing business in the West. And 
now we are formalizing new networks that are more regional in 
nature. We are organizing. We are aggregating because we know 
something deep in our hearts. We know that land and people are 
inextricably linked, and that our country--and that as a 
country we have to figure out how to protect resources and use 
them responsible. We are in it for the long haul. We hope you 
will partner with us. Thank you.
    [The prepared statement of Ms. Parker follows:]

 Statement of Melanie Parker, Executive Director, Northwest Connections

    Mr. Chairman, members of the committee, thank you for inviting me 
here today to share my experience from Montana's Swan Valley.
    My name is Melanie Parker and I live and work in a rural, forested 
valley in Western Montana. My husband has owned and operated a 
traditional hunting and guide service there for 33 years. My own 
background is in ecology and education. Together he and I formed 
Northwest Connections, a not-for-profit business that conducts citizen 
science, engages in restoration projects, leads collaborative planning 
efforts, and teaches field ecology courses to young conservation 
professionals from around the country.
    The Swan Valley is situated between two wilderness areas about 100 
miles south of Glacier National Park. The valley is home to grizzly 
bears, wolves, lynx, bull trout and many other threatened and sensitive 
wildlife species. This richness is in no small part due to the 4000 
wetlands that are strung across the valley bottom. The culture of the 
Swan Valley is tied directly to the abundant natural resources. Logging 
and log home building, along with outfitting and other outdoor related 
businesses characterize the economy. Historically, the community had 
very close ties to the Forest Service, as the ranger station was 
located in the small town of Condon, but 20 years ago that ranger 
station was closed as districts were consolidated and now all of the 
Forest Service personnel who administer the Swan Valley live and raise 
their families in the Kalispell area 75 miles to the north.
    Life in the Swan Valley has been dominated by the checkerboard land 
ownership pattern. As a result of the railroad land grants of 1864, 
nearly every other square mile has been owned and managed by corporate 
timber interests. In the mid-1900's, roads were improved enough in the 
Swan Valley to make commercial timber harvest viable. While it was the 
Forest Service who was most active in the middle part of the last 
century, it was Burlington Northern, later Plum Creek Timber Co., that 
extracted the bulk of the timber in the 1980's and 90's. Environmental 
concerns about the cumulative effects to the watershed, as well as a 
swell of environmentalism nationally, all but shut down activity on 
federal lands in the Swan Valley. This resulted in a landscape that we 
began describing in the late 1990's as the land of ``too much and not 
enough'' as nearly every acre suffered from either too much disturbance 
from road building and logging, or too little disturbance from the 
suppression of fire and the shutdown of active management.
    If the diminished Forest Service presence and the accelerated 
harvest of corporate lands were not enough, just over ten years ago we 
began to face a new challenge: corporate timber lands increasingly put 
on the real estate market and sold off for development. All of these 
challenges have driven our community to organize, to define our own 
vision of rural prosperity, and to develop strong partnerships with 
governmental agencies and non-governmental organizations to realize 
that vision.
    The dramatic success for which the Swan Valley is gaining notoriety 
at present, is our project to stem the tide of real estate development. 
After a decade of hard effort, we are celebrating the conservation of 
310,000 acres of Plum Creek Timber Co. land in Western Montana 
including all of the remaining corporate lands in the Swan Valley. We 
succeeded at building partnerships between local and national groups, 
and at putting together federal, state and private funding sources to 
secure these lands.
    There are a lot of reasons this project has met with success, but I 
would like to highlight perhaps the most important and least visible 
reason. In rural communities all across the west we are speaking a new 
language. It is a language that has profound new meaning, and it is not 
the language of the past. We are talking more and more about the 
conservation of working landscapes. The conservation of working 
landscapes is something that resonates very deeply with rural 
communities and that vision is what has allowed us to garner such 
widespread political support for this Plum Creek lands project.
    What are working landscapes? They are vast areas outside of 
designated parks and wilderness areas that have high biological values. 
They are private lands and public lands that provide food, fiber, clean 
water, and wildlife habitat. They are lands that support the lives and 
livelihoods of rural farms, rural ranches and rural forest communities. 
They are lands on which millions of Americans rediscover the great 
outdoors: camping, fishing, hunting, hiking, biking, climbing. Working 
landscapes are not parks, and they are not sacrifice zones. They 
represent, in fact, the next great challenge in conservation across the 
West which is to say how do we use land and take care of it.
    When our community began struggling with the challenge of corporate 
timber land divestment, we did not know what the final outcome would 
be, but we did know that we wanted a working landscape, one where we 
could balance the use and care of the land. We had been weathering the 
boom and bust cycles for decades just like so many other rural 
communities across the West, the cycles that follow this country's 
alternating impulses to exploit or protect the resources of our region. 
Our community was not then, and is not now, interested in being the 
victim of this nation's polarizing wars on natural resource management; 
we are looking at every juncture for opportunities to chart our own 
destiny as leaders in a movement to prove that landscapes like the Swan 
Valley can provide good work, locally delivered resources and 
environmental stewardship.
    And so now, in 2010, the Swan Valley finds itself in transition. 
The Trust for Public Land and The Nature Conservancy have worked with 
us to purchase and convey much of the former Plum Creek lands in the 
Swan Valley to the U.S. Forest Service. That is a dramatic conservation 
success of the first order. But our success will only be complete when 
we establish a long term program of stewardship work on those public 
lands.
    Our collaborative efforts in the Swan Valley have broken the 
gridlock on federal lands management and we have begun to see a few 
good projects employ local people, but our transition is tenuous at 
best right now. We have seen a steady erosion of economic vitality in 
recent years. The Swan Valley has roughly half the number of businesses 
it had 15 years ago, and only one third the number of children enrolled 
in the local elementary school. Our ability to retain and create family 
wage jobs tied to public land management has never been so critical
    My testimony at this point divides into two segments. The first 
addresses the tools that are important to communities like ours to 
arrest the accelerating development of private lands that adjoin and 
are integrally connected to public lands across the West. These tools 
help communities secure the land base that support rural economic 
activity. The second segment addresses tools that can help us 
transition the old economies of extraction and protection into the new 
economy of stewardship.
STEMMING DEVLEOPMENT PRESSURE
    The Land and Water Conservation Fund (LWCF) is critical and I hope 
this congress supports full and permanent funding for the program. When 
Plum Creek put up their first ``higher and better use'' land sale in 
1997 along the shores of Lindbergh Lake adjacent to the Mission 
Mountain Wilderness, the Trust for Public Land helped us secure LWCF 
dollars to acquire those acres and convey them to the Flathead National 
Forest. It continues to be an important program to our project and to 
many other landscapes and communities with which I am familiar.
    Congress should give direction to federal and state agencies to 
make LWCF more flexible for the purchase of conservation easements on 
private lands. In many public lands dominated communities there is a 
strong desire to retain valuable private landholdings, and for those 
areas an easement option is essential.
    In the Swan Valley, we have also made use of the Forest Legacy 
program as well as Habitat Conservation Plan programs to address 
development pressure and I see great value in maintaining and expanding 
those programs for western communities facing large scale land 
conversion issues.
    Rural communities like ours are also very interested developing new 
forms of land tenure. Because most of the forces that determine our 
fate are external and remote--whether the land base is federal, 
corporate, or state land--we are interested in programs that will help 
us acquire and manage community-owned lands. In the Swan Valley we have 
one such community conservation area which we are currently hoping to 
expand. Two programs will help communities like ours. The first, the 
Community Forest and Open Space Program provides funds to local 
governments and qualifying non-profit organization to purchase 
community lands. The second is the authorization of the Community 
Forestry Conservation Act, which would give communities the ability to 
issue bonds to purchase land and secure the bonds with future 
sustainable timber harvest.
    For the small private forest land owner who wants to stave off the 
temptation to sell or subdivide, we need to maintain programs like the 
Forest Stewardship Program within State and Private Forestry and the 
Farm and Ranch Land Protection Program within NRCS. I have heard from 
several land owners that they would be more likely to use those 
programs if the matching requirement could be in the form of donated 
value, rather than cash. The cash match is simply too expensive for 
most traditional rural land owners.
    Investments in these kinds of programs are very strategic, and 
reduce costs to the American tax payer. I can tell you that the rural 
sprawl across every other square mile that we were facing in the Swan 
Valley would have meant huge increases in firefighting costs, as well 
as increased demands for wildlife recovery dollars. According to one 
Forest Service report if homes were built in only half of the private 
lands bordering public land the annual federal firefighting costs would 
range from $2.3 Billion to $4.3 Billion per year. Each of the programs 
I mentioned above help conserve working landscapes, curb future costs 
to the public, and secure the land base for rural economic activities.
PROMOTING A LAND STEWARDSHIP ECONOMY
    In the Swan Valley, the first building block to economic success 
has come from pulling diverse stakeholders together to forge common 
ground. Without social agreement on what constitutes land stewardship 
in our specific site, we quickly get locked up in contentious appeals 
and litigation. There can be no economic stability for our community 
until all of the groups interested in our landscape can work hand in 
hand with state and federal agencies to chart a long term program of 
work.
    Federal programs that link federal investment dollars to successful 
collaboration are key. This past year, communities in the Swan Valley, 
in Seeley Lake and across the Blackfoot Valley have submitted a 
proposal to the Collaborative Forest Landscape Restoration Program 
(CFLRP). If we are successful, our federal agency partners will receive 
$4M/year for ten years to accomplish restoration work on public lands 
across 1.5 million acres. CFLRP is very good legislation that requires 
a broad coalition of interests to assess the landscape together, 
identify priorities and sketch out a plan for action in order to be 
successful. CFLRP should receive full funding for the next ten years. I 
should also be used as a template for other programs to invest in 
restoration and land stewardship across the west.
    Collaboration is the foundation for economic prosperity in the 
west, and yet it lacks support from federal agencies and from most 
federal programs. In many communities like the Swan Valley citizens 
have organized themselves into non-governmental organizations (NGO's) 
that have the capacity to partner with government agencies, private 
land owners and other associations and interests. Federal programs to 
support NGO partners, however, are few and far between. The National 
Forest Foundation has been an important support system for many 
community based organizations in our region, and congress should fully 
fund their appropriations, but we also need to look for other 
opportunities to invest in local and regional collaborative 
conservation efforts.
    Another key to success relates to the capacity of federal land 
managers to put the necessary staff time into collaborative 
conservation efforts. Right now federal employees have very few 
incentives to partner with our community organizations. Performance 
measures that put a value on collaboration in rural western communities 
need to be developed and strengthened.
    In the Swan Valley we have faced additional challenges related to 
the remoteness of our federal agency staff and by the turnover in key 
leadership positions. Federal agencies should recognize the value of 
keeping land management professionals in place over time. The resulting 
trust and understanding that is built between agencies, NGO's and rural 
residents sets the stage for successful design and implementation of 
land stewardship projects.
    Stewardship has become a key concept for us as it connotes both 
work on and care for the land. Stewardship contracting is one of the 
very best tools to come along in the past decade and it needs to be 
reauthorized and its use expanded across the West. In stewardship 
contracts, the government can choose the BEST contractor, not 
necessarily the one who delivers the highest dollar amount back to the 
government. This has really helped to incentivize our workforce to 
prove its capacity to do good work, not just fast work. We whole 
heartedly support the re-authorization of stewardship contracting and 
we hope to see the federal agencies use it as the dominant form of 
doing business.
    All of this said and done, we are still faced with a situation 
where the American people are asking agencies like the Forest Service 
to do stewardship, but the agencies are still funded through old 
categories like timber. We need a new integrated budget structure that 
incentivizes holistic integrated stewardship. This year the President's 
budget recommended the Integrated Resource Restoration (IRR) line item. 
I have talked to many on my district, my forest, and across Western 
Montana who think IRR has great promise, but they have fears that their 
particular special interest--timber, fire, wildlife--will lose funding. 
We need to hammer out the right guidelines for such an integrated 
budget structure, and that may take another year, but I do 
enthusiastically support such a budget structure reform and believe it 
will produce better projects that garner broader support.
CONCLUSION
    In July 2010 I can report to you that we in the Swan Valley are 
making progress. We have built strong local and regional 
collaborations. Those diverse stakeholders have worked together to 
erase the checkerboard land ownership pattern and they have made strong 
progress in articulating goals for the restoration and stewardship of 
the entire landscape. Now we need federal agencies that are ready, 
willing and able to partner with us. And we need a firm commitment from 
congress to invest in the conservation and stewardship of working lands 
in our valley and all across the West.
    I hope that as you listen to the testimony of all my fellow 
panelists you realize that we represent something very important. We 
are new voices. We are not the voices of industry and we are not the 
voices of environmentalism. We are a third way and we are rapidly 
becoming the new way of doing business in the West. It may not be 
visible to you at this hearing, but many of us now know each other. We 
didn't used to, but we started bumping into one another, telling our 
stories, and realizing the parallels. Now we are formalizing new 
networks. My group, Northwest Connections, is a member of the Rural 
Voices for Conservation Coalition, convened by Sustainable Northwest. 
But for Sustainable Northwest's support, my voice and several others 
here would likely not be here today. Jim Stone's group the Blackfoot 
Challenge is also helping to coordinate a regional network known as the 
Partners for Conservation. We are organizing and we are aggregating, 
because we know something deep in our hearts. We know that land and 
people are inextricably linked and that until this country figures out 
how to protect resources and use them responsibly, we are sunk.
    We are in it for the long haul and we hope you will partner with 
us.
    Thank you.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. And just as a note, Ms. 
Parker, you need to be very careful. I started out as a school 
board member, and all your plans could go awry overnight.
    Ms. Mondragon, one of the things you mentioned and you talk 
about generations of families living off the lands in New 
Mexico, and there is a checkered history of Federal land 
management and the conflict between communities, history, land 
grants. And so how do national forests fit into that 
preservation of the way of life that has been there for 
generations and generations in New Mexico, and particularly in 
some parts of the north?
    Ms. Mondragon. Thank you, Mr. Chairman. You know, 
nationally, I can't really speak to how it would nationally. 
But I do know that, you know, in our area, it is very important 
to see and to have these lands that we can preserve. We can go 
out and we can thin. We help against wildland fire. We, you 
know, help preserve against some of the other diseases that the 
trees are now getting. And it really connects the community 
that for a long time--and still do; there are some areas that 
folks have a real hard time with because they feel that it is 
their land. They feel that, you know, my great grandfather 
owned that, and it was stolen from me, things of that nature. 
And so it really helps connect them back to the land and make 
them feel like it is still theirs, and they can help preserve 
it. They can help treat it so that it is healthier.
    I am not sure if that answers your question. OK. Thank you.
    Mr. Grijalva. In your written testimony, Ms. Troy, you 
mentioned saving the Carmen Creek Ranch. And it couldn't have 
been done, as you accurately pointed out, without community-
based organizations. You started to talk a little bit about 
that. But what does an organization, community-based like 
yours, bring to the table to help facilitate that conservation 
effort? And we can use the Carmen Ranch as the example.
    Ms. Troy. OK. Thank you, Mr. Chairman. That particular 
program, we used the Farm and Ranch Land Protection Program, 
and within that program, one of the tools that we used for 
conservation in my community are conservation easements. Within 
Farm and Ranch Land Protection Program, we are able to use 
conservation easements to protect the land on the ground that 
will then keep the land in private land ownership.
    What I think we were able to bring to the table is both 
capacity skills and the experience necessary to get what is a 
very complicated, long, perpetual document and agreement in 
place to create that land protection. Our local natural 
resources conservation service office is wonderful, but they 
don't have the kind of skills and experience to negotiate an 
agreement like that, I think, or the time really to do it. So 
that is what allowed that project really, I think, to get done.
    Mr. Grijalva. Thank you. Ms. Parker, what could Federal 
land management agencies do to assist new businesses and 
workers in learning not just about restoration, but also the 
stewardship on public lands and the long-term commitment to the 
development of that relationship between the Federal land 
management and those surrounding communities?
    Ms. Parker. OK. Thank you for the question, Chairman.
    Mr. Grijalva. You know, your point about consolidating some 
of the legislative initiatives----
    Ms. Parker. Yeah.
    Mr. Grijalva.--is a point well taken, and thank you. But--
--
    Ms. Parker. Yeah.
    Mr. Grijalva. OK.
    Ms. Parker. And I hope I answer the question. Before I do, 
I want to acknowledge that I am actually a native of the great 
State of Arizona, so I am especially pleased to make your 
acquaintance. OK. Well, I guess I am going to break that into 
two things. First of all, I want to acknowledge that the 
learning goes two ways. It is not just Federal agencies sort 
of, you know, teaching the working contractors, which I know 
you know, but what we really appreciate and like is the kind of 
collaborative relationship where everybody standing around a 
circle, out in the winds, and we are learning from each other. 
And so I think just having--the Federal Government--just having 
a program of work where local contractors can access it over 
time creates that long-term relationship where that cross-
learning is happening.
    B, another thing Federal agencies can do that will help 
that is just to keep their people in place over time to develop 
those relationships with local communities. One of our big 
obstacles, actually, is the bungee jumping of Federal employees 
through our rural community. And so that breaks down that long-
term trust building. So the learning is important there.
    And then the third thing I just want to sort of throw in 
there, like Joyce, we also have quite a few youth volunteer 
corps programs that are scaffolding the next generation, not 
the people who are working right now, but the ones that are 
just behind them, into the programs where they are doing, you 
know, stream monitoring, wildlife monitoring, those kind of 
things. And our Youth Corps program is not like an SCA type 
program, where you are building trails. It is more a knowledge 
creation program.
    And so I would encourage Congress, as you are integrating 
with the Administration on the America Great Outdoors 
Initiative, to really look at some homespun youth corps 
programs in our rural communities, as well as the big national 
groups, because I think we are actually trying to promote our 
local youth into the workforce to stay there over time.
    Mr. Grijalva. And you answered my other question.
    Ms. Parker. Oh, good.
    Mr. Grijalva. Which was about youth. As a community-based 
organization having to bring diverse parties together for 
discussions--this is just my curiosity--do you find your role 
as an organization or as an individual leading that 
organization to be more of an arbiter of what is going on, or 
kind of more of a leader in a direction? Just a curiosity on my 
part?
    Ms. Parker. Who do you want to answer?
    Mr. Grijalva. Either one, all of you, in fact.
    Ms. Parker. You go first.
    Ms. Troy. Thanks. I think the short answer is it is 
certainly not always easy. But in our particular case, it is 
really important to understand that my organization was created 
by ranchers. So it is starting from the ground up. And the 
reason it is starting from the ground up is because there was a 
need for an organization like ours. We were seeing turnover of 
some of our really especially notable ranches in the community. 
And I think that really alarmed folks deep down, and, you know, 
really questioned whether our traditional way of life was going 
to stay intact.
    So for my organization, landowners come to us. We don't go 
knock on doors. So that is how it starts. And then because we 
are trying to with some of this endangered species funding, 
when they come to us as a local group, we basically sit down, 
and I tell them, OK, here is the deal. This is Federal money, 
and it has strings attached. There are specific conservation 
outcomes that need to happen if we are going to use this money. 
And then the next question they ask me is, well, can we keep 
ranching. And, you know, another complicated answer is, yes, 
probably. But we need to figure out how to do that in a way 
that is compatible, you know, with these conservation 
objectives.
    I think the next step is the really important one. I say, 
how do you think we can do that? And I think that is what is 
missing when we don't have a collaborative process in place. 
You miss that wisdom from the people who live and work on the 
ground, because, guess what, they have some of the best ideas 
about how to accomplish conservation on their particular ranch.
    So at that point, then it goes to this larger 
collaborative, and we try to figure out if those are 
compatible, those two--if the landowners' goals and the goals 
of the program are in fact compatible. So it is a lengthy 
process.
    Mr. Grijalva. Thank you. Anybody else?
    Ms. Parker. No.
    Mr. Grijalva. Well, I want to thank the panel, and in 
expressing my gratitude, tell you that, you know, some of us 
are very, very passionate about conservation and preservation. 
And unfortunately, the discussions become an either-or 
proposition. And so I welcome your testimony because in 
reality, it is not. But sometimes you are forced to put up the 
barracks because that is what the war has been about, either-
or. And so your testimony today, we don't all have to jump in, 
that there is another way to create dialogue, painful as it is 
sometimes, compromise. And particularly, I like the point that 
you made about the working landscape of the West. And it is 
absolutely true.
    And so thank you very much. You know, sometimes our Federal 
land managers and our special places and public spaces are seen 
as job killers. They are seen as the enemy. And I don't believe 
that is true. We can revive many of the communities that you 
work with. But I think that also requires the Federal agencies, 
and the two departments, Interior and Agriculture in 
particular, to think outside the way they have been thinking 
about this for a long, long time. And as we begin to craft a 
response, not only to the Great Outdoors Initiative, 
reauthorizing the public school support, and reauthorizing 
other pieces of legislation, some of the input that we have had 
from people that are actually on the ground today is going to 
be very, very valuable. And so as we craft that legislation for 
the future, your input is going to be valuable, and it is going 
to be useful. So thank you very much. The meeting is adjourned.
    [Whereupon, at 1:20 p.m., the Subcommittee was adjourned.]

    [NOTE: The following individuals and organizations 
submitted documents for the record, which have been retained in 
the Committee's official files.]
        <bullet>  Bruell, Harry, President, Southwest 
        Conservation Corps
        <bullet>  Cooper, Tom and Carol, Ranchers, Otero Mesa, 
        New Mexico
        <bullet>  Damitz, Sean, Director, Utah Conservation 
        Corps
        <bullet>  Stone, Jim, Rancher and Chairman, Rolling 
        Stone Ranch and The Blackfoot Challenge
        <bullet>  Watson, Jay, Western Regional Director, 
        Student Conservation Association
        <bullet>  The Wilderness Society

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
